<html>
<title> - COUNTERTERRORISM: THE CHANGING FACE OF TERROR</title>
<body><pre>[Senate Hearing 109-859]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-859
 
             COUNTERTERRORISM: THE CHANGING FACE OF TERROR

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION



                               __________

                             JUNE 13, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
34-695                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee...............    35
Benjamin, Daniel, senior fellow, International Security Program, 
  Center for Strategic and International Studies, Washington, DC.    56
    Prepared statement...........................................    60
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........     3
    Prepared statement...........................................     6
Crumpton, Hon. Henry A., Coordinator for Counterterrorism, 
  Department of State, Washington, DC............................    15
     Prepared statement..........................................    17
Feingold, Hon. Russell D., U.S. Senator from Wisconsin...........    32
Hagel, Hon. Chuck, U.S. Senator from Nebraska....................    28
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     1
 Martinez, Hon. Mel, U.S. Senator from Florida...................    43
McLaughlin, Hon. John E., senior fellow, Merrill Center for 
  Strategic Studies, Paul H. Nitze School of Advanced 
  International Studies, Johns Hopkins University, Washington, DC    46
    Prepared statement...........................................    49
Nelson, Hon. Bill, U.S. Senator from Florida.....................    32
Obama, Hon. Barack, U.S. Senator from Illinois...................    38
Redd, Hon. John Scott, Vice Admiral, USN (Ret.), Director, 
  National Counterterrorism Center, Office of the Director of 
  National Intelligence, Washington, DC..........................     7
     Prepared statement..........................................    11

                                 (iii)

  


             COUNTERTERRORISM: THE CHANGING FACE OF TERROR

                              ----------                              


                         TUESDAY, JUNE 13, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-19, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman) presiding.
    Present: Senators Lugar, Hagel, Alexander, Martinez, Biden, 
Feingold, Nelson, and Obama.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. Today the committee meets to 
begin a series of hearings on the issue of global terrorism and 
our international efforts to combat it. The dramatic and tragic 
events of September 11, 2001, caused a sea of change in how 
Americans view terrorism. No longer was this a phenomenon that 
occurred only in distant places with victims unknown to us.
    While many Americans, often working in the service of our 
State Department or military, have lost their lives in 
terrorist acts overseas in recent years, the September 11 
attacks on our homeland seared the images of terrorism in the 
minds of Americans forever. Americans were jarred out of our 
complacency. Our remedies as a government in the aftermath of 
the attacks, have changed the way that we travel, the way that 
we move across our borders, the way that we manage 
international trade and finance, and the way that we approach 
our foreign policy.
    Through tireless work with our partners overseas and here 
at home, we have made progress. We have forced al-Qaeda from 
its base in Afghanistan and severely disrupted its central 
leadership. Recent news of the successful joint United States-
Iraqi strike against Abu Masab al-Zarqawi and the foiled 
terrorist plot in Canada clearly indicate that our investments 
and those of our partners are meeting with some success.
    However, it is equally clear that military operations alone 
will not win the longer war on terrorism. The State 
Department's recent report on counterterrorism trends notes 
that while al-Qaeda's leadership is now on the run, its 
finances and logistics disrupted, and its Afghan safe haven 
gone, the core leadership continues to provide ideological 
guidance to followers worldwide. It has lost much of its 
operational capability, but it has increased its emphasis on 
propaganda activity and it continues to inspire terrorist cells 
in many parts of the world. Its political will has not been 
undermined.
    We also are seeing an increase in suicide bombings around 
the world. The July 7 bus and subway attacks in London that 
drew on British citizens as suicide bombers was a particularly 
noteworthy occurrence. The Near East and South Asia regions of 
the globe remain hard-hit by terrorism, accounting for almost 
75 percent of the attacks and 80 percent of the fatalities last 
year. Attacks on journalists serving in foreign countries also 
are on the rise and observers are noting more frequent 
occurrences of homegrown terrorist cells here in North America, 
the Canadian plot being the most recent example.
    All of this shows that, despite our operational and 
tactical successes, the root causes of terrorism and the 
intense ideological motivation behind the phenomenon persists. 
How then should we go forward? What new forms is terrorism 
taking, and how are groups changing their tactics? What are 
their central aims and motivations, and how do we as a nation 
project to affected populations worldwide an image of hope 
rather than enmity? Does our current strategy sufficiently 
account for the roles of diplomacy, international exchange, and 
foreign assistance in this battle, so that we can reach Muslims 
and others who currently hear a message of hate and revenge 
from within their most radical ranks? How do we not just 
counter Osama bin Laden's tactics, but also enlist support to 
discredit his strategic plan and vision within the worldwide 
Muslim community? How do we artfully use so-called soft power 
to deny the terrorists their favorite havens of unstable 
societies and uncontrolled territories?
    The purpose of today's hearing is to receive reports from 
those currently and formerly on the front lines of the U.S. 
counterterrorism effort about how we are doing, how terrorists 
are adapting and changing their operations, and where we are 
headed in the short and longer term.
    First, we will hear from two Government officials who are 
key players in our international efforts to combat terrorism. 
Vice Admiral John Scott Redd is the Director of the National 
Counterterrorism Center. In this capacity, Admiral Redd heads 
an entity that develops plans, conducts analysis, and provides 
assistance to all elements of the Government that are involved 
in disrupting or preventing future terrorist acts. Admiral Redd 
commanded the United States 6th Fleet in the mid-1990s. He also 
served as Director of Plans on the Joint Staff and was a deputy 
to Ambassador Paul Bremer at the Coalition Provisional 
Authority in Baghdad.
    Ambassador Henry Crumpton is the State Department's 
Coordinator for Counterterrorism and has responsibility for 
coordinating and supporting all United States Government 
policies aimed at countering terrorism overseas. Ambassador 
Crumpton served with distinction for many years in the CIA as 
an operations officer, as a Chief of Station, and most recently 
as the leader of CIA's Afghan campaign in 2001 and 2002. On our 
second panel we will hear from two accomplished public servants 
who have entered the private sector. John McLaughlin is 
currently a senior fellow at the Johns Hopkins School of 
Advanced International Studies and is a former Acting and 
Deputy Director of the CIA. Mr. McLaughlin had a long and 
distinguished career in the Agency's Analysis Directorate and 
has chaired the National Intelligence Council.
    Daniel Benjamin has served on the National Security Council 
staff and in this capacity had responsibility for the breadth 
of programs encompassing U.S. counterterrorism efforts. He is a 
former foreign correspondent for Time Magazine and is coauthor 
of ``The Age of Sacred Terror,'' which was selected as a 
``Notable Book of 2002'' by The New York Times and the 
Washington Post. His latest book, ``The Next Attack,'' examines 
the evolution of the terrorist threat since September 11, 2001, 
and the conduct of the war on terror during that period.
    I deeply appreciate our witnesses being with us today. We 
look forward to their testimony. First of all, it is my 
pleasure to call upon the distinguished ranking member of the 
committee, Senator Joe Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Thank you very much, Mr. Chairman. Thank you 
for having this hearing on international terrorism. We do have 
a distinguished panel and I welcome them again. I had a chance 
to personally welcome them.
    Folks, the risk of catastrophic international terrorism in 
a single or multiple events, it seems to me, is the greatest 
single threat now to our national security. The question is 
whether our country is combatting terrorism in the best way and 
that is the purpose of the hearing, at least in part.
    Frankly, Mr. Chairman, I do not think it is, despite some 
very notable successes. I hope this series of hearings will 
help us determine the reason for the shortfall, if I am correct 
about this shortfall, and help point us in the right direction.
    After 9-11, the administration very quickly and correctly 
focused on uprooting al-Qaeda from its sanctuary in 
Afghanistan, capturing and killing its leaders, and assisting 
other countries like Pakistan, Yemen, and the Philippines where 
there was a terrorist presence tied to al-Qaeda. For a year we 
went after that clear threat, using both military and 
nonmilitary means, with international support and, I would 
argue, with a fair amount of success. We also improved 
intelligence sharing both at home and with other countries 
during that period.
    Then, in my view, we diverted our attention from defeating 
international terrorism to ousting Saddam Hussein and remaking 
Iraq. Today Iraq has become what it was not, in my view, before 
the war, a breeding ground and a training ground for 
terrorists. Iraq's drain on our military resources has been 
felt clearly in Afghanistan, where our inattention gave the 
Taliban a new lease on life.
    I remember the debate we had after at least my first trip 
to Afghanistan right after the Taliban was defeated, where I 
spent considerable time with Secretary of State Powell 
arguing--and he agreed, I might add--that we should add 
resources. I met with the generals there, including the British 
general who was up in the capital, and met with our commanding 
officer at Bagram Air Force Base. They were all saying--it was 
uniform--we needed more, more--not fewer, but more assets in 
order to finish the job.
    I remember coming back and the President asking me to 
debrief him, as we all do when we get back from trips and 
saying, what a great victory. I said, it was a great victory, 
it was a great victory against Afghanistan. But I asked the 
heretical question: How many body bags can you count of the 
Taliban? How many body bags? We estimated there were 50,000 men 
in arms and there were not very many body bags.
    Now, that is not a bad thing per se, but it means they went 
somewhere. I remember going from Kabul in 17 degree weather out 
to the old headquarters where the Soviets housed their 
personnel--it looked like a big public housing project--and 
meeting with a whole lot of folks who had come into that 
complex, occupied it, who were from the plains. I asked them 
about going back. I said: Will you not go back home now? They 
said: Why are we going to go back home? The Taliban is still 
there. We are not going back home. We are not going back home.
    So here we are now in the circumstance where I would argue 
that Afghanistan at least has increasing problems, not 
diminishing problems, and if we are not very deft about it we 
may find ourselves in real trouble in Afghanistan. So our 
inattention, I think, or insufficient attention, has given the 
Taliban a new lease on life.
    The death of Zarqawi last week was obviously most welcome 
and I probably said some imprudent things about how happy I was 
about his demise. And I hope it proves to be a turning point. 
But I doubt that it will in the absence of a real strategy for 
victory and a significant change in our strategy in Iraq.
    Right now all the administration has in place--and God 
willing, with the strategic meeting they have had at Camp David 
and the President's visit to Iraq, there may be a harbinger of 
change in strategy. But up to now I would argue this 
administration has had a strategy to prevent defeat, but not to 
win. So far Iraq has been a net loss in the war on terrorism, 
in my view. In my judgment, our emphasis on military force in 
the war on terrorism has been a bit shortsighted.
    A strong military is absolutely necessary, absolutely 
necessary, but in my view not sufficient to deal with this 
threat we are going to be talking about today. It has to be 
part of, not a substitute for, a wise policy and a coherent 
strategy. I worry the administration may be militarizing our 
policy to a point of leaving our other policymakers all but out 
of the loop. Combatant commanders are getting authority to run 
their own military education and military assistance programs. 
Special operations forces reportedly are deployed to countries 
without our ambassadors knowing about it, let alone approving 
of the deployments. The CIA allegedly paid Somali warlords to 
fight against Islamic militants, against the advice of 
diplomats in the region and, as it turns out, unsuccessfully, 
causing a serious setback, in my view, to our counterterrorism 
efforts there. In all these cases the State Department, 
although nominally in control, seems in fact to have been a 
rubber stamp for ideas proposed by other agencies.
    In Afghanistan, the administration's failure to follow 
through on reconstruction has bred deep resentment that 
endangers all the gains we have made, in my view, since 2001. 
Afghanistan is lapsing into a full-fledged narco-economy. The 
Taliban are stronger than they have been at any point since 
their ouster. Last week Karzai suggested that he had to reverse 
the disarmament process and start rearming the warlords. That 
is progress for you.
    Meanwhile, public diplomacy remains ineffective and our 
support of democracy is taking a back seat to other issues in 
Russia, Egypt, Central Asia, and China, which is, I would 
argue, understandable but nonetheless regrettable.
    Two and one-half years ago, one of Secretary Rumsfeld's 
initial memos made its way into the press. The Secretary in one 
of his so-called ``snowflakes'' asked two critical questions. I 
think they are pertinent today: ``Are we capturing, killing, or 
detaining and dissuading more terrorists every day than the 
madrassas and radical clerics are recruiting, training, and 
deploying against us?'' To repeat his question: ``Are we 
capturing, killing, or detaining and dissuading more terrorists 
every day than the madrassas and radical clerics are 
recruiting, training, and deploying against us?''
    He asked a second question: ``Does the United States need 
to fashion a broad integrated plan to stop the next generation 
of terrorists?'' That was the question in one of his 
snowflakes. Maybe some of that snow fell on some of you. But 
they are both very legitimate questions, very legitimate 
questions.
    The answers were and, I believe, remain no and yes. No, we 
are not stopping more terrorists than the radical 
fundamentalists are creating, and yes, we need a comprehensive 
strategy to do that.
    So Mr. Chairman, I hope we use these hearings to step back 
and ask where we are and where we should be heading in 
combatting terrorism. What is the nature of the terrorist 
threat today, now that we have done great damage to al-Qaeda 
but not been able to wipe it out, let alone wipe out its appeal 
to Muslim people around the world? Is Iraq the frontline in the 
war on terrorism? Whether we planned that or not, is it the 
frontline now? Or is it really a different sort of fight?
    Outside of Iraq, what are the trends in terrorist 
organizations and activities? Why do Osama bin Laden and all 
the top al-Qaeda leadership still have safe haven in Pakistan? 
Are all elements of the Pakistani Government, including all 
levels of the intelligence service, firmly committed to the war 
against al-Qaeda and its affiliates? Remember the ISI was very, 
very close to Pashtun and the Taliban prior to the war. I 
believe they still are.
    What new strategy is needed to reverse the tide in 
Afghanistan? What is a reasonable objective in countering 
international terrorism and how should we measure our progress 
toward achieving that objective? How should we balance military 
and nonmilitary components of a counterterrorist policy, and 
how can we orchestrate the full range of counterterrorist tools 
rather than just trying one thing, then another? What sort of 
international support is needed, if any, and how can we build 
and maintain that support? Finally, what level of effort is 
needed on our part? If this is a global war, then what sort of 
sacrifices should we be prepared to make? If it is to be a long 
war, then how shall we maintain the public support for this 
long war?
    We have a fine set of witnesses, Mr. Chairman, to help us 
begin to grapple with those challenges and I look forward to 
hearing their testimony and the testimony of those to follow. I 
want to thank you again, Mr. Chairman, for arranging this 
hearing.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator from 
                                Delaware

    Thank you, Mr. Chairman, for holding this hearing on international 
terrorism, the first in an important series of hearings.
    The risk of catastrophic international terrorism is the greatest 
single threat today to our national security. The question is whether 
our country is combating terrorism in the best way. Frankly, Mr. 
Chairman, I don't think it is, despite some very notable successes. I 
hope that this series of hearings will help us to determine the reasons 
for this shortfall and point us in the right direction.
    After 9/11, the administration quickly and correctly focused on 
uprooting al-Qaeda from its sanctuary in Afghanistan, capturing or 
killing its leaders, and assisting other countries (like Pakistan, 
Yemen, and the Philippines) where there was a terrorist presence tied 
to al-Qaeda. For a year, we went after the clear threat, using both 
military and nonmilitary means, with international support and with 
fair success. We also improved intelligence sharing, both at home and 
with other countries.
    Then, in my view, we diverted our attention from defeating 
international terrorism to ousting Saddam Hussein and remaking Iraq.
    Today, Iraq has become what it was not before the war: A breeding 
ground and a training ground for terrorists. And Iraq's drain on our 
military resources has been felt clearly in Afghanistan, where our 
insufficient attention helped give the Taliban a new lease on life. 
Many of us argued ever since the Taliban fell that we needed to put 
more resources into Afghanistan. We failed to do that and Afghanistan 
is once again a growing problem.
    The death of Abu Musab al-Zarqawi last week was obviously most 
welcome. I hope it proves to be a turning point. But I doubt that it 
will in the absence of a real strategy for victory. Right now, all the 
administration has is a strategy to prevent defeat. So far, Iraq has 
been a net loss in the war on terrorism.
    In my judgment, our emphasis on military force in the war on 
terrorism has been short-sighted. A strong military is absolutely 
necessary, but it is not sufficient. It must be part of, not a 
substitute for, wise policy and a coherent strategy.
    I worry that the administration may be militarizing our policy to 
the point of leaving other policy makers all but out of the loop.

  <bullet> Combatant commanders are getting authority to run their own 
        military education and military assistance programs.
  <bullet> Special operations forces reportedly have deployed to 
        countries without our ambassadors knowing about it, let alone 
        approving the deployments.
  <bullet> The CIA allegedly paid Somali warlords to fight against 
        Islamic militias--against the advice of diplomats in the region 
        and, as it turned out, unsuccessfully--causing a serious 
        setback for our counterterrorism efforts there.
  <bullet> In all these cases, the State Department, although nominally 
        in control, seems in fact to have been a rubber stamp for ideas 
        proposed by other agencies.

    In Afghanistan, the administration's failure to follow through on 
reconstruction has bred deep resentment that endangers all the gains 
we've made since 2001.
    Afghanistan is lapsing into a full-fledged narco-economy. The 
Taliban are stronger than at any point since their ouster. Last week, 
President Karzai suggested he had to reverse the disarmament process 
and start rearming the warlords.
    Meanwhile, public diplomacy remains ineffective, and our support of 
democracy is taking a back seat to other issues in Russia, Egypt, 
Central Asia, and China.
    Two and a half years ago, one of Secretary Rumsfeld's internal 
memos made its way into the press. The Secretary asked two critical 
questions: ``Are we capturing, killing or deterring and dissuading more 
terrorists every day than the madrassas and radical clerics are 
recruiting, training, and deploying against us?''
    And: ``Does the United States need to fashion a broad integrated 
plan to stop the next generation of terrorists?''
    The answers were and remain ``no'' and ``yes.'' No, we're not 
stopping more terrorists than the radical fundamentalists are creating. 
And yes, we need a comprehensive strategy to do that.
    Mr. Chairman, I hope we use these hearings to step back and ask 
where we are, and where we should be heading in combating terrorism.

  <bullet> What is the nature of the terrorist threat today, now that 
        we have done great damage to al-Qaeda, but not been able to 
        wipe it out, let alone wipe out its appeal to Muslim people 
        around the world?
  <bullet> Is Iraq the front line in the war on terrorism (whether we 
        planned for that or not)? Or is it really a different sort of 
        fight?
  <bullet> Outside of Iraq, what are the trends in terrorist 
        organization and activity?
  <bullet> Why do Osama bin Laden and the top al-Qaeda leadership still 
        have safe haven in Pakistan? Are all elements of the Pakistani 
        Government--including all levels of the intelligence service--
        firmly committed to the war against al-Qaeda and its 
        affiliates?
  <bullet> What new strategy is needed to reverse the tide in 
        Afghanistan?
  <bullet> What is a reasonable objective in countering international 
        terrorism, and how should we measure our progress toward 
        achieving it?
  <bullet> How should we balance military and nonmilitary components of 
        counterterrorist policy?
  <bullet> How can we orchestrate the full range of counterterrorist 
        tools, rather than just trying one thing, then another?
  <bullet> What sort of international support is needed, and how can we 
        build and maintain that support?
  <bullet> Finally, what level of effort is needed on our part? If this 
        is a ``global war,'' then what sort of sacrifices should we be 
        prepared to make? If this is to be a ``long war,'' then how 
        shall we maintain public support for it?

    We have a fine set of witnesses, Mr. Chairman, to help us begin to 
grapple with those challenges, and I look forward to hearing their 
testimony. Thank you again for arranging this hearing.

    The Chairman. Well, thank you, Senator Biden. We look 
forward now to hearing from the first panel of those witnesses. 
I am going to call upon you in the order that I introduced you. 
That will be Admiral Redd first and then Ambassador Crumpton. 
Admiral Redd, would you please proceed, and let me just say 
that the statements of both of you and of our two concluding 
witnesses this morning will be placed in the record in full. 
You may summarize if you would like to do so. Please proceed.

STATEMENT OF HON. JOHN SCOTT REDD, VICE ADMIRAL, USN [RETIRED], 
   DIRECTOR, NATIONAL COUNTERTERRORISM CENTER, OFFICE OF THE 
       DIRECTOR OF NATIONAL INTELLIGENCE, WASHINGTON, DC

    Admiral Redd. Thank you, Mr. Chairman. Mr. Chairman, 
distinguished members of the committee. I do appreciate the 
opportunity to appear before you. This is my first appearance 
before this group, before the Senate Foreign Relations 
Committee, and I am, as always, delighted to be here with my 
shipmate from the State Department, Ambassador Hank Crumpton.
    Mr. Chairman, let me go right to the bottom line. In your 
invitation you asked me to provide an assessment of our 
counterterrorism efforts based on my 10 months in the job as 
Director of NCTC. Let me give you the bottom line. I believe 
that we are better prepared today to fight the war on terror 
than at any time in our Nation's history, and we are getting 
better every day. That is the bottom line and I will come back 
to that a little bit later on.
    That said, as the President has noted many times, sir, we 
are at war and we are at war with a dangerous, adaptable, and 
persistent enemy. Some aspects of this war are familiar to us. 
As was the cold war, this is likely to be a very long war. 
Although I very sincerely hope to be proven wrong, I fully 
expect that my grandchildren will be well into their adult 
years before this conflict is over. Also like the cold war, 
with its war against communism, this war has a strong 
ideological content to it.
    Let me start out by outlining our current picture of the 
enemy if I could. First, al-Qaeda and its core leadership still 
remain our preeminent concern. As you have noted, we have 
achieved considerable success in attacking the leadership, but 
the battle is by no means over. They are resilient, smart, and 
committed.
    We also worry about the merger between al-Qaeda and al-
Qaeda in Iraq, or AQI, the group formerly headed by Abu Musab 
al-Zarqawi. Eliminating Zarqawi is clearly a major step 
forward, but both al-Qaeda and AQI will continue with their 
deadly work.
    Our second broad area of concern is the collection of other 
Sunni terrorist groups who have been inspired by al-Qaeda. 
Although they tend to be primarily regional in nature, many of 
these groups increasingly see themselves as part of a global 
violent extremist network and they indeed target United States 
interests overseas.
    Third, as you have noted, we worry about the relatively 
recent emergence of a homegrown variant of the terrorist 
problem. Recent events in Canada highlight the importance of 
this issue. While not controlled by al-Qaeda, these new 
networks draw inspiration from their ideology, and clearly we 
are not immune here in the United States.
    Finally, although we are focusing on the Sunnis, we are not 
concerned only with al-Qaeda and its Sunni variants. The Shia 
organization, Hezbollah, remains a potent terrorist 
organization, one that is backed by two long-term sponsors of 
terrorism. In the same vein, the behavior of state sponsors, 
particularly Iran, continues to be a high priority for us.
    No matter how one chooses to characterize the nature of the 
enemy and the war, one thing is clear. To win the war on 
terrorism, as you have indicated--both of you have indicated--
the United States and its allies need to bring all elements of 
power to bear on the problem. That, sir, in a nutshell is why 
the National Counterterrorism Center, or NCTC, was established.
    If you would, let me review briefly with you the role that 
NCTC is playing today in the war on terror and the role we will 
continue to play in that war. As you know, we are a fairly new 
organization. As mandated by the reform legislation, 
intelligence reform legislation of 2004, we basically perform 
two critical functions. As the Director, going back to my Navy 
days, I wear two hats. One of those hats involves a very 
familiar role. That is the role of intelligence. In that, I 
report to the Director of National Intelligence, Ambassador 
John Negroponte.
    The second hat involves a new and what I believe almost 
fair to say revolutionary role, and that is the responsibility 
for conducting strategic operational planning for the war on 
terrorism for the entire U.S. Government. In that hat I report 
to the President. To put that in military terms, we at NCTC, in 
conjunction with our interagency colleagues, are responsible 
for producing the Government's war plan for the war on 
terrorism and the intelligence annex which supports it.
    Let me focus first, if I could, on the intelligence 
mission. The DNI has recently designated NCTC as its mission 
manager for counterterrorism. In that role, John Negroponte 
looks to us to integrate all of the intelligence community's 
efforts in counterterrorism, including collection, analysis, 
and production. In the area of analysis, the law designates 
NCTC as the primary organization in the U.S. Government for 
analyzing and integrating all CT analysis. Today NCTC produces 
a wide spectrum of intelligence product ranging from strategic 
analyses for the President to tactical warning reports for the 
operators.
    We are also in the information-sharing business. In fact, I 
would submit that NCTC is the Government's model for classified 
information-sharing. At the tactical level, NCTC runs a 24-7 
high-tech operations center that is in constant touch with all 
the counterterrorism community, ensuring that everyone has the 
latest threat information. We are also responsible for the 
Government's central database of known or suspected 
intelligence terrorists. This all-source repository contains 
more than 300,000 entries, representing over 200,000 unique 
identities. This database is the ultimate source of the various 
watch lists, including, for example, TSA's no-fly list.
    Finally, we assemble intelligence information and analysis 
from 28 different government networks and we distribute it 
online to 5,000 analysts--over 5,000 analysts--around the 
world. Today those analysts have access online to more than 5 
million pieces of terrorism-related intelligence.
    Sir, that is a very short summary of a very sophisticated 
intelligence operation. Let me turn briefly now to our second 
fundamental mission--that of strategic operational planning. In 
my view, strategic operational planning serves to fill a long-
existing gap in government, one which has been present for 
almost all of my 4 decades of Government service. Simply put, 
the White House has long been in the business of establishing 
and promulgating strategic broad strategy and policy. At the 
other end of the spectrum, the Cabinet departments and agencies 
have been responsible for conducting operations in the field. 
What has been missing has been that piece in between policy and 
operations, and that need has become even more obvious as we 
fight the global war on terrorism. Strategic operational 
planning is designed to fill that gap.
    The goal of SOP, or strategic operational planning, is very 
straightforward. It is to bring all elements of national power 
to bear in an integrated and effective manner in the war on 
terror, and by all elements of national power, as has been 
alluded to, we mean diplomatic, financial, military, 
intelligence, homeland security, and law enforcement 
activities.
    NCTC's role in this regard is to lead a Government-wide 
planning process which is simple in description and extremely 
complex in execution. Basically, it involves four phases. First 
is a planning phase. This involves taking those national 
strategies and policies and translating them into a 
comprehensive list of discrete tasks. Those tasks are then 
prioritized and assigned to the departments for execution.
    The second phase involves implementation of the plan. Our 
job is to monitor and facilitate operations. As noted in the 
legislation, we do not conduct operations. That is the job of 
the departments and the agencies.
    The third phase involves assessing and adjusting our 
efforts. Is the plan working? Is it accomplishing our strategic 
goals? Does it need to be changed?
    The final phase, of course, is adjusting the plan and 
starting the process all over again.
    Now, I want to emphasize that this is a continuing and 
iterative process and, although it may sound bureaucratic, as 
General Dwight Eisenhower once said: Plans are nothing; 
planning is everything.
    Sir, that is a quick summary of NCTC and our role in the 
war on terrorism. We are in many ways a work in progress as we 
take on major new responsibilities while continuing to perform 
the tasks which we have already taken on. As we often say, we 
are building an airplane while we are flying it. That said, I 
believe we are making a true value add which will only grow 
over time.
    Mr. Chairman, I began my remarks by stating that the United 
States is better prepared to fight this war than at any time in 
our history. While we still have lots of hard work before us, I 
believe there is good evidence for that assessment. First, our 
intelligence is better. Terrorists are clearly a difficult 
target, but our analysis, our production, and our collection 
are all improved. Second, we have made significant strides in 
information-sharing and getting that intelligence to those who 
need it to conduct operations. Third, as you noted, we have 
taken the fight to the enemy and achieved significant successes 
in the field. Many of those successes and probably most of them 
will never see the light of day, but we owe a great debt of 
gratitude to those who have made them happen. Fourth, we are 
attacking every element of the terrorist life cycle, 
specifically including terrorist travel and terrorist 
financing. Fifth, as you have noted, this is not only an 
American effort. We are working more closely and more 
effectively with a great number of allies around the world to 
defeat the terrorists. Some we can talk about publicly, such as 
our cooperation with Canada. Others are sensitive and must 
remain classified.
    Sixth and very importantly, we have made the United States 
homeland a hostile place for terrorists to enter and to 
operate. Seventh and finally, through a revolutionary strategic 
planning effort we are laying the groundwork to take the superb 
efforts which are already under way to a new level of 
integration and effectiveness. That effort specifically 
includes a comprehensive approach to long-term strategic 
efforts as well as near-term tactical offense and defense.
    The bottom line in all of this is it makes me guardedly 
optimistic about the long-term picture. I believe it is no 
accident that we have not been attacked since 9-11 here at 
home. It is the result of hard work, great sacrifice, and 
determined effort. However, while we take satisfaction from 
that record, we certainly cannot assume that we will not be 
attacked again. We must always remember that this is a long 
war. We must always remember that the enemy is adaptable and 
the enemy also has a vote. There are many battles yet to be 
fought and setbacks are certain to come along the way. But I do 
remain confident about the ultimate outcome if we remain 
steadfast and on course.
    Thank you for your attention, sir, and that completes my 
oral statement.
    [The prepared statement of Admiral Redd follows:]

  Prepared Statement of Hon. John Scott Redd, Vice Admiral, U.S. Navy 
   (Ret.), Director, National Counterterrorism Center, Office of the 
           Director of National Intelligence, Washington, DC

    Chairman Lugar, Senator Biden, distinguished members of the Senate 
Foreign Relations Committee. Thank you for the invitation to appear 
before the committee this morning to discuss the changing face of 
terrorism and the role that the National Counterterrorism Center is 
playing in support of the President's strategy to combat terrorism. 
This is my first appearance before the SFRC, and it is an honor to 
engage with you on this critical subject.
    I am also pleased to be appearing on this panel alongside 
Ambassador Crumpton, the State Department's Coordinator for 
Counterterrorism (CT). As I'm sure you are aware, Ambassador Crumpton 
has worked tirelessly over the past year to advance our Nation's CT 
agenda around the world, and to forge the web of multilateral, 
bilateral, and regional partnerships that is so critical to the success 
of our strategy in the war on terrorism. His work has been invaluable 
in explaining the President's counterterrorism policy around the world.
    In my brief remarks today, I would like to do three things. First, 
I want to provide a summary picture of the terrorist threat: How we see 
it, how it has evolved in the period since we were attacked on 9/11, 
and how it may continue to change over time.
    Second, I would like to outline for you the ways in which the 
National Counterterrorism Center (NCTC), the organization I am 
privileged to lead, is contributing to the Nation's war effort and to 
making the American people safer and more secure, both here at home and 
around the world. At the end of the day, that is our core mission and 
the single measure of effectiveness that matters most to me and my 
colleagues at NCTC.
    And third, I will offer a brief assessment of our overall 
counterterrorism efforts, from my perspective after 10 months as 
Director of NCTC.
    I use the words ``war effort'' quite deliberately, because, as the 
President has said on many occasions, we are indeed a Nation at war. 
And I believe it is a war that we will be fighting for quite some time 
into the future. I would be quite happy to be proven wrong on this 
point, but I expect that my young grandchildren will be well into their 
adult years before we can say that the war is over.
    Preparing ourselves to fight and win this ``long war'' requires 
that we know our adversary and that we understand as much as we can 
about how the enemy operates. In assessing the changing face of 
terrorism, I would draw your attention to three distinct incarnations 
of the terrorist threat; each with its own characteristics and 
capabilities, and each requiring tailored counterterrorism strategies 
to defeat it.
    First, al-Qaeda and its core senior leadership, although 
significantly degraded, remain our preeminent concern. As committee 
members are well aware, working with our allies and partners, we have 
made significant progress in eliminating much of the core al-Qaeda 
leadership. Our actions have disrupted ongoing terrorist planning and 
operations; we have clearly made it much more difficult for al-Qaeda to 
train, plan, and conduct terror attacks.
    But the battle is by no means won. It is equally clear that al-
Qaeda continues actively to plot attacks against the U.S. homeland and 
our interests abroad. They are resilient, adaptable, and committed. 
They remain our greatest and most immediate concern in the war on 
terrorism. UBL and Ayman al-Zawahiri also continue to tell us directly 
in their audio and video statements that targeting U.S. interests 
remains a top priority.
    The merger between al-Qaeda and al-Qaeda in Iraq (AQI), the 
terrorist group formerly led by Abu Musab al-Zarqawi, also remains near 
the top of our list of concerns. While the successful elimination of 
Zarqawi represents a severe blow to both al-Qaeda and AQI, we expect 
both organizations will carry on with their deadly work. The merger 
between AQ and AQI is of particular concern because it puts al-Qaeda in 
a position to access a much wider, more diverse pool of terrorist 
operatives, many of them battle hardened and experienced in terrorist 
tradecraft.
    The second face of our terrorist enemy is represented by the host 
of other Sunni terrorist groups around the globe who have been inspired 
by al-Qaeda and who subscribe to the violent extremist worldview 
articulated by the al-Qaeda senior leadership. In addition to UBL's and 
Zawahiri's statements about targeting the United States, the plethora 
of audio and video messages from them over the past year reflects al-
Qaeda efforts to motivate other like-minded violent extremists as well, 
reaching those who may not be under formal command and control of al-
Qaeda, but who certainly share their aims.
    These groups have traditionally operated in a regional context and 
been motivated by grievances specific to the politics of their 
particular region. As their kinship with the al-Qaeda belief system has 
taken hold, these groups have adopted the view that it is the United 
States that is at the root of most problems affecting Muslims around 
the world.
    We have long been concerned that these groups constitute a 
significant threat to our allies and interests in key regions around 
the world. It is also apparent, however, that many members of these 
groups view themselves as part of a global violent extremist network 
that aims to advance the al-Qaeda agenda and target U.S. interests 
around the world.
    Our third area of concern with respect to the terrorist threat is 
the relatively recent emergence of a ``homegrown'' variant of the 
traditional terrorist cell or group. Following the attacks last summer 
in England, the recent arrests in Canada highlight the growing salience 
of this trend. We are uncovering the spread of new violent extremist 
networks and cells that lack formal ties or affiliation with al-Qaeda 
or other recognized terrorist groups. These groups or cells do not fall 
under the command and control of the AQ senior leadership and indeed 
operate quite independently.
    These new networks are often made up of disaffected, radicalized 
individuals who draw inspiration and moral support from al-Qaeda and 
other violent extremists. Group members are most often young, in their 
teens and twenties, and from families that are second- or third-
generation immigrants to their western communities. To the outside 
observer, these terrorists might well appear to be fully assimilated 
members of their western communities.
    We have begun to see cells like these here in the United States as 
well. Federal and local law enforcement authorities have done 
outstanding work over the last 2 years to disrupt the planning of 
potential homegrown terrorists who aim to strike at the homeland. In 
one case, two individuals who are U.S. Muslim converts were caught 
robbing a gas station to support their attack plans in California. 
Possible targets included Jewish synagogues, the Israeli Consulate in 
Los Angeles, and a National Guard facility.
    The challenge of countering these cells is complicated by the fact 
that they may operate virtually, with much of their communication and 
planning taking place over the Internet. This network of virtual 
contacts increases the relative stealth with which these terrorists can 
organize, communicate, and plan potential attacks.
    The emergence of this new brand of al-Qaeda-inspired, homegrown 
terrorist group poses real challenges to the intelligence community and 
we are grappling with a whole new set of questions: What forces give 
rise to this violent ideology in immigrant communities that may appear 
otherwise to be quite well assimilated? How and why are young Muslims 
becoming radicalized to the point where they embrace this violent 
ideology? How do we counter those forces? What signs should we be 
looking for to try to draw early warning of potential problems?
    Lastly, I will say a few words about Lebanese Hezballah. Hezballah 
remains a potent, capable terrorist organization backed by two long-
time state sponsors of terrorism. I would not want my emphasis on al-
Qaeda and other Sunni-affiliated terrorist threats to suggest in any 
way that we are not focused on the potential threat to U.S. interests 
posed by Shia-inspired terrorism, and more specifically, Hezballah. I 
can assure you that we are. The behavior of state sponsors, 
particularly Iran and Syria, also continues to be a high priority, 
something on which I know Ambassador Crumpton and Secretary Rice are 
very focused.
    That, in brief, is the shape of the terrorist threat as we see it 
at the National Counterterrorism Center, representing the intelligence 
community. We certainly focus on other groups that target United States 
interests around the world, such as the FARC in Columbia, but I wanted 
to focus my remarks today on the principal terrorist enemy, as we 
define it. We are constantly working to improve our understanding of 
that enemy so that we can be sure that we are employing the proper 
tools to defeat him. With your permission, Mr. Chairman, I'd now like 
to walk you through the work that the NCTC is doing to support the 
President's strategy and our Nation's war on terrorism.
    NCTC is a relatively new organization, built on the foundation of 
the Terrorist Threat Integration Center (TTIC), which was established 
by the President in early 2003. The Intelligence Reform and Terrorism 
Prevention Act of 2004 (IRTPA) significantly expanded upon TTIC's 
initial mission and created the NCTC organization, as it exists today.
    As Director, I have a number of responsibilities, but they boil 
down to two critical missions. The first relates to intelligence, where 
I report to Ambassador Negroponte, the Director of National 
Intelligence. I am his Mission Manager for Counterterrorism, serving as 
the intelligence community's focal point for all intelligence matters 
relating to counterterrorism. Wearing this intelligence hat, I work 
closely with all of the different elements of the intelligence 
community.
    But NCTC has an important role to play beyond the intelligence 
arena, and it requires that I wear a different hat and that we interact 
with a broader set of actors. As codified in the IRTPA, NCTC is 
responsible for conducting Strategic Operational Planning (SOP) for the 
war on terrorism for the entire U.S. Government. Wearing that hat, I 
report to the President and interact constantly with the President's 
National Security Council and Homeland Security Council staffs. In a 
few minutes, I will say more about this strategic operational planning 
function, which I believe represents something truly innovative, even 
revolutionary, in the way we do business as a Government.
    But first, let me say a little more about the intelligence role 
that NCTC plays in support of the President's strategy and the war on 
terrorism. Wearing this hat, I am responsible for overseeing three key 
intelligence-related functions: Terrorism analysis, information 
sharing, and mission management.
    With respect to terrorism analysis, NCTC's role in the intelligence 
community is expanding dramatically to fulfill the vision of the IRTPA. 
Put simply, the law states that NCTC will be the primary organization 
in the U.S. Government for analyzing and integrating all intelligence 
information related to terrorism, excluding purely domestic terrorism. 
To support that analytical effort, NCTC serves as the single place 
where all terrorism-related information available to the Government 
comes together.
    That means NCTC analysts have daily access to an unprecedented 
array of classified information networks, databases, and intelligence 
sources. Using this data, NCTC analysts, working with counterparts 
throughout the intelligence community, produce daily products that 
focus on both big picture, strategic terrorism analysis that supports 
policy development, as well as analysis of tactical threat reporting 
that supports U.S. personnel in the field, both overseas and here at 
home.
    My second area of responsibility in the intelligence field relates 
to information sharing, where we are working hard to address the 
shortcomings that were all too apparent in the period after September 
11. I believe we have had significant success in this critical area.
    I'll start with a very simple and straightforward example of 
information sharing that benefits the entire counterterrorism community 
in a very real way. Three times a day, NCTC chairs a secure video 
teleconference with all of the key members of the intelligence 
community, as well as other counterterrorism players from around the 
Government.
    In those meetings, we share the latest threat information, discuss 
the steps various departments and agencies are taking to mitigate the 
threat, and provide a forum for interagency coordination on 
intelligence tasks. One of the good news stories that we have seen 
during my tenure is the way in which this kind of information sharing 
has become institutionalized, a matter of habit and routine rather than 
an ad hoc arrangement dependent on personalities or personal 
relationships.
    NCTC also provides a critical information sharing backbone for the 
CT community with our maintenance of the Government's central database 
on known or suspected international terrorists. The NCTC database, 
known as the Terrorist Identities Datamart Environment, or TIDE, 
contains all-source intelligence information provided by all of the 
various members of the intelligence community, up to the very highest 
levels of classification. Today there are over 300,000 record entries 
in the TIDE database, reflecting over 200,000 unique terrorist 
identities.
    This database serves a critical purpose as it supports all of the 
various watch-listing efforts that go on around the Government. The 
classified information in TIDE is used to produce an unclassified 
extract that goes to the FBI's Terrorist Screening Center. That 
information is then used to compile the TSA's No-Fly List, the State 
Department's Visa and Passport Database, DHS's Border System and the 
FBI's National Crime and Information Center.
    While I would not claim the system is foolproof or perfect, it 
represents a major step forward for our Government in the effort to 
solve the problem of disparate, incomplete, and disconnected watch 
lists.
    A further example of information sharing can be found in NCTC's 
management of what we believe is the most effective classified 
counterterrorism<plus-minus> Web site in the world, something we call 
NCTC Online, or NOL. Put simply, we gather disseminated intelligence on 
the terrorist threat from throughout the counterterrorism community by 
virtue of our access to almost 30 networks and databases. We then post 
that intelligence on a single NOL Web site, where it can be accessed by 
policymakers, intelligence analysts, and a host of other consumers 
around the Government.
    This site aims to provide one-stop information for the consumer of 
terrorism intelligence information, whether that person sits in an 
office in downtown Washington, or is deployed in a forward headquarters 
in a combat zone, or in an embassy overseas. Today, there are 
approximately 5,000 cleared consumers in the Federal family who take 
advantage of NOL offerings, which contain approximately 5 million 
different intelligence products or reports.
    The third broad area of our NCTC responsibilities in the 
intelligence area can be summarized under the heading of Mission 
Management. As Ambassador Negroponte's designated Mission Manager for 
Counterterrorism, I am responsible for understanding the needs of our 
customers around the community, for monitoring and improving the 
quality of our collective activities and analysis on terrorism issues, 
for identifying and closing key information gaps that prevent us from 
understanding the terrorism problem as well as we might, and for 
ensuring the most efficient use of our CT intelligence resources across 
the board.
    This Mission Manager role is new and reflects a concept introduced 
by Ambassador Negroponte based on the WMD Commission report. In support 
of this role, we have established a Mission Management directorate 
whose sole purpose is to advance these broad aims, serve as an advocate 
within the CT community, and bring about greater integration of our 
intelligence efforts.
    All of these various analysis and information-sharing activities 
are aimed at one thing: Ensuring that we provide the best possible 
information and analysis to those who need it, when they need it, to 
fight and win the war on terrorism. I can think of no more important 
mission in the intelligence field.
    A few minutes ago, I mentioned that I wear a second hat as NCTC 
Director, one related to Strategic Operational Planning for the war on 
terrorism. Let me say a few words about that function.
    At first blush, ``strategic operational planning'' almost seems 
like a contradiction. How can planning be both strategic and 
operational? The answer to that question can be found in the gap that 
we are trying to fill between the development of policy and strategy at 
a high level, and the ground-level tactical operations of frontline 
departments and agencies that seek to implement policy and strategy. 
This is a gap that has existed for as long as I have served in 
Government, and that covers over four decades of service.
    For developing broad policy and strategy, we have the well-
developed, time-tested mechanism of the National Security Council (NSC) 
system, and more recently the Homeland Security Council (HSC) process. 
The NSC and HSC serve to frame policy issues for discussion, debate and 
ultimately decision by the principals and the President. It is a system 
well known to everybody in this room. At the other end of the spectrum, 
there are the individual departments and agencies responsible for 
conducting operations in the field that support the policy and strategy 
of the United States. What has long been missing is that piece in the 
middle, the space between policy and operations.
    The goal of our SOP function is straightforward: To bring all 
instruments of national power to bear in support of our 
counterterrorism strategy, and to do so in a coordinated, integrated 
fashion. As laid out in the IRTPA, ``all instruments'' means 
diplomatic, financial, military, intelligence, homeland security, and 
law enforcement activities. The NCTC charter in this regard is 
extremely simple in one sense, yet remarkably complex in it execution. 
Let me explain.
    First, there is a deliberative planning process. This means taking 
our national-level counterterrorism strategy and policy and breaking it 
down into strategic goals, tangible objectives and subobjectives, and 
ultimately into discrete tasks. These tasks are then assigned to a lead 
agency or department for execution. Finally, we must prioritize the 
tasks.
    As NCTC builds this plan, we employ a fully collaborative, fully 
participatory interagency process. This means bringing planners, 
terrorism experts, and other subject matter specialists from all of the 
relevant departments and agencies into the strategic operational 
planning process, under the direction and leadership of NCTC. This 
process, which involves hundreds of people across the CT community, has 
been underway for a number of months now.
    NCTC has worked hard to make this process work in a way that 
leverages the skills, abilities, and expertise of all of the relevant 
departments and agencies. Make no mistake. The product that emerges 
from this planning process is an interagency product, not simply the 
work of a small group of planners working out at NCTC.
    After we have built a strategic operational plan, and run it 
through the NSC process for approval, we move to implementation of the 
plan. This second phase involves what the IRTPA describes as 
``interagency coordination of operational activities.'' This means the 
coordination, integration, and synchronization of departmental 
operations. We are just beginning to work out how this will function in 
practice.
    The third phase of our SOP process involves an assessment process. 
NCTC is charged with monitoring, evaluating, and assessing the 
execution and effectiveness of the plan. The fourth and final phase 
involves adjusting and revising the plan, at which point we begin the 
cycle anew.
    The point I would highlight here is that we are creating a 
rigorous, iterative planning process to support the President's 
strategy. As General Eisenhower once noted, ``Plans are nothing; 
planning is everything.'' We have taken that message to heart.
    Chairman Lugar, in your invitation to this hearing, you indicated 
that you would like to hear my assessment of U.S. counterterrorism 
efforts in the period since I assumed my duties at NCTC last year. I 
firmly believe that we are making great progress in our 
counterterrorism efforts, progress that should give us great 
satisfaction. While I cannot go into great detail about many of our 
operational successes given the open nature of this hearing, I can make 
a few general observations about our overall progress.
    We are taking concrete steps to improve our collective 
understanding and analysis of the terrorist threat and the enemy we 
face. We are working diligently to correct the deficiencies in 
information sharing that have plagued us in the past and to 
institutionalize patterns of cooperation and collaboration so that they 
become a permanent part of the interagency landscape.
    And lastly, with our strategic operational planning efforts, we at 
NCTC are leading the Government's efforts to provide the connective 
tissue that will link the President's bold and visionary 
counterterrorism strategy with the operations and activities of our 
colleagues on the front lines of the war on terrorism.
    All of this work marks a new, more collaborative, and more 
integrated approach to winning the war on terrorism. As a government, 
we have come together in ways that I have never seen during my four 
decades of Government service. We at NCTC are honored to be a part of 
that interagency team effort. Indeed, our Government workforce at NCTC 
is made up almost entirely of officers, from other departments and 
agencies, men and women who bring the skills, experience, and expertise 
from their home agencies to the fight every day.
    NCTC has come a long way in a short time, but we are in many ways a 
work in progress, taking on new responsibilities and functions even as 
we develop capability. I often say that we're building the airplane at 
NCTC even as we are being asked to fly it. But I believe strongly that 
we have made real, tangible progress toward making the American people 
safer and more secure.
    All of this makes me relatively optimistic about the long-term 
picture. As a Government, we have done an incredible amount to make our 
country safer and more secure. We have taken the fight to the enemy and 
achieved great successes in the field. For that, we owe a great debt of 
gratitude to our men and women in uniform and to the intelligence 
professionals in the field, all of whom are confronting the enemy on 
the front lines of the war on terrorism. And this is not only an 
American effort. Working with our partners around the world, in ways we 
often cannot talk about publicly, we are jointly making real headway in 
the war on terrorism.
    Here at home, we have made the homeland a hostile place for 
terrorists and those who provide them with material support. The fact 
that we have not been attacked here in the homeland since 9/11 is not 
an accident. And while we take great satisfaction in the record since 
9/11, it would be foolhardy to think that we will not be attacked 
again. As I noted earlier, this is a long war with many battles yet to 
be fought and with setbacks certain to come along the way. But I remain 
confident and optimistic about the ultimate outcome.
    As I hope you can see, Mr. Chairman, we are clear-eyed about the 
road ahead and the work we still have in front of us. The enemy is 
capable, determined, resilient, and focused on doing us serious harm. 
Our efforts to defeat that enemy and win the long war must be equally 
determined and focused.
    Thank you for your attention. I look forward to addressing your 
questions.

    The Chairman. Well, thank you very much, Admiral Redd, for 
your very forthcoming testimony. We look forward in due course 
to questions of you from our committee. But it is my privilege 
now to call upon Ambassador Henry Crumpton for his testimony.

     STATEMENT OF HON. HENRY A. CRUMPTON, COORDINATOR FOR 
     COUNTERTERRORISM, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Crumpton. Chairman Lugar, Senator Biden, 
distinguished members of the committee. Thank you for the 
opportunity to testify today. I am especially pleased to join 
my colleague and friend, Admiral Scott Redd, with whom I have 
worked closely during the last year.
    The U.S. Government has achieved some success in the war on 
terror. Plots have been disrupted. A large portion of al-
Qaeda's senior leadership has been caught or killed, including 
most recently Zarqawi. We have degraded the group's global 
network by capturing or killing hundreds of operatives. We have 
also contributed to the ongoing development of a global 
counterterrorism network of allies.
    While recognizing our success, we also recognize that 
challenges remain. The terrorist threat is constantly evolving. 
Self-radicalized and self-organized groups and cells pose a 
growing threat. They do not necessarily depend on the 
operational support or guidance from centralized al-Qaeda 
command structures, but what they do share is al-Qaeda's 
violent ideology, a belief in existential war. The enemy gains 
strength from exploiting local grievances and conflicts, 
building alliances with regional groups, and engaging in 
intelligence collection, deception, denial, sabotage, 
subversion, terrorism, and open warfare.
    In response to our operational success, enemy elements are 
becoming smaller in size and less tightly organized. We see 
more threats emerging from tiny cells and even individuals, 
some with greater autonomy, which makes them more difficult to 
detect, more difficult to engage. Terrorist groups are becoming 
more sophisticated, using the Internet to improve their global 
reach, intelligence collection, and operational capacity.
    Technological advancement has been matched by a growing 
sophistication in terrorist propaganda, information operations, 
and increasingly diffuse organizational structures. They 
continue to seek access to weapons of mass destruction, making 
efforts to counter WMD proliferation a fundamental part of the 
fight against terrorism. We also see the increasing overlap of 
terrorist and criminal enterprises.
    Iraq poses unique challenges. We must deny Iraq to 
terrorists who oppose Iraqis' new government. Al-Qaeda and 
associated foreign fighters seek to hijack, transform, and 
direct local Sunni insurgents. They view Iraq as a training 
ground and indoctrination center for Islamic extremists from 
around the world. Although Zarqawi is dead, al-Qaeda in Iraq 
still poses a threat, and not only for Iraq but for the region.
    There is evidence that core leaders, including bin Laden 
and Ayman Zawahiri, are frustrated by their lack of direct 
control. They are isolated in the hinterlands of the 
Afghanistan-Pakistan frontier. We must retain this unrelenting 
pressure against al-Qaeda, especially their leadership, to 
further diminish the links in their global networks.
    Like enemy leadership, enemy safe havens have a great 
strategic importance. Safe haven allows the enemy to recruit, 
organize, plan, train, coalesce, rest, and claim turf as a 
symbol of legitimacy. That is why al-Qaeda and its affiliates 
place so much emphasis on attaining safe haven. We therefore 
must contest physical space and cyberspace, where the enemy 
recruits, fundraises, plans, and trains.
    We must also contest belief systems, ideas, and ideologies 
that terrorists disseminate. We must bring an end to state 
sponsorship of terrorism, in which Iran and Syria are prominent 
examples, especially in light of their ongoing support to 
Hezbollah and a wide array of Palestinian terrorist groups.
    Our strategy to defeat terrorists is structured at multiple 
levels: A global campaign to counter violent extremism, a 
series of regional collaborative efforts to deny terrorists 
safe haven, and numerous bilateral security and development 
assistance programs designed to partner CT capabilities as well 
as liberal institutions that support the rule of law and 
address political and economic injustice. This strategy is 
aimed to enhance our partners' capacity to counter the threat 
and address conditions that terrorists exploit. We work with or 
through our partners at every level whenever possible.
    To implement this strategy, U.S. ambassadors, as the 
President's personal representatives abroad, lead interagency 
country teams that recommend strategies using all instruments 
of statecraft. We must help host nations understand the threat 
and strengthen their political will and capacity to counter it. 
These nations, of course, also help us.
    Toward this end, the Department of State in concert with 
the interagency has launched a regional strategic initiative, 
which is designed to establish flexible regional networks of 
interconnected country teams. We are working with ambassadors 
and interagency representatives, especially those from NCTC, to 
assess the threat and devise strategies, actionable 
initiatives, and policy recommendations for specific theaters 
of operation. To date, several of these RSI strategy sessions 
have been held, with more scheduled in the coming weeks and 
months.
    As I survey the changing face of terror, I draw three 
conclusions. First, we must maintain flexibility in our 
approach as the enemy continues to evolve. We must fight the 
enemy with precise, calibrated efforts that will deny it 
leadership, safe haven, and financial and criminal networks of 
support.
    Second, we must replace an ideology of hatred with one of 
hope. Over the long term, our most important task is not the 
``destructive'' job of eradicating enemy networks, but rather 
the ``constructive'' task of building legitimacy, good 
governance, trust, prosperity, tolerance, and the rule of law.
    Third, we cannot fight counterterrorism alone. We must use 
all the tools of statecraft in cooperation with our growing 
network of partners to construct enduring solutions that 
transcend violence.
    Because of our collective efforts and our interdependent 
strength, we will win this fight. Our citizens and global 
partners expect no less.
    Mr. Chairman, this completes the formal part of my remarks 
and I welcome your questions and comments.
    [The prepared statement of Ambassador Crumpton follows:]

     Prepared Statement of Hon. Henry A. Crompton, Coordinator for 
         Counterterrorism, Department of State, Washington, DC

    Chairman Lugar, Senator Biden, distinguished members of the 
committee, thank you for the opportunity to testify today on the 
important topic of ``The Changing Face of Terror: A Post 9/11 
Assessment.'' I will summarize my formal written statement and ask that 
you include my full testimony in the record.
    We have achieved some success in the war on terror. A significant 
portion of al-Qaeda's senior leadership has been caught or killed, and 
we have degraded the group's global network. Most recently, we learned 
of the successful effort to kill Abu Musab al-Zargawi, which dealt a 
severe blow to al-Qaeda. We have also worked to successfully disrupt 
terrorist plots. While recognizing these successes, we also recognize 
that significant challenges remain.
    The terrorist threat is constantly evolving, while radicalization 
has spread. Osama bin Laden and the core al-Qaeda leadership group 
seeks to expand their influence, as does al-Qaeda in Iraq, which 
includes foreign fighters from the region and Europe. Self-radicalized 
and self-organized groups and cells pose a growing threat. We have seen 
the results in Madrid, London, and Egypt. The perpetrators of these 
attacks do not necessarily depend on operational support or guidance 
from centralized al-Qaeda command structures, but what they share with 
the core al-Qaeda group is a violent ideology, a belief in existential 
war.
    The enemy gains strength from exploiting local grievances and 
conflicts, building alliances with regional groups such as the Jemaah 
Islamiya terrorist organization in Southeast Asia, and engaging in 
intelligence collection, deception, sabotage, and even open warfare, as 
we are seeing in Iraq and Afghanistan.

                        TRENDS AND DEVELOPMENTS

    In addition to increased radicalization, the State Department's 
congressionally mandated Country Reports on Terrorism outlines other 
important trends and developments. For example, in response to our 
operational success, enemy operational elements are becoming smaller in 
size and less tightly organized. We see more threats emerging from 
small cells and even individuals, some with greater autonomy. This 
makes them more difficult to detect and engage. These looser terrorist 
networks are less capable but also less predictable and in some ways 
more dangerous. We may face a larger number of smaller attacks, less 
meticulously planned, and local rather than transnational in scope.
    Terrorist groups are becoming more sophisticated in their use of 
technology, particularly the Internet, to improve their global reach, 
intelligence collection, and operational capacity. Technological 
sophistication has been matched by a growing sophistication in 
terrorist propaganda, information operations, and increasingly diffuse 
organizational structures. Terrorists continue to seek access to 
sophisticated weapons of mass destruction, including chemical, 
biological, and radiological technology--making efforts to counter WMD 
proliferation a fundamental part of the fight against terrorism.
    Another trend is the increasing overlap of terrorist and criminal 
enterprises. In some cases, terrorists use the same networks as 
transnational criminal groups, exploiting the overlap between these 
networks to improve mobility, build support for their terrorist agenda, 
and avoid detection. Hezballah operatives, for example, are involved in 
a wide range of criminal activities, ranging from trafficking in 
counterfeit or pirated goods to sophisticated money laundering. They 
are also involved in a variety of financial crimes, including credit 
card and insurance fraud.
    Iraq must also be included in a discussion of trends. We are 
determined to deny Iraq to terrorists who seek to undermine its new 
government. Al-Qaeda and its associated foreign fighters seek to 
hijack, transform, and direct local Sunni insurgents in Iraq. They view 
Iraq as a training ground and indoctrination center for Islamic 
extremists from around the world, particularly from Europe, North 
Africa, and the Middle East. They not only want to defeat the United 
States, the coalition, the international community and our Iraqi 
allies, but also the notion of democracy in the Middle East. Networks 
that support the flow of foreign terrorists to Iraq have been uncovered 
in several parts of the world. Although Zarqawi is now dead, the 
terrorist organizations still pose a threat as their members will try 
to terrorize the Iraqi people and destabilize the government as it 
moves toward stability and prosperity.

                  STRUCTURE OF INTERNATIONAL TERRORISM

    Al-Qaeda Today.--Al-Qaeda and its affiliated groups remain the 
primary terrorist threat to the international community. Our collective 
international efforts have harmed al-Qaeda. The capture of Hambali 
reduced the linkages between al-Qaeda and affiliated groups in 
Southeast Asia. The capture of Abu Faraj-al-Libi diminished contacts in 
the Middle East and North Africa. The death of Ayman-al-Zawahiri's 
lieutenants in January 2006, in Pakistan, further isolated al-Qaeda 
leadership. The death of Zarqawi in Iraq last week disrupts the al-
Qaeda leadership network. In this respect they are weaker and pose less 
of a direct threat.
    Al-Qaeda's core leadership no longer has effective global command 
and control of its networks. The few enemy leaders that have avoided 
death or capture find themselves isolated and on the run. Thus, al-
Qaeda increasingly emphasizes its ideological and propaganda activity 
to help its cause. By remaining at large, and intermittently vocal, bin 
Laden and Zawahiri seek to symbolize resistance to the international 
community, retain the capability to influence events, and through the 
use of the media and Internet, aim to incite actual and potential 
terrorists. They seek to claim local and regional conflicts as their 
own. This was evident in the recent bin Laden audiotape where al-Qaeda 
aimed to appropriate the humanitarian crisis in Darfur as part of its 
``cause.''
    There is evidence that core leaders including bin Laden and 
Zawahiri are frustrated by their lack of direct control, as 
demonstrated by the 2005 Zawahiri-Zarqawi correspondence. With its 
Afghan safe haven gone, with Pakistan reducing its safe haven along the 
border, and with global international cooperation constraining 
terrorist mobility, al-Qaeda and its affiliates are desperate to claim 
Iraq as a success. This is why, even until his last breath, Zarqawi 
feared a viable Iraqi nation and continued efforts to foment terrorist 
attacks and sectarian violence against Iraqis. We must retain 
unrelenting pressure against al-Qaeda. We must work together to ensure 
al-Qaeda will never regain its tight, pre-9/11 command and control 
structure.
    Safe Havens.--Like enemy leadership, enemy safe havens have great 
strategic importance. Safe haven allows the enemy to recruit, organize, 
plan, train, coalesce, rest, and claim turf as a symbol of legitimacy. 
This is why al-Qaeda and its affiliates place so much emphasis on safe 
haven. We must focus on both the physical space and cyberspace that the 
enemy uses to recruit, fundraise, plan, and train. We must also focus 
on ideological safe havens where belief systems, ideas, and cultural 
norms provide space within which terrorists can operate. We must also 
bring an end to state sponsorship of terrorism, with Iran and Syria 
being the most prominent examples, in light of their ongoing support to 
Hezballah and a wide array of Palestinian terrorist groups.
    Physical safe havens usually straddle national borders or exist in 
regions where ineffective governance allows their presence. Examples 
include the trans-Sahara, Somalia, the Sulawesi and Sulu Sea littoral, 
and the Afghanistan-Pakistan border. Because of the importance of safe 
havens, much of our present strategy in the war on terror is focused 
toward their elimination. Denying terrorists safe haven therefore 
demands a regional response as a matter of priority. For this reason, 
building regional partnerships is one foundation of our 
counterterrorism strategy. We are helping partner countries fight 
terror. We are joining with key regional countries, working together to 
not only take the fight to the enemy, but also to combat the ideology 
of hatred that uses terror as a weapon. We must work with our many 
partners around the world to build and sustain democratic, well-
governed states that respond to the needs of their people and conduct 
themselves responsibly in the international system.
    There are some examples of success against enemy safe haven. 
Colombia now boasts police forces in all 1,098 municipalities 
throughout the country, and is trying to work with bordering countries 
to combat the FARC. With United States Government assistance, the 
Philippine Government now has increasing control of the island of 
Basilan and is beginning to create stability on the island of Jolo, 
both areas of operation for Jemaah Islamiya and the Abu Sayyaf Group. 
Algerian forces have reduced the GSPC strongholds in Algeria to small, 
isolated pockets. Starting in 2004, Pakistan has continued its effort 
to wrestle the federally administered tribal areas from al-Qaeda 
influence, but this will be a difficult task.
    Enemy safe havens also include cyberspace. Terrorists often respond 
to our collective success in closing physical safe havens by fleeing to 
cyberspace where they seek a new type of safe haven. Harnessing the 
Internet's potential for speed, security, and global linkage, 
terrorists increase their ability to conduct some of the activities 
that once required physical safe haven. They not only use cyberspace to 
communicate, but also to collect intelligence, disseminate propaganda, 
recruit operatives, build organizations, fundraise, plan, and even 
train.
    There are several thousand radical or extremist Web sites 
worldwide, many of which disseminate a mixture of fact and propaganda. 
Countering the messages that terrorists propagate cannot be done 
quickly or easily. It must become part of a long-term strategy that 
will demand concerted action at all levels.

                         CURRENT CT INITIATIVES

    Our strategy to defeat terrorists is structured at multiple 
levels--a global campaign to counter violent extremism; a series of 
regional collaborative efforts to deny terrorists safe haven; and 
numerous bilateral security and development assistance programs 
designed to build partner CT capabilities, as well as liberal 
institutions that support the rule of law, and address political and 
economic injustice.
    This strategy is aimed to enhance our partners' capacity to counter 
the terrorist threat and address conditions that terrorists exploit. We 
work with or through partners at every level (both bilaterally and 
multilaterally), whenever possible. To implement this strategy, U.S. 
ambassadors, as the President's personal representatives abroad, lead 
interagency country teams that recommend strategies using all 
instruments of U.S. statecraft to help host nations understand the 
threat, and strengthen their political will and capacity to counter it.
    Our strategy is aimed over the long term. Over time, our global and 
regional operations will reduce the enemy's capacity to harm us and our 
partners, while local security and development assistance will build 
our partners' capacity. Once partner capacity exceeds threat, the need 
for close United States engagement and support will diminish, terrorist 
movements will fracture and implode, and the threat will be reduced to 
proportions that our partners can manage for themselves over the long 
term.
    Examples of such strategies include the Trans-Sahara 
Counterterrorism Initiative (TSCTI), the Middle East Partnership 
Initiative (MEPI), and the regional strategic initiative (RSI). The 
TSCTI is a multi-faceted, multi-year strategy aimed at defeating 
terrorist organizations by strengthening regional counterterrorism 
capabilities, enhancing and institutionalizing cooperation among that 
region's security forces, promoting democratic governance, discrediting 
terrorist ideology, and reinforcing bilateral military ties with the 
United States.
    The MEPI is a presidential initiative that was launched in 2002 so 
that democracy can spread, education can thrive, economies can grow, 
and women can be empowered in the Middle East. The initiative is a 
partnership that works closely with academic institutions, the private 
sector, and nongovernmental organizations in the Arab world with the 
goal of building a vibrant civil society so reform can flourish. As 
such, both the TSCTI and MEPI are examples of ``homegrown, partner-
led'' initiatives.
    The third example of one of our long-term, interagency CT 
strategies is the RSI. My office has worked to develop this program 
which is designed to establish flexible regional networks of 
interconnected country teams. We are working with ambassadors and 
interagency representatives in key terrorist theaters of operation to 
assess the threat and devise collaborative strategies, actionable 
initiatives, and policy recommendations.
    The RSI is a key tool in promoting cooperation between our partners 
in the war on terror--between Malaysia, Indonesia, and the Philippines, 
for example, as they deal with terrorist transit across the Sulawesi 
Sea; or among Iraq's neighbors working to cut off the flow of foreign 
fighters to Iraq.
    To date, several RSI strategy sessions have been held. These 
include strategy sessions in Southeast Asia, among Iraq's neighbors, 
and most recently in the Horn of Africa. More are scheduled in the 
coming months. These sessions are chaired by ambassadors, with 
Washington interagency representatives in attendance. The sessions 
focus on developing a common, shared diagnosis of the strategic 
situation in a region. Using this common perspective, networked country 
teams then identify opportunities for collaboration, and self-
synchronize efforts across multiple diverse programs in concert with 
the National Counterterrorism Center's strategic operational planning 
effort to achieve the President's national strategic goals. We are 
engaging enemy networks with flexible, strong interagency regional 
networks of our own.

                    EFFECTIVENESS OF USG CT APPROACH

    The war on terror is an enormous effort across varied geographical 
regions and a multiplicity of programs, with numerous partners. In 
measuring its effectiveness, we must focus on how our efforts affect 
the enemy rather than focusing solely on the scale and efficiency of 
our inputs. These inputs have improved dramatically in efficiency and 
coordination across the whole of Government since the war began--but 
success demands that we translate this improved performance into an 
improved effect on the enemy.
    At the global level, al-Qaeda leaders are less and less able to 
offer practical support and leadership to their affiliated networks, 
because of the need to remain constantly on the run and in hiding. They 
increasingly focus on propaganda efforts to inspire their followers. 
But bin Laden's statement directly admitting responsibility for the 9/
11 attacks shook many potential supporters, who had been convinced by 
conspiracy theories and the lies of terrorist supporters that they had 
been unjustly framed for the attacks. Bin Laden's own words have 
undermined him.
    We see some progress m Iraq, where a new, sovereign government is 
taking shape. Here, terrorists have suffered significant damage. The 
most recent example is the death of Zarqawi. Zarqawi was the most 
important al-Qaeda terrorist in Iraq, responsible for a gruesome 
campaign of hate, violence, and intolerance that included beheadings, 
bombing of innocent civilians in Iraq and Jordan and for targeting 
Americans and members of the international community. But most 
importantly, he was a key promoter of sectarian conflict and communal 
violence between Iraqis of the Sunni and Shia communities. Many 
challenges remain in Iraq, but his death may afford us and our Iraqi 
partners more time and space to address the social-political-economic 
conditions that the enemies of Iraq seek to exploit.
    In the Horn of Africa, terrorists continue to exploit poor 
governance, lack of basic societal infrastructure, and the failed state 
of Somalia. The fight against terrorism is inseparable from the need to 
address the underlying conditions, as well as targeting terrorists 
themselves. We continue to work with partners across the region to help 
local people build a better future for themselves, improve governance 
and rid themselves of the terrorists who prey on them.
    In Afghanistan and Pakistan, terrorist-affiliated insurgents such 
as the Taliban are seeking to spread their influence into settled 
districts and undermine government efforts to improve administration 
and meet people's basic needs. They seek to exploit the changeover of 
forces in Afghanistan and draw on local grievances to build alliances 
between terrorists and insurgents. But our partner governments remain 
committed to the struggle, and we must help them.
    Closer to home, Canada has proven a key partner in the war against 
terror, recently disrupting a major extremist plot. Like the United 
States and other open, democratic societies, Canada faces challenges 
from those who seek to exploit its freedoms. While the emergence of the 
extremists behind this plot is worrisome, Canada's security forces 
detected and disrupted this plot with world-class professionalism. We 
continue to work closely with Canada in an enormous range of 
counterterrorism programs.
    Role of Regional and Multilateral Partnerships.--Our work with 
regional and multilateral partnerships is important to achieve U.S. 
Government counterterrorism goals. The United States finds strength in 
numbers and cannot accomplish these goals alone. Further, by working 
through international partners we can provide CT assistance in certain 
parts of the globe that is politically more palatable than if we 
provided it bilaterally. Examples of progress with regional 
partnerships include the Inter-American Committee against Terrorism 
(CICTE) and the Organization of Security and Cooperation in Europe 
(OSCE). Through CICTE, the United States has delivered more than $5 
million in capacity-building in the region, providing training to 
hundreds of security officials in the region. The OSCE has pushed its 
55 members to implement ICAO travel document standards, sponsoring 
workshops, and training for government officials, as well as to 
modernize shipping container security and prevent and suppress the 
financing of terrorist organizations.
    Likewise, we have had success in working with multilateral 
organizations. In 2005, we adopted two resolutions in the U.N. Security 
Council aimed at counterterrorism. The first, resolution 1617, 
strengthened the current sanctions regime against the Taliban, bin 
Laden and al-Qaeda and their associates, and endorsed the Financial 
Action Task Force standards for combating money laundering and 
terrorist financing. The second, resolution 1624, addressed incitement 
to terrorism and related matters. In addition, we continued to work 
through the U.N. 1267 Sanctions Committee to impose binding financial, 
travel, and arms/munitions sanctions on entities and individuals 
associated with al-Qaeda, the Taliban, and bin Laden. We also worked 
within the U.N. General Assembly to ensure the Outcome Document, issued 
at the end of the high-level plenary meeting of the 60th General 
Assembly, contained a clear and unqualified condemnation of terrorism 
``in all its forms and manifestations, committed by whomever, wherever, 
and for whatever purposes,'' and set objectives for U.N. actions to 
counter terrorism.
    Within the G-8, we worked with our partners in 2005 to complete 
virtually all outstanding project tasks included in the 28-point action 
plan that is part of the Secure and Facilitated International Travel 
Initiative (SAFTI) issued at the June 2004 Sea Island Summit. This 
included strengthening international standards for passport issuance; 
developing new measures to defend against the threat of MANPADS; 
establishing a point-of-contact network to deal with aviation threat 
emergencies; and expanding training and assistance on transportation 
security to third-party states.

                               CONCLUSION

    As I survey the changing face of terror, I draw three conclusions. 
First, we must maintain flexibility in our approach as the enemy 
continues to evolve. In doing so, we must measure counterterrorism 
success in the broadest perspective. Tactical and operational 
counterterrorism battles will be won and lost, but we wage these 
battles in a global war within a strategic context. We must fight the 
enemy with precise, calibrated efforts that will deny the enemy its 
leadership, its safe havens, and its financial and criminal networks of 
support.
    Second, we must replace an ideology of hatred with an ideology of 
hope. Over the long term, our most important task in the war on terror 
is not the ``destructive'' task of eradicating enemy networks, but the 
``constructive'' task of building legitimacy, good governance, trust, 
prosperity, tolerance, and the rule of law. Social and governmental 
systems that are characterized by choices, transparent governance, 
economic opportunities, and personal freedoms are keys to victory. 
Ignoring human development is not an option. It is imperative that we 
encourage and nurture democratization. When a lack of freedom destroys 
hope, individuals sometimes feel they are justified to lash out in rage 
and frustration at those they believe responsible for their plight. In 
fact, no cause, no grievance can justify the murder of innocent people. 
Public diplomacy programs that encourage exchanges of ideas and seek to 
develop regional and local programming to reject violence and hate, and 
instead encourage tolerance and moderation are critical.
    Third, the United States cannot fight counterterrorism alone. We 
must use all tools of statecraft, in cooperation with our growing 
network of partners, to construct enduring solutions that transcend 
violence. Because of our collective efforts and our interdependent 
strength, we will win this fight. Our citizens and global partners 
expect no less.
    Mr. Chairman, this completes the formal part of my remarks and I 
welcome your questions and comments.

    The Chairman. Thank you very much, Ambassador Crumpton.
    We will now have a round of questions. We have several 
Senators that are present and we will have a 10-minute round. 
We will ask Senators to try to each stay within that mark so 
that all can be heard and so that we will have ample time for 
our second panel of witnesses.
    Let me begin the questions by asking you, Mr. Ambassador. 
You have spoken about the regional strategic initiative, 
through which you are bringing affected ambassadors who serve 
in regions that are key terrorist theaters of operation 
together. Can you speak more specifically as to what these 
meetings are yielding? What is most on the minds of these 
ambassadors? Is this a new innovation altogether or is this a 
continuation of programs that have occurred in the State 
Department before?
    Ambassador Crumpton. First, sir, there are some examples, 
good examples of regional cooperation: The Trans-Sahara 
Counterterrorism Initiative, the East African Counterterrorism 
Initiative. This is really an extension and expansion of some 
of these plans, but here it is not just about meeting; it is 
about pulling these country teams together into regional 
networks and having a continuing dialog. That includes the use 
of communications every day, whether it is video conferences, 
exchanges of e-mails.
    But importantly, it is not just about the Department of 
State. Ambassadors in the field are leading this effort, but 
these meetings include interagency representatives from 
Washington. It goes from the military to NCTC to USAID and 
really all those actors within the U.S. Government that are 
contributing to this fight. It provides a unique dynamic and, 
importantly, it looks at the theater of operations, often which 
astrides national borders. That is why we think a regional 
approach is so important.
    The Chairman. So these people, the ambassadors plus the 
other officials, are hearing each other, listening to each 
other carefully, and informing you and the Secretary. And you 
believe this is an important innovation that has been helpful 
in the specific policies you have enumerated?
    Ambassador Crumpton. Yes, sir. We just started. Really, in 
January, was the first to launch, and we have had a series of 
these meetings in different regions. Importantly, it is not 
only about informing myself and the Secretary, but specific 
policy recommendations come from this. In concert with NCTC, we 
put this forward to the National Security Council. They look at 
this and they modify, they accept, and then we move forward 
into specific programs and to specific requests for resources.
    We are measuring success against the enemy. We are looking 
at safe haven, in particular, and seeing how can we reduce safe 
haven, how can we replace enemy safe haven with something more 
enduring, with liberal institutions, with civic society. There 
are some good examples of that to date.
    The Chairman. I have underlined that and I thank you for 
your comments about this because I think it offers a great 
boost to our foreign service, our professional foreign service 
persons who serve in these capacities, to understand the role 
that they have in the war against terrorism, beyond their 
individual service and the bilateral relationships with 
countries in which they represent us.
    Let me just pursue one more difficult area. That is, what 
kind of improvement can you make on our relations with 
countries such as Pakistan and Saudi Arabia? Comment is made 
all the time about the difficulties of our intelligence 
situation, quite apart from pursuit of obvious targets, and 
people we would like to interview in these countries. What 
headway are we making and what can you foresee?
    Ambassador Crumpton. In terms of cooperation with Pakistan, 
they have lost hundreds of people in the military and law 
enforcement in pursuing terrorist threats within their own 
country. I was just in Pakistan recently. I met with some of 
their senior leaders and we talked about the enduring 
challenges, especially along their frontier with Afghanistan. 
President Musharraf has rolled out a new strategy that 
emphasizes political and economic development, especially aimed 
at those traditional tribal leaders that have been targeted, 
have been assassinated by al-Qaeda and Taliban leaders. 
Musharraf, with our support and others, wants to help reinforce 
this traditional tribal authority and provide economic 
incentives for some of the people there. We think that is an 
important issue and we need to support him. He understands, I 
believe, as others in the region, that we must address these 
enduring questions--not only go after the high-value targets.
    Saudi Arabia, sir, in response to that, since May of 2003 
when al-Qaeda launched a series of attacks in Saudi Arabia, the 
Saudi Government has responded vigorously. They have captured 
or killed their top 26. They have gone after another 10 with 
some success. They have reformed some of their banking laws. 
They are doing a better job of monitoring their charities, 
although they still could do more, we believe. They are working 
with us increasingly in the region, not just within the borders 
of Saudi Arabia.
    The Chairman. Let me just take two specific cases, one in 
Pakistan. The recurring question comes as to why we cannot 
interview A.Q. Khan. Let me just ask the second question so you 
can have both. In the case of the Saudis, the world oil price 
spiked one day when terrorists were met on a roadway heading 
toward a refinery that ostensibly refines 13 percent of all the 
oil on any one day in the world. The terrorists were stopped, 
but the fact is that the world wondered about the security for 
that refinery, which clearly is of importance to the Saudis, 
but obviously to the conduct of commerce in the western world. 
Is all that safe?
    Can you address those issues?
    Ambassador Crumpton. Sir, the first question, about 
interviewing A.Q. Khan--I do not have a ready answer for you, 
but I will be glad to get back to you with some details on 
that.
    The second question, regarding the terrorist intent to 
strike at economic infrastructure--important economic and 
symbolic targets. That is their intent. They did hope to 
disrupt the oil supplies out of Saudi Arabia. The Saudi forces 
responded with alacrity and were able to stop that attack.
    Are these facilities safe, is your question. Sir, we have a 
long way to go. If you look not only at Saudi Arabia, but you 
look at the oil facilities in West Africa and other parts of 
the world, they present a massive array of soft targets for 
potential enemy acts. We are working with these countries to 
improve this infrastructure. But, sir, it is a long, long road.
    The Chairman. You make a good point, and it is a different 
hearing, a different subject, but often around this table we 
have talked about the vulnerability of the oil supply in this 
world, given the tight margin of 1 or 2 percent between supply 
and demand on any one day, and almost the naivete in this 
country and the rest of the world as to the security of that 
supply, given these vital situations that you have just 
described.
    Obviously, a great deal more safety is going to be required 
if we are going to enjoy life as we have known it, without 
severe disruption of both civilian and military life.
    Let me just ask you, Admiral Redd. You have commented and 
offered good evidence as to why analysis is better and better 
all the time. However, there are hard targets that have been 
very difficult. What headway are you making with your analysts 
in North Korea?
    Admiral Redd. North Korea actually is a subject or is under 
the cognizance of another mission manager which John Negroponte 
has established, Ambassador Joe Detrani. From the terrorism 
standpoint, obviously we are very interested in that, but 
nothing I could say in an open hearing, sir, that you would 
probably find useful.
    The Chairman. Very well. Let me ask you then about the hard 
targets we have just been discussing, one of which is Pakistan. 
You have a good number of people working on that issue. How are 
you doing?
    Admiral Redd. I think part of the whole point of what I 
described to you in this strategic operational planning side, 
sir, is exactly that, is to take a comprehensive top-down look, 
taking that national strategy and policy, breaking it down into 
strategic objectives, and further into subobjectives, and then 
finally into discrete goals. All of those things when you get 
done with that are discrete tasks, several hundreds of tasks, 
and assigning them responsibility to a specific entity or 
specific department for that.
    That is exactly the thing, the sort of thing that we look 
at in that process: Again, comprehensive, top-down. As you 
would appreciate, the State Department obviously has a--
obviously ends up leading a large number of those, but with 
partnering with other elements of the U.S. Government.
    The Chairman. I thank you both very much for your responses 
and I call now upon distinguished ranking member Senator Biden 
for his questions.
    Senator Biden. Gentlemen, you both have daunting jobs and I 
am glad you take them with such obvious seriousness and have 
taken a fresh look at how to approach these issues.
    Admiral, on page 3 of your testimony you said: ``These new 
networks are often made up of disaffected radicalized 
individuals who draw inspiration and moral support from al-
Qaeda and other violent extremists.'' Going on, you said: ``To 
the outside observer, these terrorists might appear to be fully 
assimilated members of their Western communities.'' Continuing: 
``We have begun to see cells like these here in the United 
States. Federal and local law enforcement authorities have done 
an outstanding job.'' Continuing: ``The challenge to countering 
these cells is complicated by the fact that they operate 
virtually, with much of their communication and planning taking 
place over the Internet.'' Continuing: ``The emergence of this 
new brand of al-Qaeda-inspired homegrown terrorist groups poses 
real challenges to the intelligence community and we are 
grappling with a whole new set of questions. What forces give 
rise to this violent ideology in immigrant communities that may 
appear otherwise to be quiet and assimilated?''
    Your assertion that there are new cells in the United 
States is consistent with everything that we have been told for 
some time. Do you have any authority or coordination with the 
Homeland Security Department?
    Admiral Redd. Actually, one of the major jobs that NCTC 
does, is exactly that. Because of--you mentioned the Internet, 
but the whole transnational nature of this threat, one of our 
jobs, and as I mentioned several examples of how we bring the 
intelligence community together. That explicitly includes both 
foreign and domestic. In a closed hearing I could take you 
through a number of--several instances certainly where 
something starts out in, say, South Asia today and tomorrow it 
is a concern in a United States city or on a border.
    Senator Biden. The reason why I ask--and this may not be in 
your portfolio--is that I am perplexed. The 9-11 Commission has 
given the Congress and the President failing grades on 
implementation of their recommendations. We have an argument 
going on, which I think is a false argument, about how to 
allocate $740 million. Do we cut New York by 40 percent and 
Washington by X percent to give Omaha money or to give to St. 
Louis? I think Omaha and St. Louis need more funding, but I 
also think New York needs more funding.
    The price tag to implement just those recommendations from 
the 9-11 Commission as of the report they wrote on December 15 
of 2005, was $42 billion over 5 years. It seems to me that at 
the same time we are doing this we are also cutting--you talk 
about local law enforcement--we cut local law enforcement 
assistance by $2 billion over the last several years. Police 
departments are cutting the number of police.
    How does this fit into your thinking? I mean, here we are, 
we are not doing what is recommended, we are not funding it, 
and we are cutting local law enforcement. My experience is if 
anybody is going to find a terrorist dropping sarin gas into 
the air conditioning system of a giant mall or a stadium, it is 
going to be some cop having come from lunch or his snack and 
riding behind the building, inspecting the dumpster. Or the 
cell is going to be discovered, like it always has been, not 
just by intelligence, but by a cop walking the beat and saying: 
By the way, those three apartments were empty the last 4 years; 
now I notice there are activities in there in this 
neighborhood.
    How does this fit? Does it matter what we do in terms of 
local law enforcement and funding of the 9-11 Commission 
recommendations?
    Admiral Redd. Let me just start off by noting that actually 
NCTC got the highest grades from the 9-11 Committee.
    Senator Biden. It did, yes.
    Admiral Redd. And I was born and married in Omaha, so I 
want that to be on the record, Senator Hagel.
    Senator Biden. And I think Omaha needs the help. I do not 
think you should take it from New York.
    Admiral Redd. Senator, we have been--as you know, we have 
been doing the foreign side of this thing for a long time. We 
have been doing foreign intelligence, we have been doing 
foreign operations. September 11 has brought us into a new era 
that we are now looking inside. Clearly, Mike Chertoff has been 
given probably one of the largest M and A jobs. If you take it 
to Wall Street you might have a little trouble generating some 
venture capital. It is a very difficult job which he has. I 
think he is doing a superb job.
    One of the jobs that we have--and this is--first of all, 
there is a lot of wonderful stuff going on, and NCTC's job is 
to take that and then see where we can take it and take it to 
the next level in an integrated manner, so down the line--and I 
mentioned that four-stage process. Planning is the first stage, 
implementation next. The third thing is assessment. That is one 
of the things clearly we have to look at. As you look across, 
it would not surprise you on the foreign intelligence side and 
foreign operations we have got a pretty good record of doing 
things and working together.
    On the domestic side, new ground. So first of all, bridging 
the foreign-domestic gap is extremely important; and second, 
getting our hands around a very difficult internal issue--
domestic issue.
    But again, I think Secretary Chertoff has a very good 
construct, which we are going to see again and again: What is 
the threat, what is the consequence of that threat, and what is 
our vulnerability? Very often you get to the point where you 
say you have got a questionable threat. If the threat happens 
to be right, it has a very serious consequence, and so what do 
you do about vulnerability? Trying to balance all that across 
the United States is a very difficult job.
    Senator Biden. Well, I think it is difficult, but just so 
you know--and I am sure you do, being from Omaha--all politics 
is local, buddy. They are a hell of a lot more concerned about 
the threat around the block in the neighborhood in Omaha or 
Wilmington, DE, or Gary, IN, or New York City than they are 
about anything happening in Iraq or anywhere else in the world.
    Everyone I have spoken to in the intelligence community 
says there are more cells now in the United States, there is 
more activity in the United States. I find it absolutely mind-
blowing--and I do not want to go into this now because my time 
is running out--mind-blowing that we are not funding the 9-11 
Commission's recommendations. I find it absolutely on the verge 
of criminal that we are not doing it. We are spending $740 
million for the whole shooting match and the recommendation is 
$42 billion over 5 years. I find it criminal.
    But that is another point. And I do not share your view of 
Mr. Chertoff, God love him, as my mother would say. I do share 
your view that he has an overwhelmingly difficult job and I am 
not sure anybody is up to it. But so far his department is not 
ready for primetime in my view.
    But let me move on to Pakistan and al-Qaeda. Our military 
commanders in Afghanistan with whom I have spoken and other 
observers say Pakistan's spy service, the ISI, Mr. Ambassador 
and Admiral, continues to support the Taliban and anti-United 
States operations. Is that true? What is your--if you can say 
on the record; if not, tell us--what is your honest assessment 
of the Pakistani intelligence service's collaboration or lack 
thereof with the Taliban?
    Ambassador Crumpton. Senator Biden, we believe that there 
may be elements of the local governments, tribal governments, 
that are in collusion with the Taliban and al-Qaeda. Whether 
there are elements of the national Government involved, we do 
not have any hard intelligence or evidence of that.
    Senator Biden. Well, you are aware our commanders in the 
field think there is?
    Ambassador Crumpton. Yes, sir, I have talked to them.
    Senator Biden. You are aware that everyone you talk to in 
the field thinks there is. You may not be able to prove it, but 
you have not found anybody, have you, in Afghanistan in our 
folks who say, by the way, the ISI is clean, they are playing 
it level? Have you found anybody to tell you that?
    Ambassador Crumpton. No, sir, I am not confirming that ISI 
is clean. I am saying that we do not have any compelling 
evidence right now that points to this. We do have concerns 
about Taliban leadership that are in Pakistan and we believe 
that the Pakistanis can do more. What the links are to ISI, 
sir, I cannot go into in open session, but I would be glad to 
follow up to the extent that we can.
    Senator Biden. Maybe we could do that. I would appreciate 
it.
    I only have a couple minutes left, if I may. What should we 
make of the situation in Somalia recently, where reported 
United States support for Somali warlords in hope of finding 
and thwarting terrorists apparently brought about the rise of 
Islamic governance in Somalia? Was there a disconnect between 
State Department and our intelligence services on this one?
    Admiral Redd. I would just say about Somalia, it turns out 
I was the commander of the last United States operation that 
took the United Nations out of Somalia about 10 years ago. 
Obviously there have been some things going on inside Somalia. 
I would not jump to the conclusion, however, that that means 
that al-Qaeda now owns Somalia by any stretch of the 
imagination.
    Senator Biden. I did not say that.
    Admiral Redd. I know. A very complex place, tribal issues, 
warlord issues, et cetera.
    Senator Biden. That is not my question, though. My question 
was that you, Mr. Ambassador, talked about the coordination 
with the State Department. My contacts tell me there was none, 
zero.
    Ambassador Crumpton. That is incorrect, sir.
    Senator Biden. There was some?
    Ambassador Crumpton. Yes, sir. I was just in Nairobi a 
couple weeks ago where we had a large interagency discussion 
and that was part of an ongoing discussion of the interagency--
the military, the intelligence community, Department of State, 
and USAID.
    Senator Biden. So before the decision was made to support 
Somali warlords, the State Department was in on that decision?
    Ambassador Crumpton. Sir, I cannot comment on any kind of 
specific operational elements in open session. I would be glad 
to speak to you offline if you wish.
    Senator Biden. Well, again maybe--my time, I have 18 
seconds left. What I have been told is that--I cannot verify 
this--that State Department officers warned against this 
effort, sometimes to the point of damaging their own career in 
the process. I do not know that to be a fact. That is the 
assertion made to me, and maybe I could follow up privately.
    Senator Biden. Gentlemen, thank you very much. I appreciate 
it.
    The Chairman. Thank you very much, Senator Biden.
    Senator Hagel.

   STATEMENT OF HON. CHUCK HAGEL, U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you.
    Gentlemen, good morning. Thank you and your colleagues for 
your efforts and your good work.
    I would like to pursue the line of questioning that Senator 
Biden began regarding Somalia. I want to ask you, Admiral, as 
well as the Ambassador, if you could define for this committee 
what is our policy in Somalia. Then I want to get a little 
deeper down into the specifics of that.
    Admiral Redd. I am afraid I will have to--I do not do 
policy in my current incarnation, so I want to----
    Senator Hagel. What is your objective in your 
responsibilities?
    Admiral Redd. The objective generally is, as mentioned, in 
the planning effort which we are putting together, as alluded 
to in both, particularly in Ambassador Crumpton's statement, is 
deny the enemy safe haven whether that safe haven is physical 
or whether it is virtual. Somalia is clearly one of the key 
areas which we worry about as an ungoverned state and so the 
bottom line objective is to deny that as an effective safe 
haven for al-Qaeda or for terrorism in general.
    Senator Hagel. Do you understand what our policy is? You do 
not do policy, but do you understand what it is?
    Admiral Redd. I would defer to----
    Senator Hagel. No, do you understand what our policy is? I 
know you do not do it.
    Admiral Redd. Yes, sir. Our policy would be to make sure 
that Somalia does not turn into a safe haven for al-Qaeda and 
for terrorism.
    Senator Hagel. That is our policy?
    Admiral Redd. My understanding of our policy, yes, sir.
    Senator Hagel. How are we adjusting our counterterrorism 
efforts in Somalia in light of what Senator Biden just asked 
you, in light of events that have occurred over the last couple 
of weeks? Are we adjusting or what can you tell us about it?
    Ambassador Crumpton. Yes, sir, I will be glad to take that 
question, Senator Hagel.
    Senator Hagel. Thank you.
    Ambassador Crumpton. There are three objectives really: 
Safe haven in terms of denying the enemy the ability to plan, 
to organize. Somalia has posed an enduring problem. Al-Qaeda 
has been in Somalia in some form or another since the early 
1990s. Harun Fazul, responsible in some part for the 1998 East 
Africa bombings, we believe has been and may still be in 
Mogadishu. Also this cell is responsible for the attack in 
Mombasa in 2002. This is a resilient, enduring, dangerous al-
Qaeda cell and we must make every effort we can to rid 
Mogadishu and Somalia of this threat.
    But that is not all we are doing. We must also work with a 
very weak nascent transitional government to see if they can 
gain traction and we can help them work with others in Somalia, 
traditional leaders, to build some degree of civic society.
    Third, there is a humanitarian aspect of this. So we must 
approach all three of these things with vigor. As a new 
initiative, Assistant Secretary for African Affairs, Jendayi 
Frazer, is going to the U.N. She will be in New York. She has 
established a contact group with our European partners in 
concert with the U.N. to see if we can address some of these 
broader, more enduring questions.
    Senator Hagel. What is your assessment of the Islamic 
Courts Union, the group that seized control in Mogadishu last 
week?
    Ambassador Crumpton. Sir, we have imperfect understanding 
of them. They did send us a letter proclaiming that they are 
not an enemy of the United States, and our response has been 
very clear, that we expect them to work with the transitional 
government and we also expect them to work with us to hand over 
al-Qaeda and foreign fighters that have found refuge in 
Mogadishu.
    Senator Hagel. How would you answer that question, Admiral?
    Admiral Redd. I think that was my point earlier, which I 
guess I did not answer Senator Biden's question directly. But 
exactly that. I think it is a very complicated thing. The issue 
there is more, I think, a more sharia law, as you know, that 
the commissions or councils are setting up, and it is not clear 
that that is necessarily coincident or completely coincident 
with either what al-Qaeda or any terrorist organization would 
want.
    Again, as you know from that area, it has a very complex, 
long history. I remember going in and meeting with the warlords 
before we took the U.N. out. The tribal issues there, the clan 
issues--I think we need to sort of wait and see, let the dust 
settle.
    Senator Hagel. Thank you.
    You noted, Admiral Redd, in your statement--and I will 
paraphrase what you said--working more closely and effectively 
with our allies now than ever before. You mentioned 
specifically, Canada. You said there were some countries that 
obviously you cannot talk about in an open hearing.
    How is that occurring? How are you working more 
effectively, as you say, and closely? Give me some examples?
    Admiral Redd. First of all, as you would expect, three of 
our closest allies, the United Kingdom, Canada, and Australia, 
all have similar organizations to NCTC. They call them 
something different. They all end with ``TAC.'' We call them 
``tic-tacs,'' but basically we have a very close relationship 
with them, that extends to regular meetings with them, 
classified communications links with them, and regular 
exchanges on analysis. So that is sort of on the closest side.
    Without going into detail, at the other extreme I will tell 
you that, having been in Government for a long time and coming 
back into Government, we are partnering, if you will, with some 
very interesting countries, which I was quite actually 
surprised to find out we were, and we are doing it simply 
because we have the same objective. They understand that 
terrorism is a challenge or is a threat to their vital national 
interests and so we work very closely with them. As you would 
expect, most of those tend to be through the ambassador and 
through the DNI's representative or chief of station.
    Senator Hagel. Thank you.
    Ambassador Crumpton, let me ask you, and it follows to some 
extent what the Admiral just referenced in these new closer, 
more effective relationships. On April 22, the Washington Post 
reported that the Pentagon no longer needed the approval of the 
U.S. ambassador to deploy special operations forces known as 
military liaison elements. The first question--I have two 
others that will be associated with it--is this true?
    In addition to that, are these military liaison elements 
under or outside of the authority of the U.S. ambassador? Is 
there a clear interagency agreement that a U.S. ambassador has 
the authority to deny country clearance to such special 
operations forces as well as oversight, approval authority of 
such special operations forces that are operating in the 
ambassador's country?
    Can you clear all that up for us?
    Ambassador Crumpton. First, the U.S. ambassador abroad, as 
the President's representative, is uniquely positioned to pull 
together all those instruments of statecraft to apply it 
against the enemy, and that includes the military.
    Senator Hagel. Including special operations?
    Ambassador Crumpton. Yes, sir. There is--there are no 
military personnel assigned to any country anywhere in the 
world where our ambassador is not fully and completely 
informed. This is very clear in the letter of instruction the 
President has given to all of our ambassadors. He also 
instructs them and the geographic combatant commanders to 
cooperate fully on all threats and be transparent in regard to 
counterterrorism.
    Moreover, last year Secretary Rice sent a letter to Senator 
Biden underscoring the importance and the value of the 
ambassadors overseas and their central role in 
counterterrorism.
    Senator Hagel. Well then, how would you respond to that 
April 22 Washington Post report? Was that inaccurate?
    Ambassador Crumpton. Yes, sir, in part it was inaccurate. I 
think it does reflect to some degree ongoing discussion between 
the Pentagon and the Department of State and others in how do 
we best orchestrate our instruments of statecraft, how do we 
combine the right degree of authority with the flexibility and 
speed that we need.
    So there is ongoing discussion, but that is part of 
government. That is how government works and that is how 
counterterrorism works.
    Senator Hagel. But the fact is there is no change of 
policy? Is that what you are saying, that the ambassador of 
each country continues to have the authority that that 
ambassador has always had, knowledge, awareness, of special 
operations, of troops, intelligence in the country that he or 
she is responsible for?
    Ambassador Crumpton. Yes, sir, that is correct. Based on my 
experience in the last year, I have seen outstanding 
cooperation between the uniformed military and the Department 
of State, in the field especially. PACOM has been very 
responsive to some of our requests, some of our programs, 
CENTCOM also. I see that to be a continuing trend.
    Senator Hagel. Could you also clear up, Mr. Ambassador, a 
point. This is regarding the State Department support, I 
understand, in ceding training and equipping authority to the 
Defense Department. You are generally aware of what I am 
talking about, the subject?
    Ambassador Crumpton. Yes, sir.
    Senator Hagel. Has the State Department given that 
authority up? Can you clarify where we are with this military 
training issue?
    Ambassador Crumpton. As of last year, there is funding, 
1206 funding, that the military has. It gives them the 
authority to train and equip. But this is done in concert at 
the field level with the embassies, but also back here in 
concert with the Department of State regarding what specific 
types of programs, what specific types of funding.
    I should also note there is a requirement that we notify 
Congress, the Pentagon and the Department of State notify 
Congress, and outline what these expenditures are for. Again, 
in my experience, in a couple of examples I have seen the 
military to be fairly responsive to some CT programs that we 
needed funded.
    Senator Hagel. Are you saying that there is no change, even 
though we are all aware of requests made in defense 
authorization bills to cede some of that power to, if not some, 
all, to Defense? What is your answer? There is no change, there 
is a change?
    Ambassador Crumpton. Yes, sir, there is a change as of last 
year, the 1206 funding, where the Pentagon is authorized to 
train and equip some of our foreign partners. But that is in 
coordination with the Department of State.
    Senator Hagel. My time is up, so I appreciate both of your 
efforts and your willingness to come before the committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagel.
    Senator Nelson.

    STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM FLORIDA

    Senator Nelson. I know Senator Obama was ahead of me.
    Senator Obama. Go ahead.
    The Chairman. Well, apparently the Senators are prepared to 
yield to Senator Feingold, so I will ask you to proceed.
    Senator Nelson. And if I could just ask Senator Feingold if 
he could ask what would happen to al-Qaeda if Osama bin Laden 
were captured or killed.
    Admiral Redd. I think that in some ways the lesson of 
Zarqawi is clearly, as I indicated in my testimony--we have 
dealt al-Qaeda central leadership very serious blows. OBL is 
able to stay alive because he is basically hiding in a very 
difficult area. I think if he were to be taken out we would see 
a very strong effect in terms of the symbolic effect. In terms 
of his operations, operational guidance, I would say it is very 
diminished right now, but also it would be significant, I 
think, in terms of the effect on jihadists worldwide. But it 
would probably not have a major effect on operations.
    Ambassador Crumpton. I would like to add to that, please. I 
agree with Admiral Redd, it would be a strategic win, but it is 
only one part of our strategic objectives. When we stop the 
enemy from attacking us and when we are able to nullify enemy 
leadership, that buys us space and time and gives us the 
opportunity to address the more enduring questions of safe 
haven and those local conditions, social, political, economic, 
the enemy exploits to their advantage.
    So enemy leadership, sir, is a strategic target, but it is 
not a stand-alone target. You must look at safe haven and those 
specific local conditions also and you must address all three.

   STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR FROM 
                           WISCONSIN

    Senator Feingold. Mr. Chairman, I just left the room 
momentarily to take a call and I really do want to thank 
Senator Nelson and Senator Obama. I will try to not use all my 
time.
    Ambassador Crumpton and Admiral Redd, thank you both for 
coming here today to discuss this critical topic and I hope 
that we can continue this dialog on a more regular basis. 
Before I get to a couple questions, I want to highlight a few 
key counterterrorism issues. First, our massive presence in 
Iraq is diverting resources and attention from places around 
the world where terrorist networks that threaten the United 
States are operating and I think we need obviously to address 
that.
    Second, I have yet to see or hear about a comprehensive 
strategy to eliminate global terrorist networks, sanctuaries, 
and operational environments, as well as to address root causes 
and the underlying conditions that fuel extremism, radicalism, 
and terrorist organizations. While I was heartened by the 
creation of your position, Ambassador Crumpton, and by 
Secretary Rice's recent efforts to create a director of foreign 
assistance to coordinate most forms of foreign assistance, I am 
still concerned that there remains no one central focal point 
for bringing to bear all of our country's capabilities to 
defeat terrorist networks.
    Third, I remain concerned about the places that are 
apparently going largely unnoticed by this administration. As 
has already been discussed to some extent, for some time I have 
been pushing this administration to address Somalia. 
Unfortunately, this administration ignored the warning signals, 
has failed to pay attention, and is now basically having to try 
to play catch-up in a country and a region that really does 
matter to our national security.
    Along the same lines, I continue to be concerned about 
northern Africa and the Sahel region, the Suluwese Sea and the 
Straits of Malacca in the area of Indonesia and Malaysia, the 
border area between Pakistan and Afghanistan, and other 
ungoverned, undergoverned, corrupt, poverty-stricken and other 
operational and technological environments that terrorist 
organizations can exploit to plan, prepare, and stage their 
attacks against us.
    In sum, I am deeply concerned about the way our Government 
is handling the global fight against terrorist networks. I 
believe that we need to take a more comprehensive approach to 
this problem and that we need to use the full range of our 
capabilities.
    Going back to an issue that I have mentioned, and that I 
understand Senator Biden and Senator Hagel mentioned, and that 
is again Somalia. I would like to dig just a little deeper. 
Ambassador Crumpton, can you articulate again for us--for the 
committee--what the U.S. Government policy is for Somalia?
    Ambassador Crumpton. Yes, sir. There are three main 
objectives. First is to find and fix al-Qaeda leadership, al-
Qaeda cells in Somalia. As I noted earlier, it is an enduring, 
resilient cell that poses a threat not only to United States 
interests, but to the entire region, especially Kenya, as 
demonstrated in 1998 and 2002.
    Second is to look to this new fledgling nascent 
transitional government, to see if they can indeed gain some 
traction and build alliances throughout Somalia. They are off 
to a very slow, and I might note weak, start, but we are 
working with them, the United Nations, and other partners. This 
is illustrated in the establishment of a contact group. 
Assistant Secretary of State for African Affairs Frazer will go 
to New York to meet with our European partners and others to 
see if we can work with some of the Somali leadership. The 
third point, sir, is humanitarian relief and assistance. That 
remains an enduring problem for the Somali people.
    Senator Feingold. On the second point, do you feel up until 
recent events that we were doing enough to work with the 
transitional government and help the transitional government, 
or should we have taken it up a few notches?
    Ambassador Crumpton. Sir, I think we could do more to some 
degree, but I also think the international community as a whole 
could do much more. This is not just an American problem. It is 
an international problem, and Somalia has been a failed state 
for many years.
    Senator Feingold. I think that is fair enough. It is not 
just an American problem, but it is especially an American 
problem, given the goals of the elements that you have already 
identified before, present in Somalia and other places.
    Was the Department of State surprised about the events in 
Mogadishu last week?
    Ambassador Crumpton. Sir, we have been following this 
closely. In fact, as I noted earlier, I was in Nairobi just a 
couple of weeks ago and we followed these events with some 
concern. We still have some concern because, despite their 
public overtures, we are not sure what the Islamic courts 
really want in terms of their strategies and in terms of their 
relationship with al-Qaeda.
    Senator Feingold. But were you surprised with the 
effectiveness of this organization taking over Mogadishu? Was 
that anticipated?
    Ambassador Crumpton. No, sir, it was not anticipated.
    Senator Feingold. Somalia is home to terrorist networks and 
illicit power structures, criminal networks, abject poverty, 
and dire humanitarian conditions, and it is apparent that it 
demands far more resources and attention than we are providing. 
Can you be a little more specific about what you think we need 
more of for Somalia?
    Ambassador Crumpton. We need to have legitimate actors 
inside Somalia with whom we can work. That is probably the most 
difficult challenge right now. It is a fractured political 
entity with competing, conflicting tribal leadership, and we 
need to help them establish some type of interface, some kind 
of network, so we can help them right now.
    A lot of this depends on the Somalis themselves and to date 
they have fallen short. That is probably the most immediate 
challenge, to see if this fledgling government can establish 
some degree of legitimacy and some power, and right now they 
have very little.
    Senator Feingold. In terms of our own governmental role on 
this, can you talk a little bit about the State Department's 
role in this effort? Is the State Department the Department 
that is playing a leadership role on Somalia-related policy, 
and if not who is?
    Ambassador Crumpton. Yes, sir, and this was illustrated 
most recently when I was in Nairobi. We had ambassadors from 
the entire region that came to Nairobi to have an in-depth 
discussion. I might note that that meeting had been scheduled 
for a couple of months before these recent events that you are 
talking about.
    But it was not only the Department of State. We had 
representatives from the military, in fact from OSD, from 
CENTCOM, from Special Operations Command. We had USAID there. 
We had NCTC, other elements of the intelligence community--a 
wide range of interagency. We came back with some specific 
policy recommendations.
    And yes, the ambassadors in the field had a leadership 
role. They chaired that meeting.
    Senator Feingold. How many people does the State Department 
have working on Somalia full time? I just want the full-time 
figure.
    Ambassador Crumpton. Yes, sir. There is one dedicated 
foreign service officer in Nairobi that looks at Somalia, but 
there are a multitude of others, not just in the State 
Department, but across the U.S. Government, that work the 
issue.
    Senator Feingold. Mr. Chairman, I am going to leave some of 
my time, as I said. I just want to say that I obviously respect 
the work that those individuals are doing, but this issue in my 
view--in fact it has been my view for some time, as I have 
expressed on this committee on hearing after hearing--is that 
this situation deserves more than one full-time person. I 
greatly respect the work that the Ambassador is doing, though, 
and I thank him and I thank the witnesses.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Feingold, for your 
continuing interest in not only Somalia but the African 
continent.

 STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman.
    Mr. Ambassador and Admiral, thank you for being here. My 
questions are about homegrown terrorists and particularly the 
extent to which that might be happening in the United States 
and what we ought to do about it. What happened in Canada a few 
days ago when Canadian intelligence agents arrested 17 people, 
most of whom were Canadian citizens, who had a large amount of 
the same kind of fertilizer that was used to blow up the 
Federal Building in Oklahoma, and apparently were intending to 
do that and other things, that was a chilling, a chilling 
incident in Canada, particularly because those who were 
arrested were mostly Canadian citizens.
    The same feeling I am sure swept through Great Britain when 
three out of four of the terrorists who blew up the subway were 
British citizens.
    To what extent is this happening in the United States? What 
can you tell us in a hearing like this about how many 
operations are going on in the United States like the one in 
Canada? Are there any? Have there been many such operations 
frustrated in the last 5 or 10 years? Are there more today than 
there were 10 years ago?
    What can you tell us about this?
    Admiral Redd. I think that is probably mine, Senator. I 
guess what I can say to you is pretty limited in open session, 
but I can sort of point to three specific examples, all of 
which resulted in arrests, all of which have ongoing 
prosecutions, and therefore we cannot talk about details. But 
you will remember Torrance, CA, perhaps, about a year ago; 
Lodi, CA; and most recently in Atlanta.
    So there have been indications. Obviously, that is one of 
the things we watch very carefully. We have worked very closely 
with the Canadians in making that not only foreign but domestic 
connection. Clearly, as I mentioned in my opening remarks, it 
is one of the things we worry about. But it really is one of 
those things that, when people ask me what I worry about, the 
thing you do not know, and that is the one you worry about the 
most probably.
    Senator Alexander. Well, are these once a year phenomena or 
are these random occasions? Are these isolated instances, or is 
this something of growing concern? And is there more or less 
today than there was 3 or 4 years ago?
    Admiral Redd. It is hard--in terms of the intelligence side 
of it, this is, as I mentioned earlier, this is a new 
phenomenon. We have been doing foreign intelligence for a long 
time. We have some pretty good baselines as to what is 
happening. On the domestic side, the FBI, as you know, has done 
a tremendous job. They have gone from writing, for example, 25 
intelligence information reports before 9-11 to over 8,000 a 
year now. But that is still--the baseline probably is not 
there.
    I would say the ones I mentioned, the ones I can mention in 
an open hearing, that is three in a little over a year. There 
obviously are other investigations ongoing. The Internet makes 
it--as we have mentioned or somebody else has mentioned, the 
cyber nature or the virtual nature of that makes it very easy 
to transcend borders.
    Senator Alexander. What is your estimation of how the joint 
terrorism task forces are operating that have been established 
in the last few years?
    Admiral Redd. I think at this point in time----
    Senator Alexander. In this country.
    Admiral Redd [continuing]. I think they have been generally 
very effective. If you look at where we want to go and where we 
are today, clearly the JTTFs have good classified connectivity, 
which is an important thing in terms of our ability to get 
information, classified information, down to State and locals, 
and they provide that conduit. They are closely connected, 
obviously, with the State and local law enforcement. Secretary 
Chertoff obviously has a large law enforcement thing with the 
Border Patrol and other aspects under his responsibility and 
they are building those communication networks as well.
    I think the JTTFs by and large have been generally very 
effective, sir.
    Senator Alexander. Let me move on a little bit then. What 
can we do to discourage the growth of such feelings, such 
attitudes? Senator Lugar and I were at a meeting in Istanbul 
last week where one of the speakers pointed out the now 
millions of Muslims in Europe and that if European states did 
not find ways to assimilate or integrate those new residents 
into their countries, in that speaker's words, there would be 
colossal problems.
    Germans are dealing with whether to continue to create 
enclaves of Turks in Germany. Italians are sending Muslims here 
to help them see how we assimilate people who come to our 
country.
    I guess what I am getting to is: Are there lessons we can 
learn in the United States about how to help people who come 
here to live to become a part of our country and want to 
support our country rather than blow it up?
    Admiral Redd. I think clearly there are, and I think both 
at the State and local level and at the national level we are 
obviously looking for those lessons learned. As you go across 
other countries, Europe in particular, you have a variety of 
scenarios, some of which the Muslim communities are not well 
integrated at all and live in sort of enclaves, other places 
where they are much better assimilated, including here.
    I think if you were to look at--go talk to Ray Kelly up in 
New York--probably there are some good lessons learned in New 
York. But it clearly is an area which is new, which we are 
looking into. It is one of the objectives as we write what we 
are calling our national implementation plan, getting that 
messaging out, understanding what the right message is and how 
to do it. And it varies by country.
    Senator Alexander. I am thinking specifically of our debate 
on immigration that we have had in the last few weeks. One of 
the most difficult parts of the immigration bill and one that 
Senator Hagel and Senator Martinez have both been very 
instrumental in is that if there is a new legal status for 
people who are illegally here, do they then have a chance to 
become a citizen. While I did not vote for the bill at this 
stage because I did not think the border security provisions 
were strong enough, I am very--I am very worried about any 
decision just to lock in 8, 10, or 12 million people into our 
country into enclaves where they salute another flag, speak 
another language, and have no opportunity to develop a loyalty 
to our country.
    It would seem to me that that by itself might be a breeding 
ground for homegrown terrorism over a longer period of time. 
Would you have any comment on that?
    Ambassador Crumpton. Sir, we have seen no clear indication 
that immigration to the United States leads to that type of 
homegrown terrorism. Immigration we believe makes us strong.
    Senator Alexander. No, I am not suggesting that. What I am 
suggesting is--I am talking about people who are permanent 
residents of the United States--are citizens of the United 
States--who then turn on us because they do not feel a part of 
us. While the United States has, over 200 years, had a lot of 
practice and history in assimilating people, helping them 
become Americans, the rest of the world has not had much of 
that. It is hard to become German, hard to become Japanese, 
hard to become Italian. You have to become an American if you 
are a citizen.
    So I was wondering about whether the concern about 
homegrown terrorism would say to us that we ought to try to 
have policies that help make sure that people who come here, 
that most of them become citizens if they stay for a long 
period of time.
    Ambassador Crumpton. Yes, sir. I think if we want to 
continue building a strong society that we do need to integrate 
immigrants into our communities, into our Nation. Some of my 
European counterparts have asked me, how do we do it, how do we 
manage this? As you noted earlier, they are faced with a large 
and growing problem because many of their immigrant communities 
are not assimilated fully into their national cultural fabric.
    Admiral Redd. Could I just follow up on that?
    Senator Alexander. Yes.
    Admiral Redd. I think if you were to go to a place like New 
York, for example, which as you know has a large immigrant 
community, much of it is from the Middle East. I think what 
they would say up there--the lesson learned up there--is that 
assimilation really is the key, that people come and after a 
very short period of time they can get a job, they can make 
money, they can send their kids to college, they get invested. 
That clearly is something which again we have a long history of 
doing.
    I think you always have to be careful about that, 
obviously, the danger of having a population or part of the 
population which is not assimilated. But I think that is our 
strong point as a society. You come and you get a stake in what 
is going on here and you want to stay and you want to be part 
of that, rather than tear it down.
    Senator Alexander. I happen to think it is perhaps our 
greatest accomplishment as a country, and the better we do it 
the less likely we are to have breeding grounds for homegrown 
terrorism.
    I have one last question and not much time, so I will ask 
it quickly. You have not said anything much about new rules at 
home. We have a lot of discussion here about snooping at home, 
surveillance here in the United States. We are concerned about 
military tribunals, about prisoners in Guantanamo Bay. That is 
in the newspapers today. Do we need to get ready for a 
different era here where we have to accept the idea of more 
surveillance in the United States in order to prevent homegrown 
terrorism?
    Finally, along that line, if we were to close Guantanamo 
Bay to which State of the United States would all those 
prisoners go?
    Admiral Redd. I am sorry? The first part was?
    Senator Alexander. The first part is are we in a new era 
where we are going to have to accept more surveillance in our 
daily lives in order to prevent incidents like the Canadian 
cell that was getting ready to blow up parliament, apparently?
    Admiral Redd. I think, Senator, that that is going to be an 
ongoing discussion. A lot of it is going to take place probably 
in this chamber as we move forward. Clearly, there are 
challenges today which we have not faced in the past, on the 
one hand. On the other hand, the U.S. Government and certainly 
the executive branch is completely dedicated to obeying the law 
and following the law as it is.
    So there are going to be some of those tensions and we are 
going to probably bounce up or bump up against those as we go 
forward. But it is going to be healthy discussion, as it always 
is, on civil rights and protections on the one hand and the 
need for security on the other. I think this is--we are not 
done with that discussion yet by any stretch.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Alexander.
    Senator Obama.

   STATEMENT OF HON. BARACK OBAMA, U.S. SENATOR FROM ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman.
    I appreciate very much the appearance of the Ambassador and 
the Admiral here today. It has been a useful discussion. I 
thought actually Senator Alexander brought up all sorts of 
interesting issues that at some point we will undoubtedly have 
to address here in this chamber.
    A couple things I want to focus on. One, obviously the 
death of al-Zarqawi has dominated the news over the last week. 
I thought it was interesting that the New York Times ran an 
article yesterday about--it may have been the day before 
yesterday--about how Iraq had trained--how Zarqawi had 
apparently trained a number of potential terrorists who had 
been dispersed out of Iraq.
    You will recall that in the 1980s and 1990s, one of the 
consequences of Afghanistan, despite the fact that we pushed 
the Soviets out, was extremists who trained or fought in 
Afghanistan and went on to spawn international terrorist 
networks around the world. So far we are already hearing, for 
example, French counterterrorism officials say they found 
Zarqawi's handiwork in a Chechen-trained terrorist cell in the 
suburbs of Paris that was broken up in December of 2002.
    So I am just curious. What is your assessment of terrorist 
training activities in Iraq? Are there individuals that are 
leaving Iraq, having been trained there? Or is your impression 
that al-Qaeda operatives in Iraq stay in Iraq and are focused 
on that country at this point?
    Admiral Redd. I would say that, with respect to Zarqawi and 
representing the larger issue, basically there are three 
aspects to his presence. First, he was, I think you are aware, 
a terrorist icon. He was a money magnet, a recruiting magnet. 
Obviously he was able to attract and inspire a large number of 
people to his cause. That is going to be a very hard role 
probably to fill.
    The second one refers to what I think you are concerned 
about, what we, NCTC and around the Government, are very 
concerned about, and that is the external operations role. We 
know that Zawahiri has sent a letter to Zarqawi about a year 
ago, first of all talking about the importance of Iraq and how 
they viewed that as the centerpiece of the war on terror, if 
you will, from their standpoint; and second, instructing him 
that we would like to work on the external operations side of 
it.
    The third is his role within Iraq. I think clearly we are 
concerned. We have some indications that there are plots at 
least hatching for external operations and some of those may 
have been far enough along that we will see them. We have seen 
some of them obviously in the attack in Jordan on the hotels, 
going back several years ago to when Ambassador Foley was 
killed in Jordan. That was an AQI. And of course, those things 
have gone on obviously within Iraq.
    So I think there are several theories on that. I do not 
know that we have a very good sense of the total numbers of how 
many are going in and how many are going out. But clearly this 
is the central battlefield in the war on terror right now and 
it is in Iraq, and that is AQ's own assessment and I think 
that's our assessment.
    Senator Obama. I mentioned Afghanistan earlier. There have 
been a number of reports that the Taliban seems to be re-
emerging and strengthening. To what extent do you think al-
Qaeda is involved? What does it mean strategically? Is the 
Taliban regenerating in Afghanistan and are they receiving 
support, safe haven in Pakistani territory? What is our 
approach at this point and how are we addressing it other than 
just militarily trying to hold the line?
    Ambassador Crumpton. We think there are three reasons for 
the resurgence to some degree of the Taliban in Afghanistan. 
One is the international community has not responded quickly 
enough in terms of building roads and digging wells and 
providing the Afghans in the southern and eastern part of the 
country the ability to become part of an economically viable 
society.
    Instead, in many places you have poppies growing, which 
leads to a second reason for the resurgence of Taliban 
fighters. You see increasing cooperation between 
narcotraffickers in Helmand and Kandahar Province and Taliban. 
They have money, they have some of the infrastructure. This is 
one of the major trends we note in our country reports on 
terrorism, the overlap between terrorist networks and 
transnational criminal networks.
    The third reason is indeed we believe Taliban leadership 
and some of the Taliban recruiters have got some degree of safe 
haven along that border area. A border area that in some 
respects defies both Pakistan and Afghan Government's efforts 
to assert their sovereignty. You look back throughout history 
and really no one has been able to control that, going back to 
Alexander the Great.
    So how do you address it? It is not by military means 
alone. As I noted earlier, President Musharraf just a few weeks 
ago has rolled out a new strategy that emphasizes the 
redevelopment of these areas or in many cases the development 
of these areas--economic zones of opportunity. The U.S. 
Government is working with the Pakistani Government on that. 
The Under Secretary for Economic Affairs was just in Pakistan. 
She spent several days in this area.
    But also it is about rebuilding the structure, the 
traditional tribal leadership. More than 100 tribal leaders 
have been assassinated by al-Qaeda and Taliban operatives along 
this border region. These are local leaders who are working 
with the Pakistani Government. We have got to help the 
Pakistanis rebuild that type of local civic society. So it is 
not just military. It is economic, it is political also.
    Senator Obama. While we are on the topic of undergoverned 
regions, the crisis in Darfur. We started to see spillover of 
the conflict into Chad. We heard bin Laden call on jihadis to 
fight imperialism in Sudan. I am wondering if you can give your 
best assessment to the extent to which foreign fighters have 
actually permeated Darfur or that region? Is there a danger 
that that becomes one more safe haven and, if so, how does that 
impact our policy?
    Ambassador Crumpton. This is a perfect example of al-Qaeda 
leadership trying to reach out and claim otherwise local 
conflicts as their own. They try to gain strategic strength 
from this. To date we do not see them gaining any traction in 
this part of the world, specifically Darfur. However, the 
larger question of the trans-Sahara as a safe haven for 
terrorists--the GSPC, mostly an Algeria-based organization, 
they travel throughout that area and they operate in that area. 
We have not seen them in Darfur. They have been further to the 
west. But it does pose an enduring problem for us and we are 
working with local governments there to see what we can do.
    Senator Obama. Well, let me ask you two questions. I am 
running out of time and these are sort of two more global 
questions. But they touch on the problems we are having across 
the board. Ambassador, as you mentioned, this is not something 
that is going to be solved solely militarily. There is going to 
be an important military component to whatever we do, but we 
have got to have more tools in the tool kit.
    Specifically, number one, what structures are we putting in 
place between the State Department, DOD, CIA, and so forth, to 
coordinate these activities? Because, from my perspective, one 
of the concerns about Somalia was what appeared to be a lack of 
a consensus strategy between various branches of the U.S. 
Government. You had folks who officially protested and objected 
to some of the policies that were being pursued by the CIA.
    So No. 1, what kind of operational structure are we putting 
in place to make sure that everybody is rowing in the same 
direction and that we have the military component working with 
the reconstruction component working with the political and 
social components?
    The second thing is, what are we doing to get more buy-in 
from our allies, because Iraq in some ways is sui generis. 
Given how we went in there, it is understandable that there has 
been resistance from our allies. Afghanistan is a slightly 
different situation. In Darfur and in the trans-Sahel we are 
not seeing as much cooperation as we would like to.
    I guess what I am curious about is what diplomatic efforts 
and what organizational structures are we putting in place that 
will permit the kind of international buy-in that we are going 
to need over the long haul to be successful in creating some 
semblance of order and buy-in from individuals who live in 
these regions?
    Admiral Redd. Let me start with the U.S. Government 
structure, which is, as I mentioned in my testimony, really was 
one of the major reasons that NCTC was established in the first 
place in the strategic operational planning role. As I noted, 
broad policy and strategy, done by the NSC, Homeland Security 
Council, with foreign and domestic operations done by the 
various departments, cabinet departments and agencies.
    What we are doing at NCTC, and we are about 10 months into 
it, is this four-part process I talked to you about, but it is 
planning basically. It starts with the planning process. One of 
the key accomplishments which, having again almost 4 decades in 
Government, I have never seen--in fact, we have had comments 
from people with similar experience who say this is truly 
revolutionary. What we have done is take that strategy and 
policy and break it down to strategic objectives, 
subobjectives, and then discrete tasks. This is a comprehensive 
top-down, what does it take to win the war on terror 
tactically, strategically, offense and defense, over the long 
term; broken it down into a number of tasks. In fact the tasks 
actually number in the hundreds--the high hundreds as a matter 
of fact.
    That in itself in government, some people said, I never 
thought that could take place. But I think it is an indication 
of how seriously people understand the need for interagency 
coordination that goes back to some of the other sort of turf 
issues that have come up.
    The second thing that happens there is we say, OK, not only 
do we have this task, but who is in charge and who are the 
partners. It will not surprise you that in many of the things 
we are talking about--safe havens, for example, overseas and 
that sort of thing--the State Department is in the lead, and 
everybody has agreed to that, but Defense, whoever the other 
Departments that have a role in that, are assigned as partner 
relationships. They are accountable to the President for making 
sure that that particular task, whether it is a virtual safe 
haven, physical safe haven, is taken care of.
    The next step is implementation, which we are really just 
starting to get into. But again, the role is when these turf 
battles come up--I hate to use the word ``turf battles''--when 
these issues come up they are resolved and we do not have to go 
all the way to the White House to get them resolved. We can 
resolve them at a much lower level and make things a lot more 
responsive.
    Finally, we do the assessment. Is the plan working or not? 
How do we need to revise it? And you start up all over again.
    So this is--I use the term ``revolutionary'' advisedly, but 
I think it is a fair assessment of what we are doing. This has 
never happened in government before and it gets to a lot of the 
issues which you are seeing in terms of macro and how do we 
bring all those elements of power--diplomatic and law 
enforcement as well as military and intelligence--to bear.
    Senator Obama. I know I am out of time, but if you will 
just indulge me, just a follow-up. This group is empowered by 
its constituent parts? You are not just generating several 
hundred tasks that then are ignored by----
    Admiral Redd. First of all, Senator, you empowered it when 
you wrote--when you signed the Intelligence Reform and 
Terrorist Prevention Act and you say that I report to the 
President. So my power comes, if you will--not my power, but 
NCTC's ability to make this happen comes from the President. We 
write the plan----
    Senator Obama. Well, it comes from the President listening.
    Admiral Redd. Oh, yes. We write the plan. It is done not by 
NCTC sitting in an ivory tower. Two hundred people from around 
the interagency come together, fight it out, sharp elbows, and 
this is the plan. Then we take it to the NSC deputies level, 
principals level, and then we take it to the President for 
approval, and he approves it. And trust me, it is not a rubber 
stamp sort of thing.
    This is really unusual in the history of our Government, 
but it is an interagency effort where everyone has come 
together, again a recognition that this is a different kind of 
war.
    Senator Obama. We will be hopeful.
    On the international front, Ambassador, do you want to 
tackle that? I appreciate the indulgence.
    Ambassador Crumpton. Yes, sir. I should note that the 
international front, a big part of what we are doing is to take 
this plan that Scott is talking about and operationalize it and 
put it in the field, and to keep the kind of flexibility and 
agility we need when you put that kind of plan into action, 
because the battlefield not only varies from country to 
country, but sometimes from valley to valley, village to 
village, and you have got to have that flexibility in the 
field, going back to our emphasis on interagency work in the 
field.
    So what we are trying to do is to bring the field to 
Washington and Washington to the field, to make sure this thing 
works and it is not just a Washington, DC plan; it involves the 
interagency really around the world, especially working with 
our global partners. The emphasis is on working with partners 
whenever and however possible. We do this in a variety of ways. 
We do it through joint training, joint exercises, information 
exchange, which we talked about earlier, and there are a 
multitude of successes at a tactical level, but increasingly at 
a policy level, when we work with our partners in terms of 
conventions, counterterrorism conventions at the United 
Nations, working with the Organization of American States, 
CICTE, an interagency or an intergovernmental group devoted 
exclusively to counterterrorism. I was in Bogota recently at 
the annual convention and the declaration that came out of that 
convention focusing on terrorist mobility in this hemisphere is 
a powerful document. We are putting more money into that to 
make sure that our partners can work better in terms of 
spotting terrorists and inhibiting their mobility. I will be 
glad to forward you that document if you wish.
    The Chairman. Thank you very much, Senator Obama.
    Senator Martinez.

   STATEMENT OF HON. MEL MARTINEZ, U.S. SENATOR FROM FLORIDA

    Senator Martinez. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being with us today. I wanted to 
begin by asking you about an area that probably in the last 
couple of years may be the single greatest success of seeing a 
turnaround in a country, which is Libya. I wonder whether, 
first of all, you would agree that it is a success as it 
relates to our efforts on the war on terror; and also second, 
whether, in fact, there are some lessons that might be learned 
in our interaction with Libya and where Libya has come from and 
where it has come to that we might apply to other countries?
    Ambassador Crumpton. Yes, sir, I think it does serve as a 
useful example. We talk about bringing to bear all the 
instruments of statecraft and this is an example of that, 
stretching over almost 2 decades. It also is a lesson for us in 
stamina that is required when we face this type of challenge. 
You had military application, you had economic sanctions, and 
of course you had the rule of law. You had those responsible 
for Pan Am 103 be sentenced. You had the Libyan Government pay 
more than $2 billion in reparations. You have got a leadership 
now that understands that they had to join the community of 
nations and to do so they had to renounce terrorism, and they 
have done that.
    We extend this to those countries today that support 
terrorism. There is a path to join the community of nations. 
And also to terrorist groups, that they can renounce terrorism 
also, be part of the solution and not the problem. So there are 
many good lessons to learn from that.
    Senator Martinez. The other area of the world that concerns 
me greatly is the area of Latin America. You were just talking 
about a report coming out of Colombia where you recently were. 
I think Colombia is a great example of again success in the way 
that they have progressed in combatting narcotrafficking and 
narcoterrorism.
    The border region between Venezuela and Colombia continues 
to be a troubled area and one in which--I wonder if you can 
comment on whether there is in your opinion any implicit 
cooperation by the Venezuelan Government in--well, first I 
should start by saying, is the Venezuelan Government in your 
view cooperating with the Colombian Government or are they in 
fact on the other hand impeding the opportunity for the 
Colombian Government to continue to stamp out the FARC, which 
seem to operate in that region rather freely?
    Ambassador Crumpton. Just this year we categorized 
Venezuela as not fully cooperating with us and the 
international community in terms of counterterrorism. Because 
of this border area, Colombia continues to face some 
challenges, despite what I think is the extraordinary 
leadership of President Uribe and the Colombian military and 
Colombian police. He has done a remarkable job, but, as I noted 
earlier, as long as the enemy is able to have some degree of 
safe haven or an ability to transit areas, it is going to be a 
problem. And Venezuela has not been fully cooperative.
    Senator Martinez. In terms of the region again, Cuba has 
been on the list of terrorist states for quite a number of 
years and continues to be on the list. I wondered if you can 
comment on one of the areas obviously they fail to cooperate in 
on the war on terror, but in addition to that have provided 
safe harbor for many years to either fugitives of United States 
law or also known terrorists, FARC, ELN, ATA, and others, their 
level of cooperation with Iran and also Venezuela and that 
triumvirate, and also--well, let me just ask you that, and then 
I will have a follow up on that.
    Ambassador Crumpton. Yes, sir, we are worried, and we see 
increased cooperation between those three countries. We see 
Hezbollah members in Venezuela. We see them engaged in criminal 
activities in Venezuela and increasingly throughout the region.
    Senator Martinez. That includes the tri-border region?
    Ambassador Crumpton. Yes, sir, it does. It includes the 
tri-border region.
    Also, Hamas and others. The role of Cuba continues to be 
troublesome because of their links to the FARC in Colombia and 
we have expressed our concerns, but we have seen very little 
progress in that regard.
    Senator Martinez. One of the areas that continues to be in 
reports that I see is the disproportionate biological research 
program in Cuba to a country of that size and that stage of 
development. I have not ever seen any linkage between that and 
make a clear connection that in fact it also includes offensive 
weaponry related to bioweapons, but I wondered if you have any 
information that you can shed on that, in addition to the fact 
that there seems to be recent cooperation between Cuba and Iran 
in the area of biotechnology?
    Ambassador Crumpton. Sir, I do not have a good answer for 
you, but I will be glad to research that and get back to you. 
But I will note we have seen, at least to my knowledge, no 
indications that the Cubans are trying to develop BW weapons. 
But let me double check and let me get back to you on that. I 
would be glad to.
    Senator Martinez. Thank you. I would appreciate that.
    The other area I wanted to touch on was the area of Africa 
and the issue of Somalia, which I think has really been 
probably covered sufficiently by others. But I wondered if in 
that area--you know, there is some good news in Africa that I 
am always encouraged by. Then obviously there is this terribly 
troubled area. One of the answers that has been encouraging has 
been the participation of the African Union in its own 
peacekeeping activities. One of the problems obviously has been 
the underfunding of their efforts and terribly undermanned that 
they are. Do you think that they could play a viable role in 
the continuing efforts to provide stability so that these 
ungoverned areas might find a way to become more stable and be 
less of a breeding ground for future terrorists?
    Ambassador Crumpton. Sir, I lived in Africa for 10 years 
and I have a deep sympathy for the people and for the 
challenges they face. I believe ultimately the only answer to 
some of these problems of ungoverned space will be an 
international coalition. I think the African Union can play a 
role, but they are going to need a lot of help, because in many 
respects they are starting at a very basic level in terms of 
transport, in terms of communication, and in terms of command 
and control.
    It is a challenge for any military--any type of 
peacekeeping force--to extend themselves into such areas as the 
Darfur or the trans-Sahel at large. We need to help them, the 
AU and others, because the problem I fear is going to continue 
to grow.
    Senator Martinez. One last quick question, Admiral Redd. 
Senator Alexander brought up the issue of our current 
immigration discussion here at home and the issue of border 
security, and I wondered if, given the issues that recently 
arose in Canada, whether or not we--we have been very focused 
on border security in our border with Mexico in terms of 
securing our homeland and antiterrorism efforts. Do you think 
that our border with Canada could also use some additional 
look, additional resources, or additional manpower?
    Admiral Redd. I think first of all we are looking very 
carefully at both borders. At congressional mandate, we had 
completed and submitted to the Congress about 3 months ago, a 
national strategy for countering terrorist travel, and one of 
the key parts of that had to do with how we deal with both 
borders.
    We work very closely with the Canadians, as you know, but 
clearly we are watching that border. As indicated by the events 
of the last several weeks, there is no place that is really 
safe. So we work closely with the Canadians and we clearly are 
watching that border as well as the southern border.
    Senator Martinez. Thank you, sir.
    That is all I have, Mr. Chairman. Thank you very much.
    The Chairman. Thank you very much, Senator Martinez.
    We thank both of our witnesses for your initial testimony 
and your full papers and for your very forthcoming responses to 
our questions. We ask your cooperation in responding to the 
questions for the record that you have mentioned that you would 
respond to in the course of the questions. Thank you very much 
for coming.
    The chair will now call on the second panel.
    Admiral Redd. Thank you, Mr. Chairman.
    Ambassador Crumpton. Thank you, Mr. Chairman.
    The Chairman. The second panel will be the Honorable John 
E. McLaughlin, senior fellow, Merrill Center for Strategic 
Studies, the Paul H. Nitze School of Advanced International 
Studies at the Johns Hopkins University, Washington, DC; and 
Daniel Benjamin, senior fellow, International Security Program, 
Center for Strategic and International Studies, Washington, DC.

    [Pause.]

    The Chairman. Gentlemen, we thank you for coming this 
morning, and I will ask you to testify in the order I 
introduced you. That would be first of all, Mr. McLaughlin, and 
second, Mr. Benjamin. Mr. McLaughlin, would you please proceed 
with your testimony. Your full statement will be made a part of 
the record as we indicated at the beginning of the hearing.

 STATEMENT OF HON. JOHN E. McLAUGHLIN, SENIOR FELLOW, MERRILL 
CENTER FOR STRATEGIC STUDIES, PAUL H. NITZE SCHOOL OF ADVANCED 
INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY, WASHINGTON, DC

    Mr. McLaughlin. Thank you. Thank you for your invitation to 
testify, Mr. Chairman. In my judgment you have chosen exactly 
the right moment to ask these important questions about 
terrorism. You have a lengthy prepared statement from me, as 
you noted, and I am going to take just a few minutes to 
summarize its main points, concentrating on the recommendations 
that I describe at the end.
    You will notice in the front part of my statement I talk a 
lot about the successes we have had against terrorists, 
especially since 9-11, but there is still a lot of work to do 
and so I would like to focus on that. The bottom line is that 
the terrorist movement we now confront is in some ways less 
dangerous than the 9-11-era al-Qaeda, but in some ways more 
dangerous.
    It is less dangerous in that terrorists now have more 
obstacles to overcome in attempting to orchestrate large-scale 
international terrorist operations. It is more dangerous in 
that the movement is now more amorphous, operates in smaller 
units that are more dispersed geographically. It is today less 
dependent on geography and hierarchy than it used to be and 
much more dependent on the Internet and ideology.
    The movement now has an African face, a European face, an 
Asian face, and, as illustrated most recently by the wrap-up of 
terrorist suspects in Canada, a North American face. It is not 
easily profiled. While the inspiration and presumably some 
level of funding and training still come from the center, more 
autonomy is flowing to locally based parts of the network that 
recruit locally and rely less on external operatives.
    While many of the recent attacks--London, Madrid, Istanbul, 
Casablanca, Bali, Sharm el-Sheik, and the one attempted in 
Canada--appear local in nature, we must not delude ourselves 
into thinking that this is no longer an international 
phenomenon. In fact, the goals and consequences of each attack 
transcend regional borders, in that successful attacks feed 
recruitment efforts worldwide and are celebrated in jihadist 
Web sites worldwide.
    Although it can be argued that our successes must be making 
it harder for al-Qaeda to mount a major attack in the United 
States, we cannot take any real comfort in that, nor can we 
really afford to believe it. Nothing would boost the movement 
more or provide a greater incentive to al-Qaeda's seemingly 
flagging donors than another attack on American soil. For al-
Qaeda that remains the brass ring, the way to recoup its losses 
and return the movement to its earlier preeminence.
    Against the backdrop of these changes, what is required of 
intelligence and our policymakers over the next 5 to 10 years? 
First and perhaps most obviously, we must intensify our focus 
on the remaining elements of the leadership, including of 
course, bin Laden and Zawahiri. Although the movement has 
evolved beyond the point that a decapitation strike would end 
the war, putting these remaining leaders out of business would 
nonetheless be an operational setback and an enormous symbolic 
blow to the movement. It would weaken the international glue in 
the movement, lead to further fractures, throw many of these 
extremists off balance, and reduce the overall threat the 
movement poses in its current configuration.
    Second, our policies have to reflect the certainty that 
there is no unilateral solution to the problem America faces. 
American intelligence has been extraordinarily successful in 
building counterterrorist partnerships with other intelligence 
services around the world, but must now, along with 
counterparts across the U.S. Government, tighten, deepen, and 
build on these relationships. Increasingly, the terrorist nexus 
will be in remote parts of diverse societies where Americans 
will have trouble operating.
    Third, success against this adversary has little to do with 
structure or organization in the intelligence community, 
despite the near-exclusive attention paid to that since 9-11. 
It has everything to do with something even more prosaic, the 
effective fusion of data. Success against terrorist networks 
has yielded an enormous amount of data and it must be managed 
in a way that a local law enforcement officer trying to sort 
through all of this and encountering suspicious activity, say, 
somewhere in the Midwest is able to reach into a database to 
bounce his findings off of what CIA case officers have picked 
up overseas, what FBI officers may be hearing in New York City, 
or what Customs and Border Patrol may have learned, and all of 
this has to work just as well in reverse.
    Fourth, the key to intelligence success against terrorists 
is speed and agility. We must be on guard against anything that 
reduces the progress achieved on that score in recent years. 
Response decisions must frequently be made in a matter of 
minutes or hours on very perishable intelligence. The National 
Intelligence Director must be careful not to allow the new 
intelligence structure to evolve into any additional layers of 
approvals that would compromise speed and agility.
    Fifth, our intelligence and military services must 
obviously stay on the offensive, but the country must pay 
increasing attention to the defense. Intelligence will 
frequently pick up the signals necessary to head off a major 
terrorist attack, but intelligence professionals can bat .900 
and still fail. The homeland security effort has come a long 
way since 9-11, but I wonder if our country is yet beyond a 
mind-set geared to the expectation that specific intelligence 
on timing, target, and method is the primary way to avoid 
terrorist attacks. Certainly that should be the goal, but we 
must use systematically the large body of data we already have 
to close the gaps in our vulnerabilities at home.
    Sixth, we must focus intensively on potential terrorist use 
of WMD. Terrorism is by its very nature an asymmetric approach 
to war. WMD, nuclear, chemical, and biological, are the tools 
that would restore asymmetric power to a weakened terrorist 
movement and give it the potential to level the playing field 
with the United States and its allies. Terrorist leaders know 
that the use of such weapons in the United States would be the 
surest way to top 9-11.
    Seventh, national policymakers must provide constancy in 
resources and moral support to the counterterrorism community 
to maximize its effectiveness in what surely will be a 
protracted war. Budgets that go up and down or depend on 
unpredictable supplemental funding will make it harder to 
maintain the relentless focus that counterterrorism requires.
    Mr. Chairman, the foregoing recommendations are a mixture 
of tactical and strategic considerations, but clearly there 
must be a still more strategic component to the U.S. approach 
to this problem--one that looks well beyond the day to day 
struggle and addresses the underlying forces at work. Otherwise 
our children and grandchildren will still be fighting this war 
long after we have left the field.
    Put another way, we must attack not only the terrorists, we 
must also attack their strategy. After all, this is partly a 
war of ideas, not unlike our struggle with communism after 
World War II. But today's problem is more complex because it is 
entwined with religion and because many of those opposed to 
Islamic extremists, unlike the foes of communism, do not 
necessarily welcome support from the United States.
    Still, there are some guiding principles that can inform--
inform a long-term strategic approach. First, this war needs to 
be called what it is--a campaign against Islamic radicalism. 
The war on terror has become too abstract a concept in my 
judgment. The enemy needs to be personalized in a way that 
permits both Muslims and non-Muslims to understand that we are 
not talking about the great and good Islamic faith, but about a 
group of people who have taken a cut and paste approach to 
Koranic scholarship, one that aims to justify killing not just 
nonbelievers, but those Muslims who disagree with them. Being 
as clear and concrete as possible about who precisely we oppose 
and why, will help to separate them from the rest of the 
Islamic world and make every other aspect of a longer-term 
strategy more manageable.
    Second, in order to be effective, this message must come 
from the Muslim community itself. Only they can speak with the 
requisite authority on these matters. There is no question that 
the vast majority of Islamic leaders oppose what bin Laden 
represents. Ways must be found to engage them actively, help 
them communicate their message, and increase their authority in 
the Islamic community. Given the Islamic radicals' aims, these 
mainstream Muslims have more to lose than we do.
    Third, we must continue to deny territory to the 
terrorists. Al-Qaeda writings, especially those of Zawahiri, 
lay great stress on the need to get control of a major piece of 
territory, preferably a country, as a platform from which to 
spread their influence. Denying them territory at this stage of 
the battle means keeping pressure especially on areas of the 
world that are less governed, to use a phrase mentioned earlier 
in this hearing, or simply ungoverned by virtue of their 
location, ethnic composition, or the heritage of a failed 
state.
    This means paying special attention to areas such as the 
Pakistan-Afghan border, parts of East Africa, the vast 
stretches of Southeast Asia, and even to Europe because its 
societal complexity and its large and often alienated Muslim 
population amount to an environment that Islamic radicals can 
exploit.
    Fourth, United States diplomatic and aid policies must 
continue to target the economic, policy, and education policies 
that in many Islamic countries contribute to unemployment, 
poverty, and recruitment into radical movements. This, of 
course, is easy to say and hard to do, and will not bring 
change overnight.
    Finally, U.S. policy must do everything possible to take 
away the excuses--and I emphasize, excuses--that radical 
extremists seize upon to justify their murderous practices. 
Nothing would do more to undermine their message and isolate 
them than the reality of a settlement in which Israel's right 
to exist was recognized by a Palestinian state and endorsed by 
other Islamic nations. Again, this is easier said than done, 
but it is clearly a goal that deserves our utmost effort.
    It is often said, Mr. Chairman, that it will be very hard 
to know when this war will be over and that there will 
obviously be no surrender ceremony on a battleship. Terrorism 
at some level and in some form has been part of international 
life for centuries and we probably have as much chance to 
eliminate it completely as we have to stamp out all crime in 
the world.
    So when can we begin to feel that we have won? I suggest, 
Mr. Chairman, that this day will not come until we have 
dismantled the movement into so many isolated and weakened 
parts that it is manageable on a local basis. And it will not 
come until this ideology has become, for lack of a better term, 
unfashionable or unacceptable. Adherents will still exist, just 
like communists, but will no longer be taken seriously. 
Regrettably, we are still a long way from that day.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McLaughlin follows:]

 Prepared Statement of Hon. John E. McLaughlin, Senior Fellow, Merrill 
  Center for Strategic Studies, The Paul H. Nitze School of Advanced 
  International Studies, The Johns Hopkins University, Washington, DC

    Thank you, Mr. Chairman, for your invitation to testify today on 
this most important topic. Now that nearly 5 years have passed since 
the devastating attacks of 9/11, this is clearly the right moment to 
stand back and ask the questions you pose in this hearing--how have 
things changed since 9/11, how has the threat evolved, and how are we 
doing in countering it?
    In addressing these questions, I intend to focus mainly on al-Qaeda 
and those inspired by it. And while the war in Iraq clearly bears on 
these issues, I intend to deal more with the war outside Iraq than with 
the ongoing conflict there. While United States conventional military 
forces carry the main burden in Iraq, obviously supported by 
intelligence officers, the war being fought outside Iraq and outside 
parts of Afghanistan has been, and in my judgment remains, largely an 
intelligence war. And the challenges associated with that will also be 
part of what I try to address today.
    Another distinction that I will try to explore is that between the 
tactical and the strategic aspects of the war on terrorism. While our 
actions since 9/11 have been carried out in a thoughtful strategic 
context, they have been largely tactical in nature. The emphasis has 
been on degrading and disrupting the terrorist networks that exist, and 
we have done this very effectively. As a nation, we have put less 
energy into dealing with the root causes of terrorism--the complex 
social, economic, and political factors that are the engines driving 
the terrorist movement.

                  WHERE WE HAVE BEEN: 9/11 IN CONTEXT

    My background is of course in intelligence, and it goes without 
saying that, like other Americans, intelligence officers viewed 9/11 as 
a devastating tragedy--but not as the beginning of a war. U.S. 
intelligence had been combating terrorists for at least two decades and 
had considered itself at war with al-Qaeda since the mid- to late-
1990s. The attack of 9/11 was thus seen by intelligence as a 
catastrophic loss in a war that had been ongoing.
    It was a war in which the United States had seen both victories and 
defeats. Among the victories were the disruption of a Ramzi Youssef 
plot to down 10 civilian United States airliners over the Pacific in 
the mid-1990s, the disruption of plots to bomb our Embassies in Yemen, 
Albania, and at least one West European capital, and the disruption of 
a wide array of planned attacks on United States interests in the 
United States, Jordan, and other parts of the Middle East in 2000-2001 
(the so-called Millennium plots).
    Among the defeats were the bombings of our Embassies in East Africa 
in August, 1998, the attack on the USS Cole in Yemen in October, 2000, 
and of course the most devastating loss--9/11 itself.
    So, while 9/11 will forever be viewed as the major demarcation line 
between eras in U.S. counterterrorism, it was also in a sense the most 
dramatic mark along a continuum--the major battle lost in a long-
running war.
    And while the specific targets, timing, and method of attack came 
as surprises to intelligence, the community was expecting some kind of 
major terrorist event. Throughout the summer of 2001, the conviction 
grew within U.S. intelligence that a major attack was coming--so much 
so that the alarms sounded by the intelligence community were seen by 
many in the policy world as having an almost frenzied quality--the more 
so since the intelligence lacked the sort of specificity that 
policymakers hungered for at that time.
    After the attacks occurred, the Nation's response benefited from 
the fact that much thought had been given, beginning in the Clinton 
administration--to tactics and strategies designed to undermine al-
Qaeda's Afghan sanctuary.
    This all came into play in the immediate aftermath of 9/11 as the 
CIA's strategy of working closely with Afghan tribal allies moved to 
center stage and as the relationships built years before with the 
Afghan Northern Alliance paved the way for CIA teams to be on the 
ground in Afghanistan just 16 days after 9/11. This was of course the 
front end of what became the successful takedown of the sanctuary by 
combined military and intelligence capabilities in Operation Enduring 
Freedom.

                            WHAT HAS CHANGED

    Since 9/11 and the early days of Enduring Freedom, much has changed 
in our Nation's approach--and also in the enemy camp.
    Having made the point that this is largely an intelligence war, I 
need to talk in particular about how intelligence has evolved since 9/
11. It is not well understood that by 9/11, the intelligence community 
was already in the midst of a dramatic transformation--one that 
accelerated as the community adjusted to its new authorities and 
responsibilities post-9/11. Following resource cuts approaching 25 
percent in the 1990s after the Soviet collapse, intelligence 
capabilities had become extremely stretched. Hiring had come to a 
virtual standstill, and the CIA in the mid- to late-1990s was training 
only a couple dozen clandestine service officers a year. Meanwhile, 
requirements for foreign intelligence were mounting steadily as the 
illusion of a peace dividend gave way to reality.
    It was during this time of resource stress and constantly shifting 
priorities that the terrorist challenge began to come into sharper 
relief. It was also in this period that the CIA embarked on a strategic 
plan designed to increase its collection capabilities, adapt them to 
new technological realities, enhance its analytic expertise, and ensure 
that its scientific work stayed on the cutting edge. These efforts were 
just off the ground and just beginning to benefit from a restoration of 
some resources when 9/11 hit.
    The intelligence community had already moved far away from the cold 
war paradigm by the time of 9/11, but the momentum increased markedly 
in the wake of the attack. Any comparison with how intelligence was 
postured in the cold war illustrates this dramatically.
    Back then, for example, intelligence focused on tracking and 
locating big things, such as motorized rifle regiments, deployed 
strategic forces, bombers, and submarines. Today, intelligence still 
has to do much of that but, meanwhile, has learned to hunt with 
considerable success for small things--a suitcase with a bomb, a single 
person in a city of 17 million, one room in an apartment, a single 
packet of data moving through the global information network.
    During that earlier era, intelligence worried mainly about 
governments and political parties--especially those with a Soviet 
connection. Today, there is still a requirement to follow governments 
and parties, but for what they represent in and of themselves. And in 
seeking to counter terrorism, the requirement is to look deeper into 
other societies--down to towns, regions, religions, and tribes--while 
also assessing the societal stresses that can be factories for 
terrorism.
    During the cold war, the secrets intelligence had to unlock were 
shared by hundreds of individuals in ministries and embassies--a large 
pool from which to recruit agents. Today, the secrets terrorists guard 
most closely are shared by small numbers of people, and they are likely 
to be living in remote areas, possibly in caves, or broken into small 
groups scattered throughout dense urban environments. None of them will 
be found at cocktail parties, embassy receptions, or government 
ministries. In other words, the recruiting pool has shrunk, avenues 
into are constricted and obscure, and those who fight terrorists have 
had to adjust to this new reality.
    The cold war period was also often marked by a shortage of data on 
many issues. Today, despite the difficulty of acquiring secrets through 
classic espionage, the capture of a terrorist cell in the computer age 
may yield enormous amounts of data--as much as we house in a small 
public library. The challenge is to find ways to sort it, fuse it with 
other data, and discern any threatening patterns in it.
    Finally, years ago, intelligence acquired by the United States had 
to be shared mainly with other agencies in the Federal Government and 
with a few foreign partners. Today, it must be shared with a worldwide 
antiterrorist coalition and with thousands of local law enforcement 
officers in the United States. Today, a local cop on the beat should be 
able to access nationally compiled domestic and foreign data, and that 
data should reflect the essence of homeland and overseas information 
acquired by agencies such as the FBI and the CIA.
    Beyond these broad trends, the specific practices of the 
intelligence community on counterterrorism have changed substantially 
since 9/11. Little of this is recorded or even acknowledged in the 9/11 
Commission Report, because the Commission drew a line at October, 2001, 
and did not delve into changes and improvements subsequent to the 
attack. Therefore, the report takes no real account of these in its 
analysis or its recommendations.
    As I told the Senate Armed Services Committee in testimony in 
August, 2004, this was the most dramatic period of change for the 
intelligence community in my memory.

  <bullet> Our policies--the Nation's and the intelligence community's 
        underwent fundamental changes. The principal change is that 
        post-9/11 national policies and the authorities given to the 
        intelligence community allowed it to go decisively on the 
        offensive against terrorists worldwide. As a result, most of 
        the traditional sanctuaries are dismantled or under relentless 
        pressure. The complex logistical, financial, and communications 
        networks that sustain terrorist activities have also been 
        disrupted or made less effective through the efforts of the 
        United States and its allies.
  <bullet> Day to day practices have also changed dramatically. While 
        the degree of pre-9/11 tension among agencies has been highly 
        exaggerated by critics and commissions, it is nonetheless true 
        that there is routinely closer integration of effort today. 
        While there is always room for improvement, intelligence 
        officers, law enforcement, and military officers serve together 
        and share information in real time on the front lines of the 
        fight at home and abroad. When something happens, the default 
        instinct today is to share information. A good example was the 
        discovery in August, 2004, of highly detailed al-Qaeda-
        sponsored casing reports on some of our most important 
        financial institutions. Within a day or so, all of this was in 
        the hands of Federal and local law enforcement and local 
        officials right down to the affected building managers.
  <bullet> Operational integration and response has also advanced 
        markedly. Since 9/11, CIA has followed a practice of holding 
        operational meetings, often on a daily basis, bringing together 
        intelligence and law enforcement representatives, along with 
        defense intelligence and military officers stationed at CIA. 
        Decisions made at the table have gone immediately to officers 
        in the field and their foreign partners, whose penetration and 
        disruption of terrorist networks yielded the precise kind of 
        intelligence represented by the casing reports discovered a 
        year and a half ago. And during the last year, this integration 
        has been given an additional boost as the new National 
        Counterterrorism Center has begun to take hold.
  <bullet> The worldwide antiterrorist coalition has changed. This 
        still takes constant tending, as I will discuss below, but the 
        climate of skepticism and disbelief we frequently encountered 
        abroad has diminished in the face of the new realities of 
        terrorism. As a result, the coalition is broader, deeper, and 
        more committed than before 9/11. This reflects the very high 
        priority the intelligence community has placed on building 
        relationships with foreign counterparts, recognizing that the 
        work cannot be done without local officials who are ready and 
        willing to work jointly with the United States. It also 
        reflects the growing recognition on the part of many partners 
        that they are personally threatened by the terrorist drive and 
        that the terrorists' campaign is drawing more heavily on local 
        resources and indigenous populations.
  <bullet> Needless to say, our laws have also changed. Principally, 
        the Patriot Act that you recently renewed has given the 
        intelligence community real time access to data it did not 
        formerly have, and this has permitted a more productive 
        integration of data from all sources.
  <bullet> Finally, our institutions have changed. Almost 2 years 
        before the stand up of the National Counterterrorism Center 
        (NCTC) late last year, the intelligence community had pooled 
        resources to create its progenitor--the Terrorist Threat 
        Integration Center (TTIC). The NCTC is really an augmented 
        version of the TTIC, with a strategic planning function added. 
        What made both institutions unique is the bringing together of 
        more than 20 databases from a wide variety of foreign 
        intelligence, domestic law enforcement, homeland security, 
        military, and diplomatic agencies. Both TTIC and NCTC also are 
        unique in the diversity of their personnel; like TTIC before 
        it, the NCTC is staffed by officers from agencies as diverse as 
        CIA, FBI, Coast Guard, Homeland Security, Customs, and 
        Treasury. While there is much work still to be done--more on 
        that later--these institutions hold the promise of integrating 
        data more thoroughly and with less chance that something will 
        be missed.

    The terrorist landscape has also undergone enormous change since 9/
11.

  <bullet> Obviously, the key strategic change was al-Qaeda's loss of 
        its most comfortable sanctuary as a result of Operation 
        Enduring Freedom in Afghanistan. This forced the leadership and 
        foot soldiers to scatter, making them more vulnerable to 
        apprehension and less able to plan and execute large operations 
        securely.
  <bullet> A second key strategic development was the decision of 
        Pakistan's President Musharraf to work in close partnership 
        with the United States on counterterrorism following 9/11. This 
        helped expose key operatives to capture and disruption in 
        Pakistan's urban areas, where so many of the major United 
        States counterterrorist successes have occurred. President 
        Musharaff continues to walk a dangerous tightrope in a country 
        whose populace is deeply skeptical of his cooperation with the 
        United States, which remains today no less essential to our 
        ultimate success against al-Qaeda in particular.
  <bullet> A third key strategic moment came in the aftermath of 
        successful al-Qaeda attacks in Saudi Arabia in May, 2003, 
        leading the Saudi leadership to dramatically step up operations 
        against al-Qaeda in the Kingdom. More than 200 operatives have 
        been brought to justice there since then, in aggressive 
        operations that have cost the lives of at least 20 Saudi 
        officers.

    In other arenas, including Yemen and other gulf countries, the 
Levant, Southeast Asia, North and East Africa, and Europe, 
intelligence-based partnerships have kept the movement under pressure 
that has in many cases seriously hindered or prevented terrorist 
fundraising, communication, and operational planning.
    The by now widely-cited figure of \2/3\ to \3/4\ of al-Qaeda's 9/11 
era leadership in custody or killed is testament to the success of the 
U.S. effort. And beyond these acknowledged successes, there is the less 
visible but relentless grinding away at other essential components of 
the terrorist networks--the couriers, the facilitators, the fund 
raisers, the safe house keepers, the technicians--that U.S. 
intelligence officers and their foreign partners have pursued for 
years. This seldom-noticed work, if left undone or neglected, would 
allow these networks to regenerate in ways even more dangerous than we 
have seen in recent successful terrorist attacks in London, Madrid, 
Sharm-el-Sheik, Amman, and elsewhere.
    So the terrorist movement we now confront is in some ways less 
dangerous than the 9/11 era al-Qaeda and in some ways more. It is less 
dangerous in that terrorists now have more obstacles to overcome in 
attempting to orchestrate large-scale international terrorist 
operations. It is more dangerous in that the movement is now more 
amorphous and operates in smaller cells that are widely dispersed 
geographically. It is driven less by a hierarchical command structure 
and geographic considerations and more by an ideology that is spread 
easily by the Internet and other electronic media.
    The movement now has an African face, a European face, an Asian 
face, and--as illustrated most recently by the plot foiled in Canada 
this month--a North American face. It is not easily ``profiled.'' While 
the inspiration, and presumably some level of funding and training, 
still comes from the center, more autonomy is flowing to locally based 
parts of the network that recruit operatives from indigenous 
populations and rely on the external operatives for only portions of 
the planning and execution.
    Clearly, the movement in its current configuration presents new 
challenges for intelligence and law enforcement officers seeking to 
penetrate the networks, acquire their secrets, and bring them to 
justice. Terrorist cells are more dispersed, they have gone to school 
on our successes, and they are adopting stealthier forms of 
recruitment, training, reconnaissance, and operational execution.
    And while many of the recent attacks--London, Madrid, Istanbul, 
Casablanca, Bali, Sharm el-Sheik, and the attempted attack in Canada 
this month--appear local in nature, we must not delude ourselves into 
thinking this is no longer an international movement. Even if these 
attacks are not being staged by a centrally directed, hierarchical 
movement, the goals and consequences of each attack transcend regional 
borders, in that successful attacks feed recruitment efforts world 
wide. Dispersed cells, moreover, are connected by, among other things, 
the celebration of each attack in jihadist chat rooms and the 
propaganda that moves across the Internet after each terrorist success.
    Although it can be argued that our successes must be making it 
harder for al-Qaeda to mount a major attack in the United States, we 
cannot take any real comfort in that or afford to believe it. Nothing 
would boost the movement more or provide a greater incentive to al-
Qaeda's seemingly flagging donors than another attack on American soil. 
For al-Qaeda, this remains the brass ring, the way to recoup its losses 
and return the movement to its earlier preeminence.
    To avert an attack in the United States, we must be alert to the 
certainty that al-Qaeda is looking for new ways to surprise us and to 
circumvent obstacles we have put in their path. We must recall 
constantly something that would have profound consequences in any 
fight: We are up against an opponent who plays by no rules. Therefore, 
we are most vulnerable when we begin to feel comfortable that we have 
closed off their avenues of approach or that we can predict their 
profile or methodology. We have learned a lot about how they operate, 
but they have also gone to school on our successes. And they have 
undoubtedly learned a lot from our increasingly public discussion of 
how we have succeeded.

                           WHAT MUST BE DONE?

    Against the backdrop of these changes, what is required of 
intelligence and our national policymakers looking out over the next 5 
to 10 years?
    The requirements range from the heroic to the mundane, from the 
short-term tactical to the long-term strategic--but all are essential 
to success. Although it is possible to draw up a list, it is important 
to emphasize that these tasks cannot be approached serially; they must 
be tackled simultaneously, albeit with varying degrees of intensity. 
Among the key aspects of the problem:

  <bullet> First, and perhaps most obviously, we must intensify our 
        focus on the remaining elements of the leadership, including of 
        course Bin Laden and his deputy, Ayman al-Zawahiri. 
        Intelligence has had noteworthy success in weakening the 
        central leadership of the movement through the apprehension of 
        a large number of the 9/11 perpetrators, most notably the 
        operational architect of the attack, Khalid Sheik Mohammed, and 
        many of his lieutenants. That said, the movement has now 
        evolved beyond the possibility of a ``decapitation strategy.'' 
        Although success by the German plotters in their assassination 
        attempt on Hitler in July, 1944, probably would have ended 
        World War II, wrapping up Bin Laden will not end this war.
  <bullet> But it would nonetheless be an operational setback and an 
        enormous symbolic blow to the movement. Essentially, taking Bin 
        Laden and al-Zawahiri out of play would weaken the 
        international glue in the movement, lead to further fractures 
        among extremists, throw many of them off balance, and reduce 
        the overall threat the movement poses in its current 
        configuration.
  <bullet> Second, our policies must reflect the certainty that there 
        is no unilateral solution to the problem America now faces. 
        American intelligence has been extraordinarily successful in 
        building counterterrorist partnerships with other intelligence 
        services around the world but must now--along with counterparts 
        across the U.S. Government--tighten, deepen, and build on these 
        relationships. They cannot be allowed to flag or wither. And as 
        important as the intelligence relationships are, they in many 
        cases need stronger diplomatic and military-to-military 
        components. The goal should be to build shared commitment with 
        other societies--a goal that will require resources for 
        training and equipment and large investments of personal time 
        on the part of U.S. officials. Increasingly, the terrorist 
        nexus will be in remote parts of multiple and diverse societies 
        where Americans will have trouble operating. Senior American 
        officials need to be able to pick up the phone and reliably 
        mobilize the resources of other countries in response to 
        intelligence leads--not through pressure or superpower 
        preeminence but as the result of shared commitments developed 
        over time. If this kind of ``intelligence diplomacy'' is 
        neglected, we will find ourselves lacking some of the 
        fundamental tools required to defeat terrorists where they 
        live.
  <bullet> Third, success against this adversary has little to do with 
        structure or organization in the intelligence community, 
        despite the near exclusive attention paid to that since 9/11; 
        it has everything to do with something even more prosaic--the 
        effective fusion of data. As noted earlier, success against 
        terrorist networks has yielded an enormous amount of data--
        enough that sophisticated algorithms are required to sort 
        through it efficiently. But along with volume, it is the 
        diverse sources of this data--and classification levels that 
        range from none to the most sensitive--that make it especially 
        hard to integrate and share. It is critical that our terrorist 
        data be managed in a way that a local law enforcement officer 
        trying to sort out suspicious activity somewhere in the Midwest 
        is able to reach into a database to bounce his findings off of 
        what CIA case officers have picked up overseas, what FBI 
        officers may be hearing in New York City or what Customs or 
        Border Patrol officers may have learned--and for all of this to 
        work just as well in reverse. The United States has made 
        impressive strides toward that goal with institutions such as 
        the National Counterterrorist Center and a variety of databases 
        developed by the CIA's Counterterrorist Center, but we are 
        still not where we need to be. If there was ever a goal worthy 
        of a ``Manhattan Project'' approach--bringing together the best 
        minds in industry and technology--this is it. Getting this done 
        should be a legacy issue for the new Director of National 
        Intelligence.
  <bullet> Fourth, the key to intelligence success against terrorists 
        is speed and agility in responding to leads, and we must be on 
        guard against anything that reduces the progress the 
        intelligence community has achieved on that score in recent 
        years. Response decisions must frequently be made in a matter 
        of minutes or hours on highly perishable intelligence. The 
        possibility of honest error is thus ever present. The National 
        Intelligence Director must be careful not to allow the new 
        intelligence structure to evolve into an additional layer of 
        approvals that would compromise speed and agility, and he must 
        also preserve and enhance the responsible risk-taking 
        environment that the community has created in recent years.
  <bullet> Congressional intelligence committees and other overseers, 
        meanwhile, must exercise careful judgment as they pursue their 
        important work, mindful that one way to ensure risk aversion is 
        to highlight every error made in the course of taking risks.
  <bullet> Fifth, our intelligence and military services must stay on 
        the offense, but the country must pay increasing attention to 
        the defense. Intelligence will frequently pick up the signals 
        necessary to prevent attacks, but given the highly 
        compartmented secrets in the terrorist world, intelligence 
        professionals can bat over .900 and still fail. The homeland 
        security effort has come a long way since 9/11, but I wonder if 
        our country is yet beyond a mindset geared to the expectation 
        that specific intelligence on timing, target, and method is the 
        primary way to avoid terrorist attacks. Clearly, that should be 
        the goal, but given the large body of data we now have on 
        potential terrorist targets and methods, we need to ensure that 
        we are using that data systematically to close the gaps in our 
        vulnerabilities here at home. This should not be seen as 
        intelligence ducking a responsibility; the point, rather, is to 
        make sure we are using to the fullest the information we 
        already have at hand.
  <bullet> Sixth, we must pay special attention to and focus 
        intensively on potential terrorist use of WMD. Terrorism is, by 
        its very nature, an asymmetric approach to war. WMD--nuclear, 
        chemical, or biological--are the tools that would restore 
        asymmetric power to a weakened movement and give it the 
        potential to level the playing field with the United States and 
        its allies. There is no reason to doubt that the terrorists 
        have the ambition to deploy such weapons. Bin Laden has said so 
        plainly, and intelligence has uncovered ample evidence that al-
        Qaeda, in particular, has devoted substantial effort to gaining 
        a WMD capability. Terrorist leaders know that use of such 
        weapons in the United States would be the surest way to top 9/
        11.
  <bullet> Seventh, national policymakers must provide constancy in 
        resources and moral support to the counterterrorism community 
        to maximize its effectiveness in what surely will be a 
        protracted fight. This risks sounding like ``special 
        pleading,'' but the reality is that few aspects of intelligence 
        work are as resource-intensive and painstakingly detailed as 
        counterterrorism. Budgets that go up and down or depend on 
        unpredictable supplemental funding will make it harder to 
        maintain the relentless focus that counterterrorism requires. 
        And while holding the intelligence community to high standards 
        and expecting strong performance, national decision makers must 
        also throw in a dose of patience for an intelligence community 
        that was practically in chapter 11 in the late 1990s and in the 
        early stages of a strategic rebuilding effort when 9/11 hit. 
        The community has been fighting the war very effectively so 
        far--but with essentially no reserve capacity. It will take the 
        Director of National Intelligence and the agencies he oversees 
        several more years to hire and train the numbers of skilled 
        case officers, analysts, and technical specialists required to 
        achieve maximum effectiveness on counterterrorism while 
        simultaneously meeting the community's manifold other 
        responsibilities.

    The foregoing recommendations are a mixture of tactical and 
strategic approaches. Clearly, though, there must be a still more 
strategic component to the U.S. conduct of the war--one that looks well 
beyond the day to day struggle and addresses the underlying forces at 
work. Otherwise, our children and grandchildren will still be waging 
this battle long after we have left the field.
    Put another way, and in classic counterinsurgency terms, we must 
attack not only the terrorists; we must also attack their strategy. 
This means working systematically to dismantle the pieces of the 
network that give it global reach--such as its finances, 
communications, and logistics. In other words, to isolate its 
decentralized cells and deprive them of the means to spread their 
ideology and recruit converts prepared to act on it. In essence, to 
take away their oxygen.
    Ideally, this should occur against a backdrop of broader U.S. 
information, development, and aid policies designed to attack the 
intellectual, ideological, and socioeconomic roots of terrorism. In 
some ways this is analogous to a problem the United States faced after 
World War II as it sought to limit the spread of communism as a system 
of belief and governance. That was at root a ``war of ideas'' and 
required strenuous efforts to combat false or misleading ideologies and 
sustain those who opposed them.
    Today's problem is more complex, because it is entwined with 
religion and because many of those opposed to Islamic extremists, 
unlike the foes of communism, do not seek or welcome support from the 
United States. And we do not yet have for this era a guiding strategic 
concept--something akin to George Kennan's famous ``X'' article that in 
one word, ``containment,'' gave everyone a strategic concept 
appropriate to that era.
    All this said, there are some guiding principles that can inform a 
long-term strategic approach in this struggle against Islamic 
extremism.
    First, this war needs to be called what it is--a war on Islamic 
radicalism. The ``War on Terror'' has become too abstract a concept. 
The enemy needs to be personalized in a way that permits both Muslims 
and non-Muslims to understand that we are not talking about the great 
and good Islamic faith but about a group of people who have taken a cut 
and paste approach to Koranic scholarship--one that aims to justify 
killing not just nonbelievers but Muslims who disagree with the 
radicals. Being as clear and concrete as possible about who precisely 
we oppose--and why--will help to separate them from the rest of the 
Islamic world and make every other aspect of a longer-term strategy 
more manageable.
    Second, in order to be effective, this message must come from the 
Muslim community itself. Only those with authority to interpret the 
faith can speak with the requisite impact on these matters. There is no 
question that the vast majority of Islamic leaders oppose what Bin 
Laden represents. Many of them have spoken out in countries like the 
United States, the United Kingdom, and Spain. Ways must be found to 
engage them actively and to help them communicate their message and 
increase their authority in the Islamic community. Given the Islamic 
radicals' aim, these mainstream Muslims have more to lose than we do.
    Third, we must continue to deny them territory. While this is also 
a short term tactical aim, it also has a longer term strategic 
salience. Al-Qaeda writings, especially those of al-Zawahiri, lay great 
stress on the need to get control of a major piece of territory, 
preferably a country, as a platform from which to pursue their dream of 
recreating a caliphate that would subject all Muslims to their will.
    Denying them territory as this stage of the battle means keeping 
pressure especially on areas of the world that are ``less governed'' or 
simply ``ungoverned'' by virtue of their location, ethnic composition, 
or the heritage of a failed state. This means paying special attention 
to areas such as the Pakistan-Afghanistan border, parts of East Africa, 
and the vast stretches of Southeast Asia. Europe also needs to be on 
this list, not because of any governmental inattention, but because its 
societal complexity, legal structure, and its large and often alienated 
Muslim population amount to an environment that Islamic radicals can 
effectively exploit.
    Fourth, U.S. diplomatic and aid strategies must continue to target 
the economic, political, and educational policies that in many Islamic 
countries contribute to unemployment, poverty, and recruitment into 
radical movements. This is, of course, easy to say and hard to do--and 
will not bring change overnight.
    Finally, U.S. policy must do everything possible to take away the 
excuses that radical Islamists seize upon to justify their murderous 
practices. Recognizing that their continual citing of the Israeli-
Palestinian dispute is little more than an excuse, nothing would do 
more to undermine their message and isolate them than the reality of a 
settlement in which Israel's right to exist was recognized by a 
Palestinian state and endorsed by other Islamic nations. Again, this is 
easier said than done but probably an essential component of any 
comprehensive strategy for isolating and defeating the terrorists.
    It is often said that it will be hard to know when this war will be 
over and that there will obviously be no surrender ceremony on a 
battleship. Terrorism at some level and in some form has been a feature 
of international life for centuries, and we will probably have as much 
chance to eliminate it completely as we have to stamp out all crime in 
the world.
    So when can we begin to feel that we have won? I suggest, Mr. 
Chairman, that this day will not come until we have dismantled the 
movement into so many isolated and weakened parts that it is manageable 
on a local level. And it will not come until this ideology has become, 
for lack of a better term, unfashionable.

    The Chairman. Thank you very much, Mr. McLaughlin, for a 
really remarkable essay and likewise for your summation this 
morning.
    I would like to call now upon Mr. Benjamin for his 
testimony.

  STATEMENT OF DANIEL BENJAMIN, SENIOR FELLOW, INTERNATIONAL 
   SECURITY PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                    STUDIES, WASHINGTON, DC

    Mr. Benjamin. Mr. Chairman, thank you very much for the 
opportunity to appear before you today to discuss the issue of 
the evolution of the terrorist threat. You have my statement. I 
would like to provide you with a summary of it now.
    As everyone has agreed, the terrorist threat we face today 
is vastly changed from the one that existed on September 11, 
2001. The killing last week of Abu Musab al-Zarqawi represents 
a signal achievement in the war on terror, in my view the most 
important such blow since al-Qaeda was run out of Afghanistan. 
But it is exactly this kind of dramatic, yet ultimately 
tactical, achievement that invites misinterpretation of where 
we are in the struggle against radical Islamist violence. So I 
am pleased you have scheduled this hearing and the others that 
will follow so that we can discern where we stand in this 
conflict and what needs to be done.
    Today the United States faces an unnerving paradox. For all 
the tactical successes that have been achieved, our strategic 
position continues to slip. The ideology of jihad is spreading 
and a new generation of terrorists is emerging with few ties to 
al-Qaeda, but a world view soaked in Osama bin Laden's hatred 
of the West, and new areas of the globe are increasingly 
falling under the shadow of this growing threat.
    You have heard from John McLaughlin and Ambassador Crumpton 
about al-Qaeda itself, the core group, and I agree with their 
assessments and so I will not spend time on that. I would 
prefer to devote my time to what has changed in the last 5 
years and in particular to address my comments to three new 
types of terrorists we face and to the changing geography of 
terror.
    The first group, which you have already heard something 
about this morning, is the self-starters, who are also 
described as homegrown. We have become familiar with them 
through such attacks as the bombings in Madrid, London, the 
murder of the Dutch artist Theo von Gogh by a young Dutch 
Muslim, also in 2005, and in a number of other places. These 
are individuals who have very little connection to the al-Qaeda 
organization or to other preexisting groups, but they have been 
won over by the ideas of bin Laden and his followers. They are 
self-recruited and often self-trained, using the vast wealth of 
instructional materials available on the Internet.
    The most recent and, from an American perspective, most 
worrisome development is the disruption just this month of a 
conspiracy involving self-starters in Canada. The condition of 
the Muslim community in Canada is far more like it is in the 
United States than it is like the various Muslim communities of 
Europe, and therefore Toronto carries one powerful message for 
us: A self-starter conspiracy on American soil is a genuine 
possibility.
    It is true that as a group the self-starters have less 
experience and are less skilled than, say, those who have gone 
through al-Qaeda training camps. However, we have seen a 
significant number of highly educated individuals show up in 
these cells. Just as an aside, we saw one cell in Pakistan in 
which the leader was a university-trained statistician and his 
brother who was a cardiologist, were the chief members.
    If only a small percentage of these groups manage to carry 
out attacks, we could still see a significant amount of damage 
and casualties. We should not make the mistake of believing 
that terrorists who begin as self-starters will not find the 
connections, training, and resources they seek.
    We have to be careful about overemphasizing these 
categories and overdefining them. Spanish officials have hinted 
that there was a Zarqawi link to the Madrid bombings. The 
London bombers, some of them traveled to Pakistan for training 
and evidently some of the Toronto suspects had links to other 
individuals who themselves were linked to Zarqawi. We could 
well see a re-networking of the threat, which would mean a 
further increase in the level of danger.
    Two other groups of terrorists are worth mentioning and 
they have not received much attention this morning. Both of 
them are centered in Iraq. The first group consists of the 
foreign fighters who traveled there to fight against the United 
States and coalition forces. Contrary to the expectations 
voiced by the administration at the outset of the war, those 
who came to Iraq did not represent the global remnants of al-
Qaeda after its eviction from Afghanistan. Rather, studies have 
shown foreign fighters are overwhelmingly young Muslims with no 
background in Islamist activity. That is, they represent 
another pool of the recently radicalized.
    We know the effect that their violence has had on the 
insurgency and especially in terms of the large-scale attacks 
such as the one on the Golden Mosque in Samarra last February 
that pushed Iraq to the brink of civil war.
    It is also true that the foreign fighters could well become 
the vanguard of a new generation of jihadists, much as the 
veterans of the fighting in Afghanistan in the 1980s and 1990s 
were the founding generation of al-Qaeda. For an intimation of 
the mind-sets of these individuals and what they are bringing 
back to their communities, I commend to you Anthony Shadid's 
story on returnees to the Lebanese city of Tripoli in 
yesterday's Washington Post.
    One last group that deserves attention is the Iraqi 
jihadists who have emerged from the turmoil of the last 3 
years. In such groups as Ansar al-Qaeda Sunna and the Islamic 
Army of Iraq, there are thousands of militants with a jihadist 
outlook. According to some reputable sources, there could be 
more than 15,000 in their ranks.
    These jihadists will likely have a durable sanctuary that 
also needs to be observed in al-Anbar Province in western Iraq. 
They will not be rooted out by military means. They will be 
rooted out only when there is a capable Iraqi intelligence 
service, and since that service is likely to be dominated by 
Shiites and Kurds there are not going to be many operatives 
able to work in the hostile environment of the Sunni-dominated 
al-Anbar.
    It is too early to say what the long-term orientation of 
these Iraqi jihadists will be. Chances are they will be 
principally focused on the fledgling government in Baghdad. But 
even so, the November 2005 bombings in Amman give us a taste of 
what might yet come to be. Some Iraqis doubtless will have 
motivations for attacks outside Iraq. We have mentioned the 
Amman bombings. It is worth noting that three hotels were hit 
and there was a fourth bomber, a woman by the name of Sajida 
Mubarak. Her device failed to detonate and afterwards she was 
asked why she had undertaken this suicide mission. She 
explained it was as an act of vengeance for the death of her 
three brothers who had been fighting American forces. Her 
statement carried a grim suggestion of how the devastation of 
Iraq may come back to haunt us through the growth of an 
indigenous Iraqi jihadist movement. The most conservative 
tallies of Iraqi civilian deaths puts the toll at about 40,000. 
I fear that we can expect more Sajida al-Mubarak's in our 
future.
    Let me turn quickly to the issue of the geography of jihad. 
Here the picture is one of metastasis. I mentioned Toronto 
already. Let me talk about two regions--two other regions that 
cause particular concern. The first is Europe and I was glad to 
have the opportunity to testify before Senator Allen in April 
on this issue. With more than 30 major failed plots across the 
continent in roughly 5 years, Europe has become a central 
battlefield.
    For an intimation of the size of the pool of potential 
recruits in Europe, we need only to think back to last year's 
riots in France. The young Muslims who took to the streets were 
not motivated by jihadist ideology, but acting out of the 
alienation and out of the deprivation they felt, they clearly 
present an obviously ripe target for recruitment. It is against 
this backdrop that we have seen the emergence of many of the 
self-starter group, as well as the dramatic expansion of a 
network of operatives associated with Zarqawi.
    The second area for concern is the Middle East. Contrary to 
popular belief, radical Islamism had largely been suppressed or 
wiped out in this region in the 1990s. Now, however, we have 
witnessed a series of bloody attacks in the Sinai Peninsula, 
there are reports of al-Qaeda activists in Gaza, we have had 
running gun battles and a conspiracy within the Government in 
Kuwait. Syria, a country that had waged a campaign of 
extermination against Islamists in the 1980s, has seen Sunni 
radicalism re-emerge--and we could go on down the list. Well, 
why have we seen the overall growth in this threat? There are 
many different drivers of radicalism, but one that we need to 
attend to is the failure at our level of strategy--and Director 
McLaughlin alluded to this before--is that we need to have a 
deeper understanding of the ideological nature of jihadist 
terror. U.S. Government officials have often spoken of the 
terrorists' ideology of hatred, but our policies have had the 
inadvertent effect of confirming for many Muslims the essence 
of the bin Laden argument.
    It is worth reiterating the fundamental story line at the 
heart of their beliefs. In bin Laden's formulation, it is that 
America and its allies seek to occupy Muslim lands, steal their 
oil wealth, and destroy their faith. Through the invasion of 
Iraq, we inadvertently gave the radicals a shot in the arm and 
handed them a tableau that they could point to as confirmation 
of their argument. We have seen polling in Muslim nations over 
the last 3 years demonstrate a precipitous fall in America's 
image in the region.
    Although most Muslims will not turn to violence in this 
environment, it is still notable that more are turning in that 
direction than might otherwise be the case. Mr. Chairman, the 
United States and its allies have shown a remarkable skill in 
tactical counterterrorism, as we have heard this morning and as 
the killing of Zarqawi has reminded us. But the skillful 
application of force and the expert use of intelligence and law 
enforcement techniques alone will not allow us to prevail in 
the war on terror. At the level of strategy, we need to--we are 
nowhere near where we need to be.
    It is a central tenet of counterinsurgency that success 
depends on separating moderates from extremists and tilting the 
balance through that means our way. At the core of this 
challenge is a competition of narratives between radical 
Islamists and the West. I have summarized our enemy's story and 
I think intuitively most of us know what the U.S. story should 
be: That we are a benign power that seeks to help those who 
wish to modernize their societies improve their conditions, so 
long as they play by the international rules of the road.
    Part of that story is that we harbor no enmity for any 
religion or race or ethnic group, but instead recognize that 
our future depends in no small measure on improvements in their 
conditions. Unfortunately, that story is not coming through. We 
are indeed in a battle for hearts and minds and our story is 
not being heard. For too many Muslims our actions, especially 
in Iraq, are at odds with our professed values and we are 
blamed by the radicals, but also many moderates, for the 
persistence of autocratic regimes in the Middle East.
    Until we have policies that match our rhetoric and 
demonstrate our willingness to support positive and peaceful 
change in the Muslim world, we will not win over the moderates 
we need. That is why we can continue to succeed tactically but 
slip strategically with ever-graver consequences. A recognition 
of this situation points the way to the necessary discussion of 
how to forge that strategy and that I believe is where we must 
go next, and without delay.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Benjamin follows:]

  Prepared Statement of Daniel Benjamin, Senior Fellow, International 
   Security Program, Center for Strategic and International Studies, 
                             Washington, DC

     Mr. Chairman, distinguished members of the Senate Foreign 
Relations Committee, I want to thank you for the opportunity to appear 
before you today to discuss the issue of the evolution of the terrorist 
threat. With the fifth anniversary of the attacks of September 11 
approaching, this is an appropriate moment for reflection on this 
issue. The terrorist threat we face today is vastly changed from the 
one that existed on that late summer day. Recent events also point to 
the necessity of a review of this kind: The killing last week of Abu 
Musab al-Zarqawi represents a signal achievement in the war on terror--
in my view, the most important such blow we have delivered since al-
Qaeda was run out of Afghanistan in late 2001 and early 2002. But it is 
exactly this kind of dramatic, yet fundamentally tactical, achievement 
that invites misinterpretation of where we are in the struggle against 
radical Islamist violence. I am therefore pleased that you have 
scheduled this hearing and others that will follow so that we can try 
to discern where we stand in this conflict and what needs to be done.
    Today, the United States faces an unnerving paradox: For all the 
tactical successes--the terrorists arrested, plots foiled, networks 
disrupted--that have been achieved, our strategic position continues to 
slip. The ideology of jihad is spreading: A new generation of 
terrorists is emerging with few ties to al-Qaeda but a world view 
soaked in Osama bin Laden's hatred of the West, and new areas of the 
globe are increasingly falling under the shadow of this growing threat.
    Al-Qaeda, of course, still exists, and we would be foolish to 
assume that the group, however degraded its capabilities may be, will 
cease to threaten us. Al-Qaeda's operatives likely remain the most 
capable ones in the field. A terrorist organization is not an army, and 
while an army ceases to be effective once it has lost a certain number 
of its units, a terrorist group can cause grievous damage if only one 
or two cells can operate undetected.
    It is not necessary to spell out the implications of this further, 
and I would rather devote the time remaining to what has changed in the 
last 5 years. In particular, I would like to address my comments to 
three new types of terrorists we face and to the changing geography of 
terror. I do so mindful that we too often try to apply a system of 
rigid categorization that is inappropriate to the phenomenon of 
contemporary terror.
    The first group that should be noted is the self-starters, also 
often called ``homegrown.'' We have become familiar with them through 
such attacks as the 2004 bombings in Madrid, the 2005 bombings in 
London, the murder of Dutch artist Theo van Gogh by a young Dutch 
Muslim militant also in 2005. These are individuals who may have very 
little connection to al-Qaeda or other preexisting groups, but they 
have been won over by the ideas of Osama bin Laden and his followers. 
These terrorists are self-recruited and often self-trained, using the 
vast wealth of instructional materials available on the Internet. Self-
starters have appeared not only in Europe but also in Morocco, where 
they carried out a string of bombings in Casablanca, and in Pakistan, a 
country with a well-established jihadist infrastructure which some of 
the new recruits deemed insufficiently aggressive. It is possible that 
the string of attacks in Egypt's Sinai peninsula is also the work of 
self-starters, but we do not have sufficient intelligence at this point 
to say.
    The most recent, and, from an American perspective, most worrisome 
development is the disruption just this month of a conspiracy involving 
self-starters in Canada. As has widely been noted, the 17 people 
involved sought to acquire 3 times as much ammonium nitrate as Timothy 
McVeigh used to destroy the Murragh Building in Oklahoma City. We have 
in the past too often paid heed to the conspiracies that succeeded and 
not sufficiently to those that failed. The condition of the Muslim 
community in Canada is far more like it is in the United States than it 
is in Europe, and therefore Toronto carries one powerful message: A 
self-starter conspiracy on American soil is a real possibility.
    It is true that as a group, the self-starters have a less 
experience and are less skilled than, say, those who have gone through 
al-Qaeda training camps. However, we have seen a significant number of 
highly educated individuals show up in these cells. If only a small 
percentage of these groups manage to carry out attacks, we could 
therefore see a considerable amount of damage and casualties. Moreover, 
we should not make the mistake of believing that terrorists who begin 
as self-starters will not find the connections, training, and resources 
they seek. Herein lies the danger of overemphasizing the new 
categories, as I mentioned before. Spanish officials have hinted that 
there was a Zarqawi link to the Madrid bombings. It appears that some 
of the London bombers traveled to Pakistan for training and evidently 
some of the Toronto suspects had links to others linked to Zarqawi. We 
could well see a renetworking of the threat, which could well mean a 
further increase in the level of danger we face.
    Two other groups of terrorists are worth mentioning, both centered 
in Iraq: The first group consists of the foreign fighters who traveled 
there to fight against United States and coalition forces. Contrary to 
the expectations voiced by the administration at the outset of the war, 
those who came to Iraq did not represent the global remnants of al-
Qaeda after its eviction from Afghanistan. On the contrary, studies by 
the Israeli expert, Reuven Paz, and the Saudi scholar, Nawaf Obeid, 
both demonstrate that the foreign fighters are overwhelmingly young 
Muslims with no background in Islamist activism. That is, they 
represent another pool of the recently radicalized. Although United 
States officials have repeatedly argued over the last 3 years that the 
Jordanian-born Zarqawi and his band of foreign fighters represented a 
very small percentage of the insurgents in Iraq, their violence drove 
the insurgency--especially the large-scale attacks, such as the attack 
on the Golden Mosque in Samarra mosque last February that gave the 
country a powerful push toward an all-out civil war.
    Perhaps with the death of Zarqawi, the threat posed by the foreign 
fighters in Iraq will be diminished. It is undoubtedly good news that 
the most capable terrorist operative in the world is no longer on the 
scene. If reports of numerous raids based on the intelligence that was 
gathered in recent weeks--including after Zarqawi's death--are true, 
than perhaps his al-Qaeda in Mesopotamia has been dealt a sharp blow, 
and that would certainly be good news for Iraq. We should recognize, 
however, that Zarqawi's work in stoking sectarian tension appeared to 
have run much of its course, and increasing levels of violence 
demonstrate that plenty of other groups have become active. According 
to several Western intelligence services, in fact, Zarqawi was turning 
away new foreign fighters who wanted to come to Iraq. We do not know 
how many of these foreign fighters remain, or how many have begun to 
wind their way home. What we can say, however, is that they could 
become the vanguard of a new generation of jihadists, much as the 
veterans of the fighting in Afghanistan in the 1980s and 1990s were the 
founding generation of al-Qaeda. For a first intimation of the mind-set 
these individuals are bringing back to their communities, I commend to 
Anthony Shadid's story on returnees to the Lebanese city of Tripoli in 
yesterday's Washington Post.
    One last group that deserves attention is comprised of Iraqi 
jihadists who have emerged from the turmoil of the last 3 years. In 
such groups as Ansar al Sunna and the Islamic Army of Iraq there are 
thousands of militants with a jihadist outlook--according to some 
reputable sources, there could be more than 15,000 in their ranks.
    They will likely have a durable sanctuary in al-Anbar province in 
western Iraq. United States troops have fought repeated campaigns in 
this region, whether on the Syrian border or in cities such as Ramadi. 
Yet terrorist attacks have often increased because the militants 
shrewdly move out of town when troops arrive and return after they 
depart. They will be rooted out only when there is a capable Iraqi 
intelligence service. Since that service is likely to be dominated by 
Shiites and Kurds, there are not going to be many operatives able to 
work in the hostile environment of al-Anbar.
    It is too early to say what the long-term orientation of these 
Iraqi jihadists will be--will they focus their violence solely on the 
fledgling regime in Baghdad, or will some of them join the global jihad 
and seek to export violence beyond their borders? Chances are they will 
be principally focused on Iraq, but even so, the November 2005 bombings 
of three hotels in Amman suggest that some will have other targets in 
mind.
    It is true that those attacks were ordered by Zarqawi, but the 
operatives themselves were Iraqi. The attacks were the first successful 
ones in Jordan and the most stunning demonstration of the spillover 
effect of the turmoil in Iraq. Even if relatively small numbers opt for 
the global fight, it could make a significant difference to the 
terrorists' capabilities as has been seen by the actions of very small 
numbers of individuals involved in the Madrid and London bombings.
    Some Iraqis doubtless will have motivation for attacks outside 
Iraq: Although three hotels were hit, there was a fourth bomber--an 
Iraqi woman named Sajida Mubarak Atrous al-Rishawi, whose device failed 
to detonate. Afterward, she explained that she had undertaken the 
suicide mission as an act of vengeance for the deaths of three of her 
brothers, who had died fighting American forces. Her statement carried 
a grim suggestion of how the devastation of Iraq may come back to haunt 
us through the growth of an indigenous Iraqi jihadist movement. The 
most conservative tallies of Iraqi civilian deaths, which have been 
compiled by the Iraq Body Count Web site, puts the toll at around 
40,000. We can probably expect more Sajidas in our future.
    Let me turn to the issue of the geography of jihad: Here the 
picture is one of metastasis. I have already mentioned Toronto. Not 
long ago in Australia, a major dragnet wrapped up at least 18 
conspirators who appear to have been plotting an attack on the 
country's 1 nuclear power plant. In South Asia--especially in 
Bangladesh--the incidence of jihadist violence has grown dramatically. 
In Southeast Asia, a number of regional conflicts in such places as the 
southern Philippines and southern Thailand continue to raise fears of 
wider jihadist activity. In the Caucasus, the incidence of jihadist 
violence continues to be deeply alarming.
    Two regions in particular cause great concern. The first is Europe, 
and I want to thank Senator Allen for allowing me to testify in April 
on this issue. With more than 30 major failed plots across the 
continent in roughly 5 years, Europe has become a central battlefield. 
Much of Europe's problem owes to the fact that the individual Muslim's 
identity is sharply tested there. Most of the continent's Muslims 
arrived in the 1950s and 1960s as workers to fill postwar Europe's 
labor shortage, and they stayed on in countries that, for the most 
part, neither expected nor wanted to integrate them into their 
societies.
    It soon became apparent, however, that there was no easy way to 
send these workers back or to stanch the flow of family members seeking 
reunification with loved ones--let alone to stop them from having 
children. As a result, Europe has sleepwalked into an awkward 
multiculturalism. Its Muslim residents, many of them now citizens, live 
for the most part in ghetto-like segregation, receive second-rate 
schooling, suffer much higher unemployment than the general population 
and those who do work are more likely than their Christian counterparts 
to have low-wage, dead-end jobs. (For an intimation of the size of the 
pool of potential recruits, we need only think back to last year's 
riots in France. The young Muslims who took to the streets were not 
motivated by jihadist ideology, but they clearly presented an obviously 
ripe target for recruitment.) It is against this backdrop that we have 
seen the emergence of many of the self-starter groups as well as the 
dramatic expansion of a network of operatives associated with Zarqawi. 
How the Jordanian terrorist's death will affect this network is 
difficult to predict, but at a minimum, there are now convinced 
jihadists with terrorist connections in approximately 40 countries.
    The second area for concern is the Middle East. Contrary to popular 
belief, radical Islamism had been largely suppressed or wiped out in 
the regions in the 1990s, but it is now resurgent. We have witnessed a 
series of bloody attacks in Egypt's Sinai Peninsula, and there are 
reports now of al-Qaeda activists in Gaza. Kuwait, a country with no 
history of jihadist violence, experienced running gun battles between 
authorities and militants and discovered plotters within its own 
military. Recent visitors to Lebanon speak of a significant spike in 
jihadist activity. Syria, a country that waged a campaign of 
extermination against Islamists in the early 1980s, has seen Sunni 
radicalism reemerge. Qatar experienced its first vehicle bombing. Saudi 
Arabia suffered a series of bombings and attacks, and while the 
authorities have gained the upper hand against al-Qaeda in the Arabian 
Peninsula, the group continues to exist. The discovery of Iraqi-style 
bombs in the kingdom may well be a harbinger of worse to come once 
veterans of the fighting to the north return home--Saudi Arabia has 
contributed the largest number of foreign fighters to the Iraqi 
insurgency. The potential for increasing volatility and destabilization 
is growing in the region, and that ought to be a cause for great 
concern.
    Why have we seen the overall growth in the threat? The chief reason 
for this failure is at the level of strategy and it concern a 
misunderstanding of the ideological nature of jihadist terror. Although 
U.S. Government officials have often spoken of the terrorists' ideology 
of hatred, our policies have had the inadvertent effect of confirming 
for some Muslims the essentials of the bin Laden argument. It is worth 
reiterating the jihadists' fundamental storyline. At the heart of it is 
a belief, handed down from the revolutionary Egyptian Islamist writer 
Sayid Qutb, that the West is the preordained enemy of Islam. In its 
most barebones formulation, the ideology holds that America and its 
allies seek to occupy Muslims' lands, steal their oil wealth, and 
destroy their faith. Radical Islamists interpret much of history 
through this prism: The drawing of borders in the Middle East after 
World War I was aimed at dividing Muslims and destroying their historic 
unity. The creation of Israel was another step in this direction since 
it, too, placed a western foothold in the region and was designed to 
weaken and subjugate Muslim nations. The United States deployment to 
Saudi Arabia and the invasion of Iraq in Operation Desert Storm marked 
another stage in this tale of woe. Radical Islamists believe, moreover, 
that United States supports the autocrats of the Muslim world as a way 
of keeping the believers down and undermining the faith.
    Thus, through the 2003 invasion of Iraq, we gave the radicals a 
shot in the arm, handing them a tableau that they could point to as 
confirmation of their argument. Polling in Muslim nations over the last 
3 years has shown that America's image has plummeted to historic lows. 
Although most Muslims will not turn to violence, in this environment, 
it appears that more are turning in that direction than might otherwise 
be the case. It is clear that Iraq was a major part of the motivation 
of the Madrid and London bombers as well as Mohammed Bouyeri, the 
murderer of Theo van Gogh. In countries such as Pakistan, it is also 
clear that anti-Americanism grounded in the invasion of Iraq is 
increasingly being used as a tool of mobilization for radicals.
    The missteps of the occupation of Iraq opened a new ``field of 
jihad'' for militants who were more than eager to take on United States 
forces in the Arab heartland. For the radicals, killing Americans is 
the essential task; by doing so, they demonstrate that they are the 
only ones determined to stand up for Muslim dignities. Through their 
violence, they have also created a drama of the faith that disaffected 
Muslims around the world can watch on television and the Internet. 
Thus, the jihadist movement's show of its determination to confront 
American and coalition forces as well as those of the fledgling Iraqi 
regime has boosted its attractiveness. However benign our intentions 
were in going into Iraq to liberate the populace there of an evil 
dictatorship, in the context of the culture of grievance that exists in 
much of the Muslim world, the extremists have benefited from our 
missteps and their narrative has had a profound resonance. Again, 
terrorism is a game of small numbers, and a small number of recruits 
can make a great difference. The events of the last few years have 
helped the jihadist movement sign up those recruits.
    Mr. Chairman, the United States and its allies have shown great 
skill in tactical counterterrorism, as the killing of Zarqawi has 
reminded us. But the skillful application of force and the expert use 
of intelligence and law enforcement techniques alone will not allow us 
to prevail in the war on terror. Of course, they are essential, and 
they have surely saved the lives of many innocents in many countries 
around the world.
    Yet at the level of strategy, we are nowhere near where we should 
be. It is a central tenet of counterinsurgency that success depends on 
separating moderates from extremists, and thereby tilting the balance 
our way. At the core of this challenge is a competition of narratives 
between radical Islamists and the West. I have summarized our enemies' 
story. I think most of us intuitively know what ours should be--that 
the United States and its allies are a benign power that seeks to help 
all who wish to modernize their societies and improve their material 
conditions so long as they play by the international rules of the road. 
Part of that story is that we harbor no enmity for any religion or race 
or ethnic group but instead recognize that our future depends in no 
small measure on improvements of conditions for people around the 
world.
    Unfortunately, that story is not coming through. We are indeed in a 
battle for hearts and minds, and we are not winning. For too many 
Muslims, our actions, especially in Iraq, are at odds with our 
professed values. We are also blamed by the radicals--but also many 
moderates--for the persistence of the autocratic regimes of the Middle 
East. Until we have policies that match our rhetoric and demonstrate 
our willingness to support positive and peaceful change in the Muslim 
world, we will not win over the moderates we need. This is why we can 
at once succeed tactically but slip strategically, with ever graver 
consequences. A recognition of this situation points the way to the 
necessary discussion of how to forge that strategy, and that, I 
believe, is where we must go next and without delay.
    Thank you very much for the opportunity to speak here today.

    The Chairman. Thank you very much, Mr. Benjamin, for your 
testimony. Let me begin the questioning by amplifying a point 
that you have just made, Mr. Benjamin, but that you have also 
certainly touched upon, Mr. McLaughlin. That is that some of 
the jihadists or those at least who are fighting against us 
decry, as you have suggested, Mr. Benjamin, that we--that is 
the United States, are occupying their lands and that one 
reason for this occupation is that we have designs upon their 
oil resources; and then finally, that in the course of this 
occupation and this misappropriation, as they would see it, of 
their oil resources, we are undermining their faith, that there 
is a confrontation with the Muslim religion.
    Some would say that beginning perhaps with the agreements 
with President Franklin Delano Roosevelt and the Saudi king 
back in the 1930s that there was a strategic agreement of 
sorts, or an understanding, that Saudi oil in particular, but 
not exclusively that, but that is a very large part of the 
world's reserves, is tremendously important to our country and 
likewise to worldwide commerce, in which we were increasingly 
involved; and from the Saudi standpoint those rulers certainly 
felt capable of providing security for their resources, but not 
overconfident of that, given all of the potential predators. So 
they welcomed the United States' thoughtfulness about them.
    Now, from that embrace has come a good number of 
developments which may have been misinterpreted by many in this 
country as well as in the Middle East. But finally I recall 
that during the time of the invasion of Kuwait by Iraq, on the 
one hand we argued that aggression should not stand. The first 
George Bush indicated that very clearly. In some testimony on 
occasion, Secretary Jim Baker, when pressed said: Well, it is 
about oil. Now, he did not mean exclusively, but nevertheless 
he was honest that there clearly was a problem here in terms of 
disruption of life as we know it in the United States as well 
as life in Japan.
    For example, President Bush went to the Japanese and 
suggested a giant United Way campaign of paying for this 
conflict, that this was of great importance to Japan, and the 
Japanese leaders agreed, and we remember their contributions to 
the financial aspects of this. The Saudis likewise were 
generous contributors. Some would claim that almost the entire 
conflict was paid for by contributions from other countries 
that saw their interest and recognized our mobility of sending 
500,000 people in a way no other country could do. Now, given 
this background, some would then carry the argument further and 
say that in more recent times Osama bin Laden, as a one-time 
resident of Saudi Arabia, and a part of a great family there, 
having very devout ideas with regard to his faith and the 
principles that you have enunciated earlier, deeply resented 
the fact the United States not only came with 500,000 people, 
but a good number stayed in Saudi Arabia. In due course they 
moved their location after attacks, but they stayed. As a 
matter of fact, the American military presence seemed to be 
more pronounced and permanent in this situation.
    As a result, we should have anticipated at some point this 
resentment. Given now what you have both described as an 
extreme form of Islam perhaps, this would lead to an attack 
upon the United States in the event you could pull together the 
international means to do this, the financial means, the 
network means, and finally the technical aspect of flying 
aircraft into the World Trade Center or into the Pentagon.
    Now, I outline all of this because some would say the end 
of this conflict is unlikely ever to happen. In other words, 
the first panel characterized that the war on terrorism might 
last until our grandchildren. But why just to our 
grandchildren? Why not our great-grandchildren? Where is any 
potential end to this in the event that there still is a 
feeling of resentment that the United States and its allies are 
occupying territory and squeezing the resources, as some may 
see it, and undermining religion by our very presence and our 
advocacy of what we see to be human rights and the role of 
women, for example, and democracy?
    How in the world does this fit with the aspirations of 
persons who may be extreme, but maybe even some not so extreme, 
who simply are resentful of all of this? Is the end of the war 
on terrorism or the end of, say, worldwide dependence on oil, 
for example, in which people in a very cavalier way, equally 
misguided, would say that we really do not care what happens to 
the oil wells in Saudi Arabia, that is up to the Saudis, and 
they will have to work that out; or at least we are not going 
to be occupiers, we are not going to come into Saudi Arabia and 
suggest, for example, that their governmental system has great 
deficiencies; as a matter of fact it would be helpful if they 
learn some democracy, had local elections, then national 
elections and govern themselves in a very different way, 
treated women in a very different way, and lots of other 
things.
    In other words, perhaps we say that is not our mission any 
more, we are not going to be democracy nation-builders 
everywhere, everyplace, on the basis that that is our role and 
their destiny. Or finally, we might say that, as a matter of 
fact, we are stretched in any event. As you have all mentioned, 
the multinational aspect of the war on terror is of the 
essence. It requires the cooperation of intelligence services, 
the cooperation of all the territories, not just the Middle 
East but throughout Africa, now Europe, which as you say is a 
major battle ground, even Canada, perhaps the United States. 
Ultimately the question that I raise is, to what extent are our 
policies with regard to the Middle East contradictory to the 
point that they almost engender this problem? Or is this 
inevitable? Is the fight of Israel against all comers, as we 
try to bring about independence there, something that, even if 
we solve the problem of occupation in Saudi Arabia and the oil, 
would still generate such resentment that people would say you, 
the United States, still are the occupying predominant power 
and you are trying to rearrange the situation out in our 
territory?
    Under those circumstances, does this war or conflict ever 
come to an end? This is a broad set of questions, but address 
that if you can for my help.
    Mr. McLaughlin. I think that is the toughest question I 
have heard asked in this hearing, Mr. Chairman, but I will take 
a shot at it because you have put this in a very large 
strategic scope. I do not think there is a crystal-clear simple 
answer to what you have raised, but let me think out loud about 
it on a couple of scores.
    First, I do not think the war on terror or, as I called it 
in my testimony, the campaign against Islamic radicalism, is 
fundamentally about oil, although some radicals define it that 
way. Of course, as you know better than anyone, states 
calculate their policies on the basis of interests. Well, we 
have not found a substitute for oil. World oil demand is 
projected to rise by 50 percent over the next 20 years, as 
contrasted with 34 percent in the 2 decades previous to that. 
China's demand alone is projected to rise by 150 percent. Our 
own demand is rising. We are still the largest consumer of oil 
in the world per capita. And 70 percent of the world's 
exportable oil is in the Persian Gulf.
    So this is not about oil. No one went into Iraq for oil. We 
did not combat Saddam Hussein after the invasion of Kuwait 
exclusively about oil. But in realistic terms, oil is a factor 
in everyone's interests. China has just concluded multibillion 
dollar deals with Iran about oil and access and so forth. So 
that is all in the mix.
    So perhaps ending our dependence on oil would in some way 
ease the tensions that translate into the struggle against 
Islamic extremists. But on the other hand, it is important to 
realize that to some degree they use this as an excuse, I think 
to a large degree. The origins of their ideology, this 
particular part of the Islamic ideology, go back to a scholar 
named Taymiyya in the 13th century, long before people knew 
about oil, and the dispute within the Islamic world is 
essentially between those who interpret the Koran in one way, 
to justify killing of ``infidels'' and nonbelievers and 
everyone they want to kill, and those who accept what the Koran 
says about the illegitimacy of murdering civilians and so 
forth. It is a dispute that goes back to the Crusades.
    So I suspect even if we ended our dependence on oil this 
dispute would go on, and even our departure from a place like 
Saudi Arabia would not end it because their ambitions extend 
beyond simply getting us out. Their ambitions extend to 
controlling that territory themselves as a platform for 
extending their control. It is a wild dream they have, but it 
nonetheless is what motivates them to create this caliphate 
that would extend in their mind from somewhere in Southeast 
Asia all the way to North Africa.
    It is also worth remembering that they attacked us on 9-11, 
long before we were in Iraq. They attacked the Australians in 
Bali, long before the Australians were in Iraq with us. And 
they attacked us at a time when the Palestinian-Israeli dispute 
was not an intifada; it was, if anything, not exactly calm, but 
it had been through 2 or 3 or 4 years of relative progress 
leading up to the Camp David summit with President Clinton and 
so forth.
    So these are largely excuses they use, but I would not 
dispute your view that our presence and our dependence on oil 
injects a certain tension into this whole relationship, which 
if eliminated would make the problem clearer--would crystalize 
it more.
    You asked how will it all end. Well, in my testimony I say 
that it will not end until we have--and if I dig back into the 
paper I wrote--we have to basically take away their oxygen. We 
have to disrupt the things that give them global reach: Their 
communications, their financing, their ability to seek guidance 
from a central command structure, which still exists even 
though it is back on its heels, and isolate them to the point 
where these pieces of the network become manageable on a local 
level, and at the same time combat the ideology to the point 
where a few people still believe in it, just like you can find 
a few communists in the world, but no one takes them seriously 
any more.
    The Chairman. John, on that point, how do you dry up this 
oxygen in the sense that, picking up one of the points that Dan 
Benjamin said, there are self-starters among potential 
terrorists out there? Now, they can, on the Internet or on 
American TV, gain oxygen. In other words, if you are a person 
who for some reason has taken on a suicidal bent or a feeling 
somehow that your religion impels you not only to commit 
suicide, but to take a lot of other people along with you as 
you die, you can do this in Holland or in Spain or in Canada or 
the United States without really much of a support network at 
this point.
    In the event that the thing that excites you is that you 
still see a conflict between the Israelis and the Palestinians 
or you still see Americans in Iraq or threatening Iran or 
wherever may be, these may be apparitions that are inaccurate, 
but that is why I wonder, given the self-starter business and 
the indigenous arrangements, or even the foreign fighter 
concept, that you suddenly take on this complex that this is 
your mission, this is your life, and you just go wherever 
because you are a soldier of fortune.
    So long past Osama bin Laden has been lost, the financing 
by caravans dried up and so forth, why are we not fated to have 
the rest of our lives the existence of people and existence 
people engaged in suicidal terrorism who for some reason or 
other are stimulated by whatever they believe are perverse 
trends in life somewhere?
    Mr. McLaughlin. That is why I say we have to attack their 
ideology, and it has to come from the Muslim, from the Islamic 
community, because we are fated to fight this battle----
    The Chairman. They would be convinced by other Muslims that 
they are on the wrong track?
    Mr. McLaughlin. It has to be--there is a wonderful study I 
would commend to everyone, done by the U.S. Institute for 
Peace, on the terrorist uses of the Internet. It talks about 
eight different ways in which terrorists use the Internet. It 
is impressive--everything from psychological warfare on up to 
the more serious things like terrorism manuals about how to 
make bombs and stuff like that, and also planning operations, 
just as the 9-11 crew did.
    So we are fated to fight this battle in the age of the 
Internet, and that is a technology and it is a method, but it 
is only alive and vital and powerful so long as the ideas 
moving along the Internet are alive and vital and powerful. 
There are a lot of nutty things on the Internet too that no one 
pays any attention to. Somehow, I do not know how this is 
done--this is probably the subject for a hearing in and of 
itself--how do you change the way people think about their 
future if they kill themselves in these operations? I think it 
has to come from the Muslim community.
    I struggled in my testimony to sort of understand how we 
could help the Muslim community do that. I do not really have a 
good answer because I do not think they welcome our help in the 
way that you recall anticommunists welcoming our help. That is 
a tough one, but I think that is the only way we prevent this 
from being something we are dealing with 20, 30 years from now, 
is to dry up the ideology that supports it.
    The Chairman. Mr. Benjamin, will you pitch into this 
conversation and make a comment?
    Mr. Benjamin. Yes, gladly. I agree with much of what John 
has said. Let me throw out a few more ideas. We do have 
legitimate national interests in terms of oil. In fact, what 
counts most about oil in this context is the symbolism. It is 
interesting to note that the symbolism has changed somewhat. If 
you look back before 2001, bin Laden actually usually never 
spoke about attacking oil facilities and yet now it is very 
much in vogue and he has endorsed attacks on oil facilities. 
The reason was that before it was viewed as the patrimony. Now 
it is viewed as a way of attacking the West.
    I think that part of this is because of the appearance that 
we--and I emphasize, the appearance--that we are after the oil, 
after occupation of Muslim lands. One of the things that we 
forgot in the last few years is the colonial heritage of a lot 
of these nations and the extent to which they feel that their 
natural resources have been exploited and that they have been 
exploited.
    Now, that is why the story right now has particular 
resonance. Whatever we view our mission in Iraq as being--and I 
agree that it was not about oil--it is being distorted and seen 
that way. Oil is important in this equation, it seems to me, 
because our own dependence on oil, our desire for oil, has led 
our policymakers over a long period of time to emphasize 
stability over democracy in the region, and I give President 
Bush credit for having pointed that out in what was a very 
path-breaking speech some time ago.
    A lot of this is about bad governance and a feeling of 
illegitimacy about the governments of the region, and bin Laden 
and his followers have been able to capitalize on that sense of 
illegitimacy and of blighted futures by drawing this picture of 
autocrats who are supported by the West and autocrats who, in 
turn, sell out their nations for oil and who are themselves 
apostates and not supporters of the true faith.
    The Chairman. Just on that point, to what extent do you 
agree or disagree with the thought that the attack on 9-11 was, 
in fact, bin Laden's response to say to us: We are going to 
attack you, and the proper response on your side would be to 
keep out of our business. In other words, the reason why we are 
interested in you, even to the point of coming to the United 
States, is to get your attention; get out, leave the area to 
us.
    Mr. Benjamin. Well, this has been a recurrent theme in 
jihadist violence for a long time. When Ramsey Youssef, the 
architect of the first bombing of the World Trade Center, was 
being debriefed, he said: Well, we figured we had to kill a 
quarter of a million people to show America that it was in a 
war. In other words, America is too big and too insensitive to 
recognize that this is going on. And bin Laden has made the 
exact same argument. I do not think it is just about getting 
out. I think it is actually about a fundamental redrawing of 
the global order. In that regard I think we do need to 
distinguish between what the radicals think and what their 
appeal to moderates is. The radicals do think that this is 
about fundamentally restoring the greatness of Islamic 
civilization and redrawing the global international order so 
that the realm of Islam is dominant. I am not sure that most 
ordinary people feel that way, but they certainly do have 
sympathy--many of them have sympathy--when they see someone 
standing up for Muslim dignity in a way that they feel that 
their own leaders have not done over the years, and then they 
have very ambivalent, if not downright negative, feelings about 
those leaders.
    So this explains a lot of the attraction and it explains 
why, in countries like Pakistan and Jordan, bin Laden is 
enormously popular and the jihadist cause has considerable 
support. So that it seems to me explains the importance of oil 
in all this and why over the long term that democracy may cause 
us even more trouble in the near term. Over the long term it is 
an important part of the solution because when people are 
invested in their societies and cannot claim that they have 
imposed leaders from another part of the world then they will 
feel responsible for their own fate and that will make a big 
difference.
    I do think that we are going to be seeing suicide bombers 
for a very long time. You said is this going to go on forever 
and I think that this is an ideology that is very durable. But 
it will be, it seems to me, a tolerable threat and one we can 
manage once we have given moderates a strong reason to oppose 
it, to isolate the extremists, reduce the space they have to 
operate, and, as John suggested, deprive them of oxygen.
    When we do not have to worry about a suicide bombing every 
day, when we do not have to worry about a threat from a weapon 
of mass destruction, then I think we will be in a much better 
position and we will be in a place where we can say we have got 
it under control.
    The Chairman. Finally, I would just add weapons of mass 
destruction. Is there ever a possibility that we will be able 
to deny weapons of mass destruction to these groups? For 
example, despite all of our work, say, with Russia, quite apart 
from others outside, there are still unsecured facilities or 
less well-secured situations. Anyone studying this is going to 
be unnerved by the prospects, including Russians, as they took 
a look at the Chechens or others, that they feel are terrorists 
with regard to their situation.
    This is why I do not really have a pessimistic inevitably 
about all of this. In answer to one of Mr. McLaughlin's 
questions, we have talked about Pakistan a good bit today. We 
have had testimony before our committee about the madrassa 
schools. These are not all incubators of terrorism; very few 
are probably. But nevertheless there is testimony from Jessica 
Stern in her book and others who have talked, interviewed 
people going to some of these schools who came out of it almost 
like a fraternity meeting. They were all one together and 
looking toward another life and really working as to how they 
would effect this, even for themselves, leaving aside a broad 
scale of Pakistan as a whole or Osama bin Laden.
    So the entire change in educational facilities or the 
possibilities really of hope for many people is of the essence. 
But that is a broad scope and, as John McLaughlin has said, 
there has been resentment on the part of many of our coming in 
and saying, we would like to help you, we would like to set up 
a public school system. But if there is resentment of our 
philanthropy in this case, that is going to be difficult to do.
    Getting to these moderates that you are speaking of to 
effect these reforms is really of the essence in diplomacy. We 
must work toward identifying them, quite apart from finding the 
resources that would make them effective within their own 
societies.
    Well, let me cease for the moment because we are going to 
have a vote very shortly. Senator Nelson has come and I want to 
give him opportunity for some questions.
    Senator Nelson. Thank you, Mr. Chairman. Mr. Chairman, I 
would like to explore the parallels between Somalia and 
Afghanistan. So to either one of you, I would like you to talk 
about the comparisons and the mistakes that we made in 
Afghanistan when we left and saw the rise of the Taliban. Are 
we seeing parallels in the way that we are handling Somalia 
now?
    Mr. McLaughlin. Well, I think the situation in Somalia is 
still very cloudy. I was looking at it just this morning and 
trying to get a fix on this group of Islamists who have taken 
over there. But the parallels are striking in some respects.
    Somalia is a failed state. It is in recent years 
ungoverned. A variety of tribes hold sway who fight among 
themselves. For anyone to establish control over that country, 
if it is a country, is difficult. That is somewhat parallel to 
the situation in Afghanistan after the Soviets left and there 
were then successive battles among rival factions, ending with 
the installation of the Taliban in the mid- to late-1990s.
    I think there is a legitimate worry here. This is saying 
that I do not know everything about this new crew that has come 
to power, but they are Islamists. Ambassador Crumpton, this 
morning, said that they have kind of put a little olive branch 
out toward us, but I suspect we do not know what that means 
yet. I think we need to have legitimate concern that in that 
place we could see the emergence of a terrorist safe haven if 
these crew of people--this crew of people who have taken over--
are of the wrong persuasion, and I think there is a strong 
likelihood they are.
    Now, that said, they are going to have trouble establishing 
control there because the warlords they have displaced for the 
moment will not sit idly by and allow someone to set up a 
government. There is also this transitional government which 
tries to establish itself there.
    So bottom line, Senator, I would say yes, our Government 
needs to worry about the emergence of a terrorist safe haven 
there, and that means gathering a lot more information than I 
have at my fingertips here today to give you a confident 
estimate of the likelihood of that. But it is in a part of the 
world, East Africa, which is not as heavily resourced as I 
understand it in our counterterrorism efforts as some other 
parts of the world.
    Senator Nelson. And yet it is geographically in a very key 
location.
    Mr. McLaughlin. It is in a key location, and it is of 
course from there that we saw the Africa bombings in 1998 in 
August. As Ambassador Crumpton pointed out, one of the 
fugitives from that operation apparently is still in Somalia.
    So as I stressed in my testimony, we need to put very heavy 
relentless focus on parts of the world that are either 
ungoverned or less governed, and this is one of them. So that 
would be my take on it.
    Mr. Benjamin. I do not have much to add to that except that 
I would point out that Somalia has not been an inhospitable 
environment for radicals for a long time. I am not sure how 
much of a difference the fact that this group appears to be in 
power in Mogadishu will make, and that is something we need to 
look at carefully over the long term.
    One of the interesting things is that we have not seen more 
of a growth of radicalism in Somalia during this long period of 
anarchy. There has been a persistent threat in the southern 
part of the country and it has been seen in the East African 
embassy bombings and in the Mombasa plot of 2002. We should 
also be careful about now imagining that all our mistakes are 
the last mistakes. By the last mistake I mean leaving 
Afghanistan to degenerate in the way it did during the 1990s 
and become a safe haven for al-Qaeda. Frankly, I worry a lot 
more about what is going on in Europe than I do in East Africa. 
We do have to be vigilant, we do need to get a very good idea 
of what is going on there, and we do need to prevent that from 
becoming exploited as a real safe haven. But there are so many 
different places in the world we need to keep an eye on and, 
frankly, right now, I worry more about radicalism in some other 
parts of the world.
    Senator Nelson. What do you think the Government's position 
ought to be, to reach out to the new government in Mogadishu or 
to isolate them in Somalia?
    Mr. McLaughlin. Well, neither of us are policymakers, but 
we are both private citizens now, so if I were----
    Senator Nelson. With a lot of experience, I might say.
    Mr. McLaughlin [continuing]. If I would advise our 
Government, I would say reaching out is better than isolating, 
because we do not know who these guys are yet. I do not think 
anyone confidently knows that. We would have to sort out our 
relationship with this transitional government that we have had 
contact with. But you know, it is always better to know who you 
are dealing with and in some situations, as Churchill said, 
jaw-jaw is better than war-war.
    Mr. Benjamin. I completely agree with that, and I would add 
that we have suffered in the past from refusing to talk to 
people we did not like or have been suspicious about. I would 
add that one of the main issues that we are going to have to 
grapple with in the years ahead is who are the Islamists who we 
can do business with? This is something that we have not sorted 
out at all and we will not sort out except through long 
discussions and analysis of their positions and their actions.
    Senator Nelson. Thank you, Mr. Chairman. We have a vote.
    The Chairman. We do indeed. Thank you, Senator Nelson.
    We really thank both of you for remarkable papers, as well 
as your forthcoming responses to our questions. It is obvious 
that we would continue the dialog for some time if we were not 
constrained by the fact that you have other responsibilities 
and we have ones as well, the vote on the Senate floor. Thank 
you so much for coming.
    So saying, the hearing is adjourned.
    [Whereupon, at 12:22 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
